<html>
<title> - ELECTRONIC ON-BOARD RECORDERS (EOBRs) AND TRUCK DRIVER FATIGUE REDUCTION</title>
<body><pre>[Senate Hearing 110-1205]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1205
 
    ELECTRONIC ON-BOARD RECORDERS (EOBRs) AND TRUCK DRIVER FATIGUE 

                               REDUCTION
=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION

                  AND MERCHANT MARINE INFRASTRUCTURE,

                          SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
79-551                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     GORDON H. SMITH, Oregon, Ranking
    Chairman                         JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TRENT LOTT, Mississippi
    Virginia                         KAY BAILEY HUTCHISON, Texas
JOHN F. KERRY, Massachusetts         OLYMPIA J. SNOWE, Maine
BYRON L. DORGAN, North Dakota        JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 2007......................................     1
Statement of Senator Klobuchar...................................    55
Statement of Senator Lautenberg..................................     1
Statement of Senator Pryor.......................................    25
Statement of Senator Smith.......................................     2

                               Witnesses

Gabbard, Jerry G., Vice President and General Manager, Commercial 
  Vehicles, NAFTA Region, Siemens VDO Automotive Corporation.....    28
    Prepared statement...........................................    30
Harrison, Captain John E., President, Commercial Vehicle Safety 
  Alliance.......................................................    12
    Prepared statement...........................................    14
Hill, Hon. John H., Administrator, Federal Motor Carrier Safety 
  Administration, U.S. Department of Transportation..............     2
    Prepared statement...........................................     4
McCartt, Anne T., Senior Vice President, Research, Insurance 
  Institute for Highway Safety...................................    34
    Prepared statement...........................................    36
Olson, Richard G., CEO, FIL-MOR Express, Inc.....................    50
    Prepared statement...........................................    53
Reiser, Richard S., on behalf of the American Trucking 
  Associations, Inc. (ATA); Executive Vice President and General 
  Counsel, Werner Enterprises, Inc.; Chairman, ATA's Hours-of-
  Service Committee..............................................    38
    Prepared statement...........................................    40
Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board..........................................................     7
    Prepared statement...........................................     9

                                Appendix

Rajkovacz, Joe, Member, Board of Directors, Owner-Operator 
  Independent Drivers Association, prepared statement............    61
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Captain John E. Harrison.....................................    69
    Hon. John H. Hill............................................    64
    Richard S. Reiser............................................    71


    ELECTRONIC ON-BOARD RECORDERS (EOBRs) AND TRUCK DRIVER FATIGUE 
                               REDUCTION

                              ----------                              


                          TUESDAY, MAY 1, 2007

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Our Subcommittee hearing today is on 
electronic on-board recorders and truck driver fatigue 
reduction.
    I want to welcome everyone to today's hearing as we begin 
the Subcommittee's work on truck safety. It's a factor that 
worries all of us, particularly in a state like mine which has 
high-density travel, and in New Jersey, we are very conscious 
of risk that we face with a mixture of cars and trucks on the 
same roads, all competing for space and time.
    Today, we're going to focus on reducing truck driver 
fatigue through the use of safety technologies. Each year, some 
43,000 Americans die in traffic crashes; 5,000 of them are 
killed in a crash with a large truck. Surveys show that as many 
as one in five truck drivers regularly exceeds the maximum 
hours that they may drive under the law, and we know that that 
fatigue causes crashes.
    The paper logbook system for recording driver time is 
outdated, easy to falsify, and fails to ensure safety. But 
there's an existing technology available to better enforce our 
safety laws. A device, presented over here on the table, called 
an ``electronic on-board recorder,'' could help prevent 
tragedies by giving trucking companies and law enforcement 
officials a way to enforce hours-of-service.
    These recorders can be installed in a truck's cab, made 
tamperproof, and programmed like a black box to record safety 
data, including engine operation, location, mileage, speed, and 
braking data. Further, I believe that these recorders could be 
used to help drivers accurately log the time spent loading and 
unloading trucks at terminals. This work, and the delays that 
sometimes occur at these facilities, can significantly add to 
driver fatigue, consumes a lot of time.
    Last, on-board recorders can save time and money for 
truckers and trucking companies by reducing paperwork, 
improving fleet management, and increasing safety.
    Electronic on-board recorders are already required in big 
trucks in the entire European Union, and many other countries 
in Asia, and South Africa. They've noted substantial reduction 
of accidents as a result--in the European Union--of the 
device's presence. Safety advocates have been advocating their 
mandatory use in the United States since the 1980s.
    So, I'm perplexed as to why the Federal Motor Carrier 
Safety Administration proposed in January to require recorders 
on as few as 465 of the more than 700,000 trucking companies in 
this country. It doesn't make any sense.
    Under the proposal, only 1 and a half percent of the 
industry will even be inspected for compliance with truck 
safety laws each year. Now, I'm not sure that the industry 
themselves could have written a more favorable proposal if they 
choose not to be concerned about this. We need electronic on-
board recorders in every truck on the road to ensure the safety 
of our truck drivers and the families who travel on the 
highways.
    So, I thank our witnesses for appearing today. Before we 
call on them, I want to recognize my colleague, Ranking Member 
Smith,
    Senator Smith, your comments, please?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I appreciate your 
scheduling this important and timely hearing. Thank all the 
witnesses for being here. I particularly want to welcome 
Administrator John Hill, who, I understand, recently was in 
Oregon, where he addressed the Oregon Truckers Association. And 
I hear you earned rave reviews.
    So, we're fortunate to have an impressive group of experts 
with us to discuss an issue that's been debated for several 
decades and is now the subject of pending rulemaking.
    So, I look forward to the hearing.
    Senator Lautenberg. Thank you very much. We're pleased to 
have you join us for this hearing.
    And I would now call on Mr. Hill. We welcome you here. You 
bring a lot of experience and knowledge. We're pleased to have 
your testimony. And if you would be--start with us. We'll give 
you 5 minutes. If you don't break down at 5, we'll give you 
some coasting time, maybe another minute, but we ask you to 
summarize, please.
    Thank you.

         STATEMENT OF HON. JOHN H. HILL, ADMINISTRATOR,

          FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Hill. Mr. Chairman, I'll try to be right on time.
    Chairman Lautenberg and Ranking Member Smith, and members 
of the Committee, thank you for inviting me to discuss the 
Federal Motor Carrier Safety Administration's proposed 
rulemaking concerning electronic on-board recorders and our 
efforts to reduce the number of fatigue-related crashes.
    I am pleased to describe FMCSA's proposal to require 
carriers with severe patterns of hours-of-service violations to 
use EOBRs and to promote the voluntary use of EOBRs throughout 
the industry. We are currently analyzing all the comments 
received on the proposal, and we will also incorporate the 
comments from this hearing into the public docket, basing 
future decisions on a complete analysis of all submitted 
information.
    Since 2000, FMCSA has been exploring the EOBR issue, 
including whether these devices should be mandatory, and 
analyzing proper design, use, cost, and benefits.
    In May 2000, FMCSA proposed requiring the use of on-board 
recorders for long-haul and regional carriers based on data 
indicating, one, the higher percentage of crashes involving 
these carriers; and, two, noncompliance with the hours-of-
service regulations, particularly by some segments of the long-
haul industry.
    The proposal was part of the Agency's comprehensive 
rulemaking on hours-of-service. After reviewing nearly 50,000 
comments to the rulemaking docket, and the data concerning the 
potential costs and benefits of requiring the use of on-board 
recorders, the Agency decided to focus, at that time, on 
completing the first major revision to the hours-of-service 
rules in over 50 years.
    In September 2004 FMCSA published an advance notice of 
proposed rulemaking, requesting public comment on the issue of 
technological specifications for EOBRs and whether their use 
should be required for the entire motor carrier industry, 
certain segments of the industry, or whether they should remain 
voluntary.
    During 2005, we completed a literature and technology 
review and study focusing on a range of data collection and 
information management topics.
    In January 2007, FMCSA proposed a rule intended to increase 
the use of electronic on-board recorders within the industry 
and to improve hours-of-service compliance. The proposal 
contains three components: one, a new performance-based 
standard for EOBR technology; two, the use of EOBRs to enforce 
and monitor regulatory noncompliance; and three, incentives to 
promote EOBR use. We believe these three components strike a 
balance promoting highway safety while objectively evaluating 
the cost and benefits of the rulemakings. In addition to 
requesting comments through the Federal Register notice, the 
agency held three public listening sessions in Washington, 
D.C.; Phoenix, Arizona; and Chicago, Illinois.
    In our enforcement activities, FMCSA targets unsafe 
companies. Based on our safety research, motor carriers whose 
drivers routinely exceed hours-of-service limits have an 
increased probability of involvement in fatigue-related 
crashes. The carriers that would be required, under the 
proposed rule to use EOBRs have crash rates that are 87 percent 
higher than the overall industry average. Therefore, we propose 
a risk-based approach to target these carriers.
    EOBR technology is available and an important tool to 
ensure improved unsafe driving behavior. Drivers must follow 
the hours-of-service rules to protect them and those with whom 
they share the road. FMCSA's Large Truck Crash Causation Study 
shows that approximately 13 percent of the large truck crashes 
involved some form of fatigue on the part of the commercial 
vehicle driver. EOBRs will help to encourage compliance of 
drivers violating hours-of-service regulations and reduce the 
likelihood of fatigue-related crashes.
    My experience in traffic safety has taught me that 
meaningful traffic enforcement programs must contain strong and 
valuable laws and rules, public support for the law to 
encourage voluntary compliance, an effective enforcement regime 
that imposes sanctions for noncompliance, and, finally, there 
must be meaningful adjudication processes.
    The 2007 notice of proposed rulemaking for electronic on-
board recorders will provide a basis for meaningful enforcement 
of those who flaunt the safety of our highways. We intend to 
build on that NPRM as we review the comments, the docket, and 
will take them into consideration in determining the most 
appropriate action.
    Thank you for the opportunity to appear before you today, 
and I'll be looking forward to your questions.
    [The prepared statement of Mr. Hill follows:]

 Prepared Statement of Hon. John H. Hill, Administrator, Federal Motor 
    Carrier Safety Administration, U.S. Department of Transportation
Introduction
    Chairman Lautenberg, Ranking Member Smith, and Members of the 
Subcommittee, thank you for inviting me today to discuss the Federal 
Motor Carrier Safety Administration's (FMCSA's) proposed rulemaking 
concerning Electronic On-Board Recorders (EOBRs) and our efforts to 
reduce the number of fatigue-related crashes involving commercial motor 
vehicle (CMV) drivers. I am pleased to describe to you what FMCSA has 
proposed to improve the safety performance of motor carriers with 
severe patterns of hours-of-service (HOS) violations, and to promote 
the voluntary use of EOBRs in the motor carrier industry. However, as 
FMCSA is now analyzing all the comments received on the proposal, we 
have not made any decisions about the next step in the rulemaking. Any 
future decisions concerning the rulemaking will be based on our 
analysis of the comments and data submitted to the docket.
    These days, the transportation community must confront many 
important issues. Even as priorities change and transportation needs 
evolve, safety on our roads must remain paramount to all other 
priorities. Perhaps the most important influence on improving future 
road safety rests with technology. By strategically integrating smart 
technologies like EOBRs, we will improve safety in the motor carrier 
industry.
    For many years, the transportation community has focused on 
fighting driver fatigue as a way to make our roads safer. Earlier this 
year, we took another step toward reducing the number of these crashes 
by proposing the mandatory use of EOBRs by carriers with the worst 
levels of compliance with the HOS rules. This action will force these 
carriers to provide their drivers with adequate opportunities to obtain 
the proper amount of rest before getting behind the wheel.
Background
    Initially prompted by a desire to improve efficiency, the motor 
carrier industry began looking to automated methods for recording 
drivers' duty status more than 20 years ago. In the late 1980s, we 
implemented the first rule allowing the use of automatic on-board 
recording devices (AOBRDs). Still in effect today, the rule provides 
straightforward performance requirements for these devices to ensure 
they are tamper-resistant and capture enough information to monitor 
drivers' time behind the wheel.
    The existing design standard must permit duty status to be updated 
only when the vehicle is at rest, unless the driver is registering the 
crossing of a state boundary. The on-board recorder and support systems 
must be tamper resistant ``to the maximum extent practicable.'' The 
device must provide a visual or an audible warning to the driver if it 
ceases to function. Any sensor failures and edited data must be 
identified in the Records of Duty Status, more commonly known as log 
books, printed from the device. Finally, the on-board recorder must be 
maintained and recalibrated according to the manufacturer's 
specifications, drivers must be adequately trained in the proper 
operation of the device, and the motor carrier must maintain a second 
(backup) copy of electronic HOS files in a separate location.
    At the time the current rule was issued, the technology to allow 
on-board recorders to transmit data wirelessly between the CMV and the 
motor carrier's base of operations did not exist on a widespread 
commercial basis. Today's technologies allow for real-time transmission 
of a vehicle's location and other operational information. These 
technologies enable a motor carrier to know at any point in time where 
a vehicle is, whether it is on its assigned route, and when it reaches 
its destination. These same technologies can also be used to record and 
transmit the driver's HOS information. FMCSA calls these current-
generation recording devices electronic on-board recorders or EOBRs. By 
exploiting the power of these technologies, a motor carrier can improve 
not only its scheduling of vehicles and drivers but its asset 
management and customer service. These developments in technology and 
communications require that FMCSA revise the current, narrowly defined 
on-board recorder regulations.
May 2000 Proposal to Require EOBRs
    Since 2000, the Federal Motor Carrier Safety Administration has 
been exploring the EOBR issue further--including whether these devices 
should be mandatory--and analyzing proper design, use, costs, and 
benefits. In May 2000, FMCSA proposed requiring the use of on-board 
recorders for long-haul and regional carriers based on data indicating: 
(1) a higher percentage of crashes involving these carriers; and (2) 
non-compliance with the HOS regulations, particularly by some segments 
of the long-haul industry. The proposal was part of the Agency's 
comprehensive rulemaking on HOS of CMV drivers.
    After reviewing the public comments to the rulemaking docket and 
considering data concerning the potential costs and benefits of the 
proposal to mandate AOBRDs, the Agency decided that mandating the use 
of on-board recorders was not appropriate at that time. However, the 
Agency determined there was a need to further explore the potential of 
this technology for helping to ensure that motor carriers and drivers 
comply with the HOS rule. To this end, the Agency conducted research on 
EOBRs and other technologies, and considered the feasibility of 
providing incentives for their voluntary use. Key research factors 
included: (1) the ability to identify the individual driver; (2) tamper 
resistance; (3) the ability to produce records for audit; (4) the 
ability of roadside enforcement to quickly and easily access the HOS 
information; (5) the level of protection afforded other personal, 
operational, or proprietary information; (6) cost; and (7) driver 
acceptability. The research included a literature and technology review 
that was completed in March 2005, and a study focusing on a range of 
data collection and information management topics, including location 
referencing methods, completed in August 2005.
Initiation of New Rulemaking in 2004
    On September 1, 2004, FMCSA published an Advance Notice of Proposed 
Rulemaking (ANPRM) requesting public comment on the issue of technical 
specifications for EOBRs, and whether the use of such devices should be 
required for the entire motor carrier industry, certain segments of the 
industry, or whether use of the devices should remain voluntary. During 
2005, we analyzed the comments to the ANPRM and prepared a proposal for 
a new EOBR rule that takes those comments into consideration.
January 2007 Proposal
    In January 2007, FMCSA proposed a comprehensive rule intended to 
increase the use of EOBRs within the motor carrier industry and to 
improve HOS compliance. The approach contains three components: (1) a 
new performance-oriented standard for EOBR technology; (2) the use of 
EOBRs to remediate regulatory noncompliance; and (3) incentives to 
promote EOBR use. FMCSA believes this approach strikes an appropriate 
balance between promoting highway safety and Executive Order 
requirements to evaluate the societal costs and benefits of all 
significant rulemakings. In addition to requesting comments through the 
Federal Register notice, the Agency held three listening sessions in 
Washington, D.C.; Phoenix, AZ; and Chicago, IL.
    FMCSA's NPRM proposes amending the safety regulations to 
incorporate new performance standards for EOBRs installed in CMVs 
manufactured on or after 2 years from the effective date of a final 
rule. EOBRs meeting FMCSA's current requirements and voluntarily 
installed in CMVs manufactured before the rule's effective date may 
continue to be used for the remainder of the service life of those 
CMVs.
    The technical standards element of the proposed rule would help 
motor carriers and safety compliance officials by providing them with 
clearly defined information, presented and stored in a standardized 
way. These standards would provide a ``benchmark'' for EOBR system 
developers to use in designing their systems and for motor carriers to 
use in comparing the features and performance of different systems. The 
standards would also enable motor carriers to select the devices that 
are most appropriate for different types of operations, knowing that 
the data from the different systems will be recorded, stored, and 
secured in consistent ways. This portion of the rule would require 
EOBRs to record basic information needed to track a driver's HOS 
compliance, including: identity of the driver, duty status, date, time, 
and location of the commercial vehicle, and distance traveled. 
Additionally, it would add a new requirement to use Global Positioning 
System technology or other location tracking systems to automatically 
identify the location of the vehicle, which further reduces the 
likelihood of falsification of HOS information.
    Our proposed technical specifications would improve dramatically 
the ease and convenience of using these devices as a safety tool. 
First, there would be standard display of specific data fields. 
Regardless of location or which manufacturer's device is being used, 
every read-out and display would be in a similar format. Additionally, 
the technology would have to support the ability to transfer the data--
either by hard wire or wireless transmission. Updating the technology 
standards will allow us to make the best use of modern and efficient 
communications. Uniformity will help drivers and law enforcement know 
how to use these devices regardless of manufacturer or model.
    The rule further proposes that motor carriers with a history of 
serious noncompliance with the HOS rules would be subject to mandatory 
installation of EOBRs meeting the new performance standards. If FMCSA 
determined, based on HOS records reviewed during each of two compliance 
reviews (CRs) conducted within a 2-year period, that a motor carrier 
had a 10 percent or greater violation rate (``pattern violation'') for 
certain HOS regulations, FMCSA would issue the carrier an EOBR remedial 
directive. The motor carrier would be required to install EOBRs in all 
of its CMVs regardless of their date of manufacture unless the carrier 
had equipped its vehicles already with AOBRDs meeting the Agency's 
current requirements and could demonstrate to FMCSA that its drivers 
understand how to use the devices.
    Finally, FMCSA would encourage industry-wide use of EOBRs by 
providing the following incentives for motor carriers that voluntarily 
use EOBRs in their CMVs: (1) revising its compliance review procedures 
to permit examination of a random sample of drivers' records of duty 
status; and (2) providing relief from HOS supporting documents 
requirements, provided certain conditions were satisfied.
Rationale for Limiting the Mandate
    In all our enforcement activities, FMCSA focuses on those companies 
that are most likely to be a safety hazard on the road. Based on its 
safety research, FMCSA believes that motor carriers whose drivers 
routinely exceed HOS limits have an increased probability of 
involvement in fatigue-related crashes and therefore present a 
disproportionately high risk to highway safety. Based on the Agency's 
analysis of its Motor Carrier Management Information System data from 
CRs conducted on motor carriers operating in interstate commerce, 
carriers to which a remedial directive would apply under this proposal 
have crash rates that are 87 percent higher than the overall industry 
average. Currently, carriers with high crash rates and high driver HOS 
violation rates top our priority list for CRs and are targeted at the 
roadside for increased inspections.
    Under this proposed rule, only those truck companies with a history 
of serious HOS violations would be required to install EOBRs in all of 
their commercial vehicles. Within the first 2 years of the rule's 
enforcement, we estimate that 930 carriers with 17,500 drivers would 
fall under this requirement.
    FMCSA recognizes the views of many in the highway safety community 
and the general public about mandating EOBRs. However, there are 
several million CMVs on America's roads today. Our estimated costs for 
mandating EOBRS on every vehicle in the fleet greatly exceeded the 
estimated benefits at the time we published the April 2003 Final Rule 
on drivers' HOS. Therefore, we focused on finding other ways to get 
more of these units on CMVs without creating an unreasonable burden 
with a government mandate. Consequently, we proposed a risk-based 
approach to target this technology where it is likely to have the most 
benefits for the driving public.
Driver Behavior
    While EOBR technology is at our disposal, we must always remember 
that it is just another tool to ensure safe driver behavior. Drivers 
must also follow the HOS rules that protect them and protect those with 
whom they share the road. In 2003 and again in 2005, FMCSA revised its 
HOS regulations to require motor carriers of property to provide 
drivers with better opportunities to obtain sleep and thereby reduce 
the incidence of crashes attributed in whole or in part to drivers 
operating CMVs while drowsy, tired, or fatigued. These rulemakings were 
necessary because FMCSA estimated that a portion of truck drivers 
involved in large truck crashes each year is fatigued. Specifically, 
the results from our March 2006 Report to Congress on the Large Truck 
Crash Causation Study indicate that 13 percent of the large truck 
drivers involved in study crashes were believed to be fatigued. FMCSA 
estimates that, when adhered to fully, the changes to the HOS rules 
will save lives each year as a result of giving drivers an increased 
incremental amount of time to obtain rest and sleep. EOBRs will monitor 
non-complying motor carriers for compliance with these important rules.
Conclusion
    Motor carriers have been allowed to use on-board recorders to 
document drivers' HOS for approximately 20 years. While the current 
level of on-board recorder use is limited and many believe that nothing 
short of an industry-wide mandate will improve safety, the information 
we had available at the time we published our NPRM did not support an 
industry-wide mandate. We have received strong feedback to our NPRM and 
have begun the process of reviewing each of the comments to the docket 
to determine the most appropriate steps to take in following up on the 
January 2007 proposal.
    Thank you for the opportunity to appear before you today. I look 
forward to working with this Committee and the transportation community 
to ensure a safe transportation system for the citizens of the United 
States. I would be happy to answer any questions you may have.

    Senator Lautenberg. Thank you very much, Mr. Hill.
    The witnesses range from the Administration to trucking 
industry officials to the manufacturers of the on-board 
recorders, and we, obviously, welcome all of you to the witness 
table.
    Mr. Rosenker, Mark Rosenker, Chairman of the National 
Transportation Safety Board, welcome, and please give your 
testimony.

    STATEMENT OF HON. MARK V. ROSENKER, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Thank you, Chairman Lautenberg, Ranking 
Member Smith for allowing me to present testimony on behalf of 
the National Transportation Safety Board. It is my privilege to 
represent an agency that is dedicated to the safety of the 
traveling public.
    Today, I'd like to talk about how technology can help 
prevent fatigue-related accidents by improving commercial 
driver compliance with the hours-of-service regulations.
    First, I'd like to compliment the administrator and his 
organization, the Federal Motor Carrier Safety Administration, 
on beginning this process and framing the public debate by 
issuing a notice of proposed rulemaking on electronic data 
recorders for hours-of-service.
    As you know, paper logbooks offer many opportunities to 
play fast and loose with the hours-of-service rules. Some 
unscrupulous drivers falsify their books, or keep two sets of 
books. Some motor carriers do not closely monitor their 
driver's compliance with the rules and some may actually coach 
their drivers on how to fudge their logbooks.
    Recognizing this lack of accountability with paper 
logbooks, the Safety Board has advocated the use of on-board 
data recorders for the past three decades. In 1977, the Safety 
Board issued its first recommendation on the use of on-board 
recording devices for hours-of-service compliance by asking the 
Federal Highway Administration to explore the merits of 
tachographs on reducing commercial vehicle accidents. Although 
the Highway Administration studied the issue, they did not make 
any changes.
    During the 1980s, the technology for on-board recorders for 
hours-of-service improved dramatically. In 1990, as part of a 
study on heavy-truck crashes, the Safety Board recommended that 
the Highway Administration and the states require the use of 
automated, tamperproof on-board recording devices. This 
recommendation was rejected by the Highway Administration.
    In 1995, the Board reiterated this same recommendation to 
the Federal Highway Administration and the states. Both failed 
to act.
    In 1998, the Safety Board tried a different approach and 
made recommendations directly to the industry, asking them to 
equip their commercial vehicle fleets with automated and 
tamperproof on-board recording devices. This recommendation was 
opposed by the industry.
    In 2001, when the new FMCSA issued an NPRM for hours-of-
service of drivers, the Board reiterated its position that 
FMCSA strongly consider mandatory use of electronic on-board 
recorders by all motor carriers. FMCSA did not incorporate this 
suggestion into the NPRM.
    Finally, 2 weeks ago, the Board sent a letter to the FMCSA 
expressing our disappointment with the NPRM on-board recorder 
issue. There are three primary reasons why the Board felt that 
the NPRM fell short of its intended target:
    First, the Board would like to see damage-resistance and 
data-survivability included in the standards for recorder 
hardware.
    Second, the Safety Board believes on-board recorder 
technology should be applied to all carriers, rather than only 
to carriers found to be pattern violators. It will be extremely 
difficult for FMCSA to identify and administer the program on 
an exception basis, given that they can only audit annually 
about 1 percent of the carriers and that the Board has found 
significant problems with their current compliance review 
program. Therefore, the Safety Board is convinced that the only 
effective way in which on-board recorders can help stem hours-
of-service violations, which the Board has linked to numerous 
fatigue-related accidents, is to mandate their use by all 
operators.
    Third, the proposed rulemaking attempts to promote the 
voluntary installation and use of on-board recorders. It seems 
extremely unlikely that the unscrupulous motor carrier, who 
already plays fast and loose with the logbooks, would be 
willing to comply with a voluntary program.
    In summary, fatigue-related accidents continue to plague 
our Nation's highways, because, unlike alcohol, fatigue is 
extremely difficult to detect. In fact, fatigue is probably the 
most under-reported causal factor in highway accidents. 
Electronic on-board recorders hold the potential to efficiently 
and accurately collect and verify the hours-of-service for all 
drivers. They will also establish the proper incentives and a 
level playing field for compliance with hours-of-service rules 
and will ultimately make our highways safer for all drivers.
    Accordingly, Safety Board urges Congress to support the 
requirement for on-board recorders for all motor carriers.
    I would be delighted to answer any questions.
    [The prepared statement of Mr. Rosenker follows:]

        Prepared Statement of Hon. Mark V. Rosenker, Chairman, 
                  National Transportation Safety Board
    Good morning Chairman Lautenberg, Ranking Member Smith, and Members 
of the Subcommittee. Thank you for allowing me this opportunity to 
present testimony on behalf of the National Transportation Safety Board 
regarding Electronic On-Board Recorders for Hours-of-Service 
Compliance.
    As you know, the NTSB is an independent Federal agency charged by 
Congress with investigating every civil aviation accident in the United 
States and significant accidents in other modes of transportation--
railroad, highway, marine, and pipeline, and issuing safety 
recommendations to prevent future accidents. The Safety Board also 
oversees the assistance to victims and their families following 
commercial aviation accidents and also acts as the Court of Appeals for 
airmen, mechanics and mariners whenever certificate action is taken by 
the Federal Aviation Administrator or the U.S. Coast Guard Commandant 
or when civil penalties are assessed by the FAA.
    Since its inception in 1967, the Safety Board has investigated 
about 138,000 aviation accidents and thousands of surface 
transportation accidents. In addition, the Safety Board has issued more 
than 12,600 safety recommendations in all modes of transportation. 
Although we do not have authority to regulate safety, our reputation 
and our perseverance in following up on safety recommendations has 
resulted in an 82 percent acceptance rate for our recommendations.
    Today, I would like to talk about how technology can help prevent 
fatigue-related accidents by improving commercial driver compliance 
with the hours-of-service regulations.
    As you know, the Federal Motor Carrier Safety Administration 
(FMCSA) published a notice of proposed rulemaking (NPRM) regarding 
``Electronic On-Board Recorders for Hours-of-Service Compliance,'' on 
January 18, 2007 and asked for comments by April 18, 2007. Although 
this very important rulemaking has the potential to greatly improve the 
compliance with hours-of-service rules, and ultimately reduce fatigue-
related accidents, it will not accomplish this in its present form.
    First I would like to give you some background and long history on 
the Board's position on this issue.
    For the past 30 years, the Safety Board has advocated the use of 
on-board data recorders to increase hours-of-service compliance of 
commercial drivers. As you know, commercial drivers are currently 
required to keep logbooks on the hours they drive. However, for many 
reasons these log books often do not reflect the true hours of 
operation. Because drivers for the most part are paid by the mile and 
motor carriers make more money the more miles that are driven by their 
drivers, neither party has adequate incentives for compliance with the 
hours-of-service rules. The current system of paper logbooks offers 
many opportunities to play fast and loose with these rules. Some 
unscrupulous drivers write down hours different from those that they 
actually drive, some maintain multiple logbooks, and some outright 
falsify the information. In addition, some motor carriers do not 
closely monitor their drivers' compliance with the rules and some 
actually may coach their drivers on how to fudge their logbook. It is 
not comical, but many in the truck and bus industry affectionately call 
the logbooks ``comic books''.
    Let me summarize some of the key events that have led to the 
Board's position on hours-of-service compliance.
    In 1977, the Safety Board issued its first recommendation on the 
use of on-board recording devices for commercial vehicle hours-of-
service compliance. It was in response to the Federal Highway 
Administration's (FHWA's) withdrawal of an Advance Notice of Proposed 
Rulemaking concerning the installation of tachographs in interstate 
buses. That recommendation proposed that the FHWA:

        Conduct scientifically controlled studies to determine the 
        effects and merits of the use of tachographs on commercial 
        vehicles in reducing accidents. (H-77-32)

    In April 1977, FHWA rejected the Board's recommendation due to 
``insufficient credible evidence of the effectiveness of recording 
speedometers as an accident prevention device'' and due to ``evidence 
that present day technology of recording speedometers severely limits 
their use to certain purposes and specific conditions.''
    In the 1980s, the technology for on-board recorders for hours-of-
service improved dramatically, such that in 1990, the Safety Board 
first urged the FHWA to mandate the use of on-board recorders.
    The Board made this recommendation in its 1990 safety study on 
Fatigue, Alcohol, Drugs, and Medical Factors in Fatal-to-the-Driver 
Heavy Truck Crashes. This study concluded that on-board recording 
devices could provide a tamper-proof mechanism to enforce the hours-of-
service regulations. The study also found that, of the 182 cases 
studied, the most frequently cited factor or probable cause in these 
accidents was fatigue, cited in 31 percent the cases. Alcohol was 
second at 29 percent. Therefore, the Safety Board recommended that the 
FHWA:

        Require automated/tamper-proof on-board recording devices such 
        as tachographs or computerized logs to identify commercial 
        truck drivers who exceed hours-of-service regulations. (H-90-
        28)

    An identically worded companion recommendation was made to the 
states, the Commonwealth of Puerto Rico, the Virgin Islands, and the 
Territories (H-90-48).
    In 1995, the Board reiterated this Safety Recommendation (H-90-28) 
in its safety study on ``Factors That Affect Fatigue in Heavy Truck 
Accidents'' in which 107 heavy truck accidents were studied. The study 
also noted that the incidence of driver fatigue is under-represented in 
the Fatality Analysis Reporting System (FARS) database. Both the FHWA 
and the states failed to act on this recommendation.
    In 1998, the Safety Board again advocated industry-wide use of on-
board recording devices after investigating a multiple-vehicle accident 
that occurred in Slinger, Wisconsin, on February 12, 1997 in which 8 
persons died. This time, rather that focusing on regulations we tried a 
different route and made the recommendations to the American Trucking 
Associations, the International Brotherhood of Teamsters, and the Motor 
Freight Carriers Association, the Independent Truckers and Drivers 
Association, the National Private Truck Council, and the Owner-Operator 
Independent Drivers Association, Inc. The recommendation was:

        Advise your members to equip their commercial vehicle fleets 
        with automated and tamper-proof on-board recording devices, 
        such as tachographs or computerized recorders, to identify 
        information concerning both driver and vehicle operating 
        characteristics. (H-98-26) (H-98-23)

    At that time the American Trucking Associations responded that it 
opposed the mandatory installation of such devices. The International 
Brotherhood of Teamsters and the Motor Freight Carriers Association did 
not respond.
    In August 12, 2001, the Safety Board reiterated its position 
regarding the use of on-board recorders for hours-of-service compliance 
in its response to the FMCSA's NPRM on Hours-of-Service of Drivers. In 
our response, the Safety Board again requested that the FMCSA strongly 
consider mandatory use of EOBRs by all motor carriers to help improve 
hours-of-service compliance.
    Finally, 2 weeks ago on April 18, 2007 the Board sent a letter to 
FMCSA expressing its disappointment with the notice of proposed 
rulemaking entitled ``Electronic On-Board Recorders for Hours-of-
Service Compliance''. Let me highlight some of the reasons why the 
Board felt the NPRM fell short of its intended target.
    As you know, the NPRM focuses on three elements:

        1. Performance-oriented standards for EOBR technology;

        2. Mandatory use of EOBRs by motor carriers who are found to 
        exhibit a pattern of violations of HOS regulations; and

        3. Development of incentives anticipated to encourage voluntary 
        industry-wide use of EOBRs.

    With respect to the first element, the Safety Board is generally 
satisfied with the direction proposed by the FMCSA except in the area 
of crash protection. Performance standards offer flexibility in the 
face of rapid technological advances; thereby requiring minimal-to-no 
changes to pertinent regulations. The NPRM makes several proposals 
designed to ensure the security and validity of EOBR data, but it fails 
to address EOBR damage resistance and data survivability. Naturally, 
the survival of the data is important, not only for regulatory 
compliance, but also to assist accident investigators to determine the 
influence of fatigue on the driver and the cause of the accident. 
Therefore, in its comments on FMCSA's NPRM, the Safety Board asked 
FMCSA to add performance standard factors that consider these issues.
    Concerning the second element, the Safety Board is disappointed 
that the NPRM did not propose to mandate the use of EOBRs by all 
operators subject to the hours-of-service regulations. The proposed 
rules only require EOBRs for carriers who are identified through the 
compliance review process as pattern violators of the hours-of-service 
regulations. Identifying such carriers seems problematic.
    For a carrier to be identified as such, the FMCSA must perform at 
least two compliance reviews on that carrier within a 2-year span. In 
2005, the FMCSA was only able to perform a total of 8,097 compliance 
reviews on a population of approximately 911,000 active and registered 
carriers, meaning that less than 1 percent of all carriers were 
assessed for safety and fitness. Although the FMCSA uses a computerized 
rating methodology (SafeStat) to target potentially unsafe carriers for 
compliance reviews, flaws in the compliance review system guarantee 
that many unsafe carriers continue to evade even initial identification 
as an hours-of-service violator. The Safety Board has documented 
several instances in which carriers have received favorable compliance 
review ratings despite long and consistent histories of driver-and 
vehicle-related violations. For example, this was the case for the 
operator and vehicle involved in the recent investigation of the 
motorcoach fire that fatally injured 23 people near Dallas, Texas.
    In light of the proven deficiencies in the FMCSA motor carrier 
compliance program, this program should not be the triggering mechanism 
to initiate a requirement for EOBRs. The Safety Board does not believe 
that the FMCSA has the resources or processes necessary to identify and 
discipline all carriers and drivers who are pattern violators of the 
hours-of-service regulations.
    Consequently, a program to impose EOBRs on pattern violators that 
relies on the compliance program to identify such carriers seems 
unlikely to succeed. In addition, pattern violators of hours-of-service 
regulations are the carriers least likely to choose to install and use 
EOBRs voluntarily. The Safety Board is therefore convinced that the 
only effective way in which EOBRs can help stem hours-of-service 
violations, which the Board has linked to numerous fatigue-related 
accidents, is to mandate EOBR installation and use by all operators 
subject to hours-of-service regulations.
    Additionally, the Safety Board is concerned that the NPRM proposes 
using EOBRs as a form of remediation or punishment, when the technology 
has significant potential for increasing the safety of all motorists. 
According to the NPRM, ``. . . motor carriers that have demonstrated a 
history of serious noncompliance with the hours-of-service (HOS) rules 
would be subject to mandatory installation of EOBRs meeting the new 
performance standards.'' The Safety Board believes that encouraging 
motor carriers to perceive EOBRs primarily as a means of punishment 
would undermine the goal of achieving voluntary industry-wide 
acceptance. In fact, progressive motor carriers are using EOBRs as an 
effective tool in shipment tracking, equipment maintenance, and 
operator scheduling. In addition, EOBRs provide a more efficient and 
reliable way for enforcement agencies to monitor hours-of-service 
compliance. Finally, the Europeans have required the use of digital 
tachographs for some time.
    With respect to the NPRM's third element, the proposed rulemaking 
outlines several incentives that the FMCSA hopes will promote the 
voluntary installation and use of EOBRs. Among these incentives are new 
compliance review procedures and exemptions for certain supporting 
documentation requirements. The Safety Board is in favor of any 
incentive that fosters use of EOBRs without undermining safety; 
however, the Board is skeptical whether the incentives currently 
proposed would be strong enough to override the financial motivation 
some carriers and drivers have for continuing to circumvent the HOS 
regulations and not use EOBRs. Moreover, for those motor carriers 
considering the installation of EOBRs, the burden of being subject to 
additional regulatory requirements might cause them to choose not to 
equip their vehicles with the technology voluntarily.
    In summary, the Safety Board is convinced that the regulations 
proposed in the NPRM:

  <bullet> will not result in the timely and effective adoption of EOBR 
        technology by all motor carriers,

  <bullet> may serve to depict EOBRs as a punitive device rather than 
        as one that promotes safety, and

  <bullet> will ultimately fail to reduce the number of carriers and 
        drivers who exceed Federal hours-of-service limits.

    Accordingly, the Safety Board urges the FMCSA to revise the NPRM to 
require that all motor carriers, subject to the HOS regulations, to 
install and use EOBRs.
    The trucking industry in the United States has already installed 
hundreds of thousands of devices capable of recording hours-of-service 
information. We believe it is past time to act and that the use of 
EOBRs should be mandatory throughout the industry, as are similar 
devices required in most of Europe.
    Fatigue-related accidents continue to plague our nation's highways 
and because fatigue is difficult to quantify by investigating agencies, 
it is likely the most underreported underlying causal factor in highway 
accident investigation. Electronic On-Board Recorders hold the 
potential to efficiently provide the proper incentives for compliance 
with hours-of-service rules and ultimately make our highways safer for 
all drivers.
    I would be delighted to respond to any questions you may have.

    Senator Lautenberg. Thank you very much.
    Now, Captain John Harrison, President of the Commercial 
Vehicle Safety Alliance.
    Captain Harrison, welcome.

 STATEMENT OF CAPTAIN JOHN E. HARRISON, PRESIDENT, COMMERCIAL 
                    VEHICLE SAFETY ALLIANCE

    Mr. Harrison. Good afternoon, Chairman Lautenberg, Ranking 
Member and Senator Smith.
    I am John Harrison, President of the Commercial Vehicle 
Safety Alliance, and Captain with the Georgia Department of 
Public Safety.
    CVSA is an international not-for-profit organization 
comprised of local, state, provincial, territorial, and Federal 
motor carrier safety officials and industry representatives 
from the United States, Canada, and Mexico. Our mission is to 
promote commercial motor vehicle safety and security by 
providing leadership in enforcement, industry, and 
policymakers.
    Our goal is uniformity, compatibility, and reciprocity of 
commercial vehicle inspections and enforcement activities 
throughout North America.
    Chairman Lautenberg, thank you for calling this important 
hearing and inviting me to testify on issues relating to 
electronic on-board recorders and truck driver fatigue 
reduction.
    In my testimony today, I will discuss the existing problems 
relating to hours-of-service, how EOBR technology can help 
provide--or help solve these problems, and our recommendations 
and qualifications on implementing EOBRs.
    In our written statement, we have provided more detailed 
comments and recommendations on the current FMCA rulemaking. 
Even though I am a captain and have a number of employees under 
my command, I maintain CVSA certification to conduct North 
American standards inspections.
    Since 2000, the regulations regarding commercial driver 
hours-of-service have been through a series of formal actions 
by the FMCSA, as well as being challenged by outside groups and 
in the D.C. Circuit Court of Appeals. In the meantime, 
compliance with hours-of-service continues to be a significant 
problem encountered by law enforcement, both at roadside and in 
the motor carrier's place of business.
    In 2006, hours-of-service violations were represented in 7 
of the top 20 driver violations discovered during roadside 
inspections representing 34.2 percent of the total. Further, of 
the top 20 driver out-of-service violations at roadside, 78.8 
percent were for hours-of-service. During compliance reviews, 5 
of the top 12 critical violations cited were hours-of-service 
related, representing 34.6 percent of the total.
    The results from the 2006 Large Truck Crash Causation Study 
indicated that fatigue was reported as an associated factor in 
13 percent of all large truck crashes.
    We believe EOBRs hold great promise for helping improve 
compliance with hours-of-service regulations and providing a 
positive impact on safety in crashes related to driver fatigue. 
We also believe that widescale--with emphasis on 
``widescale''--adoption of EOBRs will help curb the challenges 
with the limited resources available at State and Federal 
levels for overseeing the motor carrier industry. 
Unfortunately, drivers operating in excess of hours-of-service 
limits and falsified driver logs continue to represent a 
significant risk to safety. However, it is important to realize 
that technology has limitations. In the end, driver behavior 
and changing the safety culture are determining factors in 
enhancing compliance and reducing crashes.
    EOBR technology is proven. More than 50 countries have 
mandated electronic data recorders for driving and standby-time 
recording and/or speed and distance recording. Our 
recommendations are as follows:
    FMCSA and the National Highway Traffic Safety 
Administration should work to make EOBR standard equipment with 
an implementation time-frame on the order of 3 to 5 years.
    After market retrofit, installations should only be 
permitted if they meet OEM equipment standards.
    Existing devices should be grandfathered into this new 
requirement only if they're able to meet the new OEM standards.
    Those drivers operating existing vehicles, those built 
prior to the new OEM requirement, or using noncompliant EOBRs, 
would be required to retrofit their vehicles within 3 years to 
meet the OEM standard. The paper-based logging system would no 
longer be permitted.
    FMCSA and NHTSA should create a rigorous certification 
program for EOBRs administered by a third party, similar to how 
speed-measuring instruments and breath alcohol testing devices 
are approved and certified.
    Until such time the OEM standard is effected, FMCSA should 
conduct several field operational tests of different EOBRs and 
include a wide range of carrier operational types. In our view, 
moving forward with EOBR implementation means taking the 
following issues into consideration: simple and standardized 
display of the data for enforcement; positive driver 
identification; tamperproof; simple identification and 
explanation of errors malfunctions and manual inputs; an audit 
trail at roadside; certification and calibration standards; 
seamless secure standards based on EOBR data--EOBR data 
transfer for analysis by roadside enforcement away from the 
truck; evidentiary needs need to be accommodated; redundancy in 
the event the system malfunctions; and adequate and 
comprehensive training for enforcement; rigorous monitoring and 
quality control.
    In summary, we believe that in order to enable significant 
changes--significant policy changes to out-of-service 
compliance, there needs to be a universal adoption of EOBR 
technology. However, it is critically important that the 
performance specifications for these devices and oversight for 
producing and using them is done in a such a manner that 
enables them to be user-friendly for law enforcement, and that 
there is credibility and confidence in the accuracy of the 
data.
    Moving forward with a mandatory requirement will help 
provide certainty and competition in the manufacturing 
community, and help keep costs down for the motor carrier.
    Thank you very much for inviting me to testify here, and 
I'll be glad to take any questions that you might have.
    [The prepared statement of Mr. Harrison follows:]

      Prepared Statement of Captain John E. Harrison, President, 
                   Commercial Vehicle Safety Alliance
Introduction
    Good afternoon Chairman Lautenberg, Ranking Member, Senator Smith, 
and members of the Subcommittee. I am John Harrison, President of the 
Commercial Vehicle Safety Alliance (CVSA) and Captain with the Georgia 
Department of Public Safety.
    CVSA is an international not-for-profit organization comprised of 
local, state, provincial, territorial and Federal motor carrier safety 
officials and industry representatives from the United States, Canada, 
and Mexico. Our mission is to promote commercial motor vehicle safety 
and security by providing leadership to enforcement, industry and 
policymakers. Our goal is uniformity, compatibility and reciprocity of 
commercial vehicle inspections and enforcement activities throughout 
North America.
    Chairman Lautenberg, thank you for calling this important hearing 
and inviting me to testify on issues relating to Electronic On-Board 
Recorders (EOBRs) and truck driver fatigue reduction.
    In my testimony today I will discuss the existing problems relating 
to hours-of-service and driver log violations, how EOBR technology can 
help solve these problems, and our recommendations and qualifications 
on implementing EOBRs. Finally, I will comment on the current FMCSA 
EOBR proposed rulemaking and what we view as its shortcomings in 
addressing hours-of-service compliance and enforcement and the related 
problem of driver fatigue.
    Even though I am a Captain and have a number of employees under my 
command, I maintain my CVSA Certification to conduct North American 
Standard Roadside Inspections. I work out in the field with the troops 
on a daily basis. From my perspective, if I am to be effective and have 
credibility within the ranks, this is something I need to do.
Problem Statement
    Since 2000, the regulations regarding commercial driver hours-of-
service (HOS) have been through a series of formal actions by the 
Federal Motor Carrier Safety Administration (FMCSA), as well as being 
challenged on the outside by various groups and the D.C. United States 
Circuit Court of Appeals. Countless hours have been devoted to this 
subject, both internal to the agency and by the public. In the 
meantime, compliance with the hours-of-service regulations continues to 
be a significant problem encountered by law enforcement, both at 
roadside and in the motor carrier's place of business. The problem is 
pervasive.
    In the 2006 calendar year, hours-of-service violations were 
represented in 7 of the ``Top 20'' driver violations discovered during 
roadside inspections. These Top 20 driver violations in the aggregate 
numbered 2,232,834--Hours-of-Service violations comprised 763,186 of 
this total, or 34.2 percent. Delving further into the Top 20, Out of 
Service (OOS) violations related to Hours-of-Service totaled 179,778 of 
the 228,211 total driver OOS violations, or 78.8 percent. At the motor 
carrier's place of business during the conduct of Compliance Reviews, 5 
of the ``Top 12'' Critical violations cited were Hours-of-Service 
related. These Top 12 violations in the aggregate numbered 6,676--
Hours-of-Service violations numbered 2,309 of this total, or 34.6 
percent.
    There are numerous studies regarding commercial driver fatigue and 
each of them report different numbers related to driver fatigue and its 
contribution to large truck involved crashes. The results from the 2006 
Large Truck Crash Causation Study indicated that fatigue was reported 
as an associated factor in 13 percent of all large truck crashes. This 
is a significant number.
    It is clear we have a compliance and a safety problem. How can we 
fix it?
Recommendation
    We believe the implementation of Electronic On-Board Recorders 
(EOBRs) for compliance with HOS regulations holds great promise for 
helping improve compliance with HOS regulations and ultimately 
providing a positive impact on safety and reducing crashes related to 
driver fatigue and other work-related injuries. We also believe that 
the wide-scale adoption of EOBRs will also help to curb the challenges 
that currently exist with the limited resources available at the state 
and Federal levels for overseeing the motor carrier industry. With 
nearly 50,000 new motor carriers entering the business each year in the 
United States, the implementation of proven safety technologies serves 
to assist the law enforcement community in focusing its attention on 
high-risk drivers, vehicles and motor carriers.
    EOBR technology is proven. More than 50 countries have mandated 
Electronic Data Recorders for driving and standby time recording and/or 
speed and distance recording. As an example, more than 5.5 Million 
Tachograph systems are being used in commercial vehicles and buses to 
improve road safety in the whole of Western and Eastern Europe. In 
Germany, for example, since the mid-1970s when the Tachograph was 
mandated until 2000, they experienced approximately a 167 percent 
improvement in the number of commercial vehicle miles traveled without 
personal injury (see figure below).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We believe that in order to meet the intent of the 3 objectives 
FMCSA laid out in its recent Notice of Proposed Rulemaking (NPRM) for 
EOBRs, these devices must be made mandatory for all commercial 
vehicles.
    FMCSA should work with the National Highway Traffic Safety 
Administration (NHTSA) to make these devices standard OEM equipment. 
Aftermarket/retrofit installations should only be permitted if they 
meet the OEM equipment standards. In order to assist the manufacturing 
community and to help minimize the cost impacts to the industry, we 
would suggest that the requirement would be put in place at a point in 
the future, somewhere on the order to 3-5 years after the final rule is 
published. We believe existing devices should be grandfathered into 
this new requirement only if they are able to meet the new OEM standard 
specifications. We also believe the existing Automatic On-Board 
Recording Device (AOBRD) regulations in 49 CFR  395.15 should be 
sunsetted. Those drivers operating existing vehicles (those built prior 
to the new OEM requirement) or using EOBR devices not compliant with 
the new standard would be required to retrofit their vehicles within 3 
years to meet the OEM equipment standards. The paper-based logging 
system would no longer be permitted.
    In the interim, we would suggest that FMCSA conduct several field 
operational tests of different device types (to include those not 
integrally synchronized with the vehicle) to understand what the 
optimum performance requirements should be, as well as to more fully 
evaluate their impact on safety. One option for this test could be to 
use the motor carrier population the Agency has suggested in its NPRM 
that would be subject to a remedial directive and be required to have 
the EOBRs installed--those carriers FMCSA has determined, based on HOS 
records reviewed during each of two compliance reviews conducted within 
a 2-year period, that the motor carrier has a 10 percent or greater 
violation rate (``pattern violation'') for any regulation in proposed 
Appendix C to Part 385. Theoretically, once EOBRs are installed on the 
habitual offenders' vehicles, they should realize a significant 
improvement in safety, both in HOS compliance and in fatigue-related 
crashes. Another option to consider for the test phase, which is our 
preferred option, is to tie EOBR application (for the test phase) to 
SafeStat and ISS scores. This approach would broaden the pool of test 
candidates and will likely also serve as a more representative sampling 
of the industry. We believe that by taking into account both SafeStat 
and ISS scores, carriers with demonstrated performance problems, as 
well as those with no history can be part of the pool to be evaluated. 
If the test is properly carried out and administered, it should 
effectively demonstrate how to positively impact HOS compliance for 
carriers on both ends of the scale--those who are uninformed about the 
hours-of-service regulations and those who are habitual violators.
    EOBRs must use standardized data formats and have a standardized 
interface for law enforcement so that training, compliance evaluation 
and monitoring is effective and simplified.
    We also recommend that FMCSA (and NHTSA) create a more rigorous 
certification program for EOBRs that is administered by a 3rd party, 
and to also create an advisory board that would serve to create and 
maintain an approved EOBR list. This advisory group could operate 
similarly to those groups who are involved with speed measuring 
instruments and breath alcohol testing devices. Wherever possible, EOBR 
design and performance specifications should use accepted industry 
standards that are verifiable and certifiable.
    It is our belief that moving forward with a mandatory requirement 
will help on all fronts. It will provide some certainty and competition 
in the manufacturing community and likely result in more ``hardened'' 
and user-friendly systems, help keep costs down for the motor carrier 
industry through economies of scale, and will assist the enforcement 
community since there will be stringent and uniform standards. It also 
will provide adequate lead time for both industry and enforcement to 
ramp up their operations and provide for training, as well as budget 
planning for the procurement of these devices and the development of 
back office systems to accept and manage the data output.
The FMCSA Notice of Proposed Rulemaking
    In its recent NPRM regarding Electronic On-Board Recording devices 
for Hours-of-Service, FMCSA indicated the intent of the NPRM was to:

        1. Improve CMV safety;

        2. Increase use of EOBRs within the motor carrier industry; and

        3. Improve HOS compliance.

    They further indicated that their approach had three components:

        1. A new performance-oriented standard for EOBR technology;

        2. Use of EOBRs to remediate regulatory noncompliance; and

        3. Incentives to promote EOBR use.

    While CVSA certainly supports the 3 objectives embodied in the 
intent of the NPRM, we believe the approach FMCSA has taken will not 
measurably impact on them. The universe of motor carriers required to 
install EOBRs as a part of the proposal is a small fraction of the 
motor carrier population as a whole. Additionally, we also believe that 
their voluntary adoption, even with the incentives offered by FMCSA, 
will not occur in large numbers.
Safety
    Given the fact that hours-of-service (HOS) compliance continues to 
be a major problem area for many motor carriers, and large truck 
crashes related to fatigue are significant, we firmly believe that in 
order to have a substantial impact on safety and HOS compliance EOBRs 
must be universally used in the motor carrier industry. We believe that 
habitual HOS offenders need stronger enforcement in addition to 
requiring the installation of EOBRs. HOS non-compliance is indicative 
of a systemic management problem within the motor carrier's operation, 
and the mere installation of EOBRs will not serve to correct this 
problem. The resources expended by government to monitor the motor 
carriers subject to mandatory EOBR use will be substantial and in our 
view, the benefits will not outweigh the costs.
Level Playing Field
    In our view the NPRM will do little to help deploy EOBRs in large 
quantities. Most carriers already using these systems are doing them 
primarily to help better manage their drivers and not necessarily for 
HOS compliance. HOS compliance [to many of them] is a secondary benefit 
of these devices. We do not believe this thinking will change much with 
the implementation of the NPRM. Most carriers will view this as a cost 
item (and a legal liability) that will put them at a competitive 
disadvantage with their peers, therefore making them reluctant to 
voluntarily invest in these devices. The EOBR vendors will not put much 
capital outlay into the development and deployment of these systems 
since there is not a clear market for them. Additionally, given the 
minimal number of devices that will likely penetrate the market, the 
benefit of economies of scale will not be realized, therefore not 
putting much pricing pressure or competition in the marketplace. This 
will likely result in most of the devices not being an attractive 
purchasing option for many small to medium sized fleets, or for those 
fleets operating on thin margins. Ultimately, in our view the NPRM will 
not enable a level playing field for the motor carrier industry as a 
whole, which will cause most fleets to opt not to purchase an EOBR.
Technology
    As FMCSA indicates in its NPRM, technology has come a long way in 
recent years and is capable of performing many more functions than what 
would be needed to monitor and manage HOS compliance. We believe the 
optimal approach related to EOBRs is to limit their performance 
requirements to just those necessary for HOS compliance. This will help 
to keep costs down, and also help to ensure that the display, 
evaluation and back office system functionality needed for enforcement 
to monitor and evaluate compliance will be made easier and help to 
minimize the liability exposure to the industry.
    We believe FMCSA needs to put more explicit focus and emphasis on 
standardizing the performance specifications regarding tamperproof 
requirements, information gathering and display, editing and error 
recording and reporting, and as well as communication accuracy, 
timeliness and redundancy. We are appreciative of the fact that FMCSA 
included GPS as a performance requirement in the NPRM, as this will 
provide some measure of assistance in accuracy and redundancy. We also 
appreciate requiring parallel data streams and making sure that the 
original data is kept intact, as this should help law enforcement when 
reviewing records and during the driver interview process. However, we 
still strongly believe there must be a tamperproof requirement.
    A related issue is one of FMCSA's identified seven performance 
requirements in the NPRM--identification of the driver and ensuring the 
EOBR is able to attach the driver to his/her appropriate hours-of-
service. In our view this issue is critical and fundamental to helping 
minimize falsification and errors/inaccuracies. Although we support 
providing flexibility to motor carriers and technology providers on 
this point, we strongly believe that FMCSA needs to specify a minimum 
performance requirement, to include outlining standardized and explicit 
test procedures and expectations. This would be part of the EOBR 
certification program (see Recommendation section). The EOBR must be 
able to correctly identify the driver/employee in all duty status 
stages of his/her hours-of-service and be able to accurately tie the 
employee to the vehicle, cargo and motor carrier at all times. This is 
especially important for leased drivers and owner/operators.
    The NPRM discusses the notion of permitting EOBR devices that are 
not integrally synchronized with the vehicle. While we fully understand 
that cell phone and other like-technologies are available that use 
hours-of-service applications, at this point in time we are not 
supportive of permitting them to be used as EOBRs. We are not convinced 
that these technologies will effectively minimize the opportunity for 
falsification and drivers taking ghost runs. However, we do believe 
that these types of devices are in need of further study to understand 
how in the future they may be used in this capacity. We are sensitive 
to the fact that cell phone and like-technologies are pervasive in the 
industry and tend to be on the lower cost end of EOBR devices. We do 
not want to dismiss out of hand the fact that once they (and the 
performance specifications) are more fully outlined and understood they 
possibly could be used as an EOBR.
    As for the recording interval, we are supportive of 1 minute 
increments. We also support the <plus-minus> 1 percent location 
accuracy. We believe that EOBRs must use standardized data formats and 
communications protocols. We also firmly believe there must be a 
standardized display using the graph-grid format, and that non-
compliance must be easily identified.
    In our view, FMCSA may not want to explicitly identify the 
different types of communications technologies that are able to be used 
in the application of EOBRs, since they are so rapidly changing and 
evolving. The more important aspects related to the data in our view 
are the security aspects as well as the content and timeliness of the 
information availability, and not necessarily the method of 
communication.
Enforcement
    The NPRM upon implementation will likely make it difficult for 
enforcement officers. The problem with EOBRs today is that there is no 
standardization in terms of how the information is made available for 
officers to evaluate compliance, how errors and modifications to 
records are recorded and reported, nor is there a rigorous 
certification program to ensure they are operating correctly. The 
combination of grandfathering existing devices, providing the 2 year 
window for voluntary adoption of non-complaint 395.16 devices, and the 
likely limited penetration of EOBRs will continue to create 
difficulties for enforcement with understanding and accurately 
evaluating the operation of all the different device types. We also 
believe that the option of using devices not integrally synchronized 
with the vehicle presents its own set of challenges for enforcement 
that are not yet fully understood. We also strongly believe that EOBRs 
must be made tamperproof. Although the NPRM does make an attempt to 
correct some of these concerns in the performance specifications, we do 
not believe it goes far enough to minimize tampering or to make sure 
that officers will feel comfortable with using the devices.
    Law enforcement needs the capability to be able to print HOS 
records at roadside to more effectively review HOS compliance and 
collect evidence. Although we support having EOBRs providing the 
functionality to print out the HOS records, we think a more prudent and 
cost effective approach is to equip certified inspectors/officers with 
the appropriate technologies and printing device to be able to do this 
themselves. This will help those officers who do not currently use 
laptop or hand held computers (or the software to read the EOBR data 
file). Ultimately, this approach will also serve to assist in having 
more roadside inspections completed (and uploaded) electronically, 
since many inspectors are still completing inspections on paper.
    As for access to the HOS data, we agree with FMCSA that EOBRs must 
not require the officer to have to enter the cab of the vehicle. If 
electronic files are going to be made available for download, they must 
adhere to common, uniform and strict standards. In addition, the 
officers must be able to read the data on their (for those who have 
them) laptops or hand held computers. However, we do have concerns with 
the possibility of these files introducing a virus or otherwise 
damaging the operating system or software.
Summary
    We believe that in order to enable significant positive changes to 
hours-of-service compliance there needs to be universal adoption of 
EOBR technology. However, it is critically important that the 
performance specifications for these devices, and the oversight of 
those producing and using them is done in such a manner that enables 
them to be user-friendly for law enforcement and that there is 
credibility and confidence in the accuracy of the data.
    Hours-of-service continues to be a challenging area for many motor 
carriers to make significant strides in improving compliance. There 
must be a multi-faceted approach in terms of finding solutions, and the 
status quo is just not acceptable. We believe that the implementation 
of EOBRs is one of the important elements of such an approach.
    Thank you very much for inviting us to be here today, and I am 
happy to take any questions you may have.

    Senator Lautenberg. Thank each one of you for your 
testimony.
    Mr. Rosenker, the USDOT's Large Truck Crash Causation Study 
in 2006, estimates that only 13 percent of American truck 
crashes involve fatigue, but yet, your agency has put the 
figure at 30 to 40 percent. Now, is DOT underestimating the 
problem of truck driver fatigue?
    Mr. Rosenker. Sir, our study that we did in 1990 on large 
truck crashes dealt with fatal accidents. We found that 
approximately one-third dealt with, in some shape or form, 
fatigue. But that didn't necessarily mean it was fatigue only. 
So, the data that, in fact, we are seeing now, clearly later 
data, is data which is quite valid.
    Senator Lautenberg. How difficult is it to find out whether 
driver fatigue is a factor in truck crashes? Does it have to be 
an extrapolation of other data in order to even make an 
assumption like that?
    Mr. Rosenker. It does. And what we've found, in a series of 
3 million inspections, 7 percent of the drivers that they took 
a look at in the 3 million inspections were put off the road 
for human-factor issues, the vast majority of which dealt with 
fatigue. So, we found that to be a very large factor when they 
were put out-of-service.
    Senator Lautenberg. Mr. Hill, what do you think about that?
    Mr. Hill. Mr. Chairman----
    Senator Lautenberg. Do you agree with Mr. Rosenker?
    Mr. Hill. Well, I would agree with several points that he 
made. I would just like to clarify on the data problem that we 
have in quantifying exactly the related cause of crashes.
    As you know, most of the crashes were done by local and 
state enforcement officers, and the crash reports indicate a 
variety of things. Fatigue is one of the things that's 
indicated on a crash report, as well as driver inattention. And 
so, what we look at is the FARS data, the fatality accident 
reduction--the accident reporting system, FARS, has a typical 
under-reporting problem with fatigue. We know that. Therefore, 
we're taking into consideration later data. When you mention 
the Large Truck Crash Causation Study, this study took nearly 
1,000 crashes, and it had specialized people who went to the 
scene of the crash, interviewed all the drivers involved, and 
they knew how to find this fatigue-related matter. That is why 
the number is so much higher than what the common reporting 
numbers in FARS indicate, which is somewhere around 2 percent 
of all fatal crashes. So, we think that the number is much 
higher, and that's why our Large Truck Crash Causation Study 
indicates the number of 13 percent.
    Senator Lautenberg. Did it take a long time for your agency 
to step up to the reinforcement requirements, the law 
enforcement requirements that were expected to be there in 
these years past, and yet very little has really happened?
    Mr. Hill. In terms of the enforcement of the hours-of-
service rules, sir?
    Senator Lautenberg. Yes.
    Mr. Hill. As Captain Harrison indicated, there has been 
significant litigation, and every time we have a disruption in 
that rulemaking process, the enforcement suffers from that. 
They are uncertain about what the current rule is. At any given 
time, when there are changes to the rule, we have to go out and 
train them on the changes that need to be enacted. There has 
been some disruption since 2003, when we implemented the rule. 
Since that time, we are moving forward with our current 
enforcement program. As Chairman Rosenker indicated we are 
seeing out-of-service rates comparable to what they were before 
the rule was imposed. So, we do have a consistency in the 
enforcement regime at this time.
    Senator Lautenberg. Captain Harrison, how do you see it, in 
terms of the estimates on fatigue and the causation that it 
brings about?
    Mr. Harrison. Well, we are not statisticians, we're--we'll 
enforce whatever the rule is. And it appears, examining the 
data that we do have, that it's been pretty consistent, whether 
it was under the old rules or the revised rules. You know, the 
point I want to make is that the hours-of-service regulations 
since January 2004 have been in a constant state of flux, seems 
like. And, as far as an enforcement is concerned, we need 
stability in those rules so that everybody understands the 
rules and we can readily educate the motor carrier population 
and enforce the rules. We consistently run upon drivers that 
don't understand the rules. And sometimes we come to blows, 
almost, with drivers, because they can't understand why they're 
being placed out-of-service for exceeding the limits, when they 
don't really understand the limits. So, we need consistency on 
the rules, to start with.
    Senator Lautenberg. How do we get that educational factor 
in place?
    Mr. Harrison. Well, first, we need these hours-of-service 
rules--if the FMCSA has done their job, and they have 
identified the human factors that affect driver fatigue, and 
say that a 24-hour clock is what you need, the circadian 
rhythm, and they fashion the rules according to that, we need 
them locked in place, and we'll enforce whatever the rules are. 
And then we can have a set of data that we can analyze. Right 
now, with the flux in the regulations, we haven't been under 
the new rules long enough to determine if they are effective, 
if they're making a difference.
    Senator Lautenberg. It's obviously important for the EOB 
recorders on trucks to be tamperproof. Now, that doesn't look 
like it's an impossible problem, either technologically or 
educationally. Nobody can alter or adjust the information in 
black boxes on airplanes or locomotives, right? So, there 
shouldn't be a problem with that, certainly, in terms of what 
we expect the device to be able to guarantee here.
    Mr. Hill, it seems that the Bush administration is taking 
an opportunity to use technology to make our highways safer. 
Why not require on-board recorders for all new trucks and all 
new carriers, at the very least? That's, frankly, how we got 
airbags into cars.
    Mr. Hill. Mr. Chairman, I would just say to you that we are 
currently proposing a rule that would begin down the road of 
seeing a greater expansion of the technology in trucks, and 
we're open to considering other alternatives. That is why we 
are going through this notice of proposed rulemaking. So, I 
think that your question--for us, in terms of this particular 
rule, we're proposing one that deals with the risk, at the 
present time, that we feel is the greatest, and that's why we 
have addressed it the way we did. I made mention, in my earlier 
statement, that 87 percent of the carriers that would be 
involved in this remedial directive, or a requirement to have 
an EOBR placed on the vehicle within the first 2 years, 80--
they have an 87 percent higher crash rating than other carriers 
not in that group of people. So, we're trying to assess risk, 
and put the technology where we can see it start to grow, and 
then hopefully create some incentives for other industry 
participation, as well.
    Senator Lautenberg. Yes, but should we confine the use of 
these recorders only to those who seem to be riskier? We ought 
to be get it out there and introduce it as a requirement for 
new product. I think that's a relatively easy thing to do.
    What do you think, Mr. Rosenker?
    Mr. Rosenker. We agree with you, Mr. Chairman. We've long 
been on the record about this particular technology. We believe 
it can do much to begin the process of getting compliance from 
those that are, unfortunately, skirting the law, and that it 
makes it easy to do when you don't have technology like this to 
validate the actual hours-of-service that an operator is 
performing. We started with this back in 1977, and, 
unfortunately, have not been very successful in getting either 
regulatory or voluntary installation.
    However, with that said, we've got an NPRM that's now out 
there, and I'm hoping that it would perhaps include, as what we 
suggested in our response to the NPRM: one, heartier, more 
robust standards for crash-worthiness that could be utilized in 
the event of an accident; two, it should basically deal with 
all carriers, not just selected carriers that have appeared in 
one shape or form that violated the rules; and, finally, the 
NPRM asks for voluntary compliance, and if you're asking for 
voluntary compliance from everyone, those that, in fact, are 
the most egregious of violators won't be incentivized to 
install this device.
    Senator Lautenberg. I agree.
    Last summer, a large truck crashed into two cars on the New 
Jersey Turnpike, killing four people. The truck driver was 
cited for careless driving. When your agency looked at the 
records of this driver--after the fact--the investigators found 
previous violations of the hours-of-service laws, falsifying 
records of compliance, and no drug or alcohol testing plan in 
place.
    Now, obviously, wouldn't the electronic on-board recorder 
be an aid to your inspectors, and state inspectors, to find 
violators before, not after, a crash? The thing we were 
discussing, Mr. Hill, about looking at the riskiest places--the 
riskiest individuals also to be part of that.
    Want do you think, Mr. Rosenker?
    Mr. Rosenker. Again, we believe technology has a tremendous 
place in this issue of compliance. With the new devices are 
data and digital data-driven, we believe that they are 
extremely difficult, if not nearly impossible, to in any way 
influence on change. So for us, when it comes to accident 
investigation, the kinds of equipment that we see right now 
would be extremely helpful. We believe we can significantly 
reduce the number of accidents, injuries and, ultimately, 
fatalities by getting compliance ahead of time so that the 
fatigue issue isn't a factor when we're talking about highway 
accidents.
    Senator Lautenberg. But I'm not sure that we came to the 
conclusion that relates to the records of drivers, those who 
have had past difficulties, falsifying records. Could we use 
the data gathered here to determine that and make sure that 
these people had a particular condition that we had to watch 
out for?
    Mr. Rosenker. I'm not sure if this type of device, the way 
it is built at this moment, would be a device that would 
provide that type of information to the roadside inspector.
    Senator Lautenberg. Yes.
    Mr. Rosenker.--an entire record. I don't know if that could 
be done.
    Senator Lautenberg. No, but I assume that there is a place 
where records are kept of a driver's performance, especially in 
serious accidents. Shouldn't that be a database that we tap 
routinely for people who are going to get behind the wheel of a 
giant truck and get out there on----
    Mr. Rosenker. I would agree. And we have that on our Most 
Wanted List. I happen to have brought an example of our Most 
Wanted List with me.
    Senator Lautenberg. OK.
    Mr. Rosenker. Two areas that, in fact, we've worked on with 
the Federal Motor Carrier Safety Administration is the area of 
preventing medically unqualified drivers from operating 
commercial vehicles, and also improving the carrier operations. 
We've asked that to be done by preventing motor carriers from 
operating if they put vehicles with mechanical problems on the 
road or unqualified drivers behind the wheel, which would be 
those that are in egregious violation of the rules and 
regulations of the State and Federal law.
    Senator Lautenberg. Thanks. I have more questions, but my 
colleague Senator Smith has been most patient.
    Senator take as much----
    Senator Smith. OK.
    Senator Lautenberg.--time as you need.
    Senator Smith. Thank you, Mr. Chairman.
    Administrator Hill, I understand that under the rule 
proposed by your agency earlier in the year, only carriers that 
have a identified history of noncompliance with hours-of-
service regulations are the ones that will then get these 
electronic on-board recorders. Is that correct?
    Mr. Hill. That is the proposal at this time. Of course, 
there are also incentives for people to put it onto their 
carriers into their fleet voluntarily, but we did require EOBRs 
as you suggested, for the noncompliant ones, yes.
    Senator Smith. I'm interested in how you arrive at the 
designation of a noncompliant person. As I listened to Mr. 
Rosenker, it seems to me he's saying that the sampling may be 
awfully small. In 2005, your agency performed only 8,000, 
roughly, compliance reviews, and there are nearly over 900,000 
active and registered carriers, meaning 1 percent is the 
sample. If you're going to take your approach, providing EOBRs 
on all trucks, is that a sufficient sample?
    Mr. Hill. Well, it--as I said, earlier to the Chairman in 
response to his question, we are starting with a proposed rule, 
and I think we have to consider that this is a baseline, and we 
need to consider other options. I'm hearing that very clearly 
today. I do believe that it's very small sample, and it's going 
to be difficult, but I will say that it's a snapshot in time, 
so that this list could grow, it could become larger, because 
of more roadside inspections finding noncompliance, and we 
could also foresee a time when we might use other indicators. 
And one of the things that using EOBRs does do, as the Chairman 
was alluding to in his last questioning with the Chairman, is 
that it allows us to go in and readily look for patterns of 
violations. So, where we put this into carriers, we'll be able 
to quickly survey and do an assessment of the driver records at 
that carrier's place of business much more quickly, because it 
will be automated, as opposed to the safety investigator going 
through and doing a laborious sampling of certain logbooks. So, 
I think it's a----
    Senator Smith. Doesn't it take you----
    Mr. Hill.--in the long run----
    Senator Smith. It takes 2 years to determine if somebody 
has a noncompliance history?
    Mr. Hill. Well, in terms of the proposal, that's what has 
been suggested.
    Senator Smith. And do you have the resources to increase 
the surveillance, the designations?
    Mr. Hill. Well, as you indicate, as you framed the last 
question--we do have a large population here, and we have 
finite resources. I think last year we did 15,000 compliance 
reviews between us and the State enforcement groups. They're 
doing 3 million roadside inspections. That's still a very small 
part of the overall picture. So, we do have limited resources, 
and that's why we, as an agency, and our State partners, focus 
on risk, looking at the most severe violations to try to 
address that problem. And that's the consistent theme here that 
we've been trying to apply in this rule. And I would just, 
again, reiterate that it is a notice of proposed rulemaking, 
with the opportunity to make changes.
    Senator Smith. I would imagine that the truckers don't like 
this. You know, this is Big Brother watching over them. I can 
imagine that they just don't like the regulation. Can you give 
me some flavor of the opposition to this?
    Mr. Hill. Sure. We're hearing privacy issues. In some 
cases, I think there is confusion on the part of the person 
making that claim, because we're not going to require anything 
under this proposed rule or this final rule of--as it comes 
out, that isn't already on a logbook.
    But it's the idea that the monitoring system will allow the 
carrier to know where the vehicle is going when they are not 
doing work for the carrier----
    Senator Smith. So, is it the driver or the trucking 
company? Sometimes they're the same, I understand--but where is 
most of the pushback coming from, the drivers or the motor 
carrier company?
    Mr. Hill. I believe you have both. I think, from the 
carrier perspective, there's a cost factor, and they want to 
make sure that if you do have it, that they're not playing on 
an uneven playing field with their competition. And then, I 
think you have other drivers who are concerned, because they're 
not fully aware of the EOBR technology, about privacy concerns.
    Senator Smith. So, the companies would prefer that, going 
forward, it be in every vehicle, I assume, as part of the cost 
of the vehicle, if you're going to have it at all, or would 
they prefer just in the basis of where you designate who has a 
noncompliance history?
    Mr. Hill. Well, the industry's going to be here on panel 
two, and I'm sure they'll be ready to tell you how they feel 
about it. But I----
    Senator Smith. Well, I can imagine how they feel about it. 
I'm not saying where I am on this position. But I'm anxious to 
hear your perspective on your challenge in crafting this 
regulation, why you're proposing to do it this way.
    Mr. Hill. Our problem, Senator Smith, is we're required, 
under the Administrative Procedures Act, to figure costs and 
benefits, and it's going to be difficult to put a rule forward 
that allows us to show some kind of benefit with an industry-
wide mandate.
    Senator Smith. OK.
    Mr. Hill. And so, we're trying to work within that. To the 
extent that we can do this with a limited population, we can 
show a safety benefit. That is one of the options.
    The alternative to that, of course, is that, as you deploy 
this more widespread you'll see prices come down with the----
    Senator Smith. Right.
    Mr. Hill.--the technology. And somewhere in there, I'd like 
to see somebody suggest more incentives to encourage carriers 
to put this on their vehicles.
    Senator Smith. Well, thank you.
    Mr. Rosenker, I understand that you've looked at what the 
Europeans are doing and their digital recorders for some time 
now, do they have it on all trucks? Is that correct?
    Mr. Rosenker. That is a requirement, yes, sir.
    Senator Smith. And has the incidence of fatigue-related 
crashes in Europe decreased since the installation of the 
recorders? Was there any data----
    Mr. Rosenker. We believe they have. And we believe we'd see 
that same type of improvement here in the United States if, in 
fact, we required all of the motor carriers to use them. I have 
to feel some sympathy for the Administrator, but I believe if 
we made it a requirement across the board, there would be a 
level playing field where everyone could participate. The costs 
of these devices would come down significantly. And you would 
also begin to see much better compliance.
    As matter of fact, I believe what you would find is that 
this would help the Administrator and the local authorities in 
compliance, because, in fact, if everyone has them then they 
all run the same risk of being stopped and their devices being 
looked at for valid hours-of-service.
    Senator Smith. Do you know of any evidence that suggests 
the carriers with the EOBRs have fewer fatigue-related crashes?
    Mr. Rosenker. I have not seen the specific data that deals 
with that. There are not a whole lot of carriers out there that 
have it. Many of your larger carriers are using them, but 
they're using them as a total system, because with many of the 
more advanced devices that you get do significantly more than 
just monitor the hours-of-service. They will deal in load 
management, fuel management, trip management, cost-accounting 
devices. Now, those are more expensive devices, but I believe 
you're going to hear from industry that will follow us in the 
next panel, that will talk about the significant benefits they 
have in not only using the actual recorder for hours-of-service 
monitoring, but for other broader applications as well.
    Senator Smith. Administrator Hill, I wonder if there are 
any carrier companies that have them installed now, because 
they want all the information that Mr. Rosenker identified--
accounting and control of their traffic and all of these 
things?
    Mr. Hill. Yes, Senator, that is a very legitimate point to 
this whole process. It helps with the overall operational 
efficiency of their carrier operation.
    I would just say to you in response to what you asked 
earlier, we are presently working with carriers who have 
deployed EOBR equipment, and we are looking at their crash 
rates. And I--it's a little premature, the study is finished, 
but we're going through a peer-review, so it's preliminary for 
me to actually tell you the results of it, but I will say the 
findings do look encouraging, in response to your question 
about the safety benefit for people who have deployed it.
    Senator Smith. I wonder--with all the information-gathering 
that could come from this, I wonder if one of the pushbacks, in 
addition to loss of privacy on the part of the driver, would be 
the fear on the part of the company for litigation and what 
would be discovered, in terms of information. Are you hearing 
that?
    Mr. Hill. Yes, sir, that is a concern. And there is a 
desire in some part of the motor carrier industry to have that 
bulletproof so that there would not be this opportunity to just 
routinely take that information and use it in tort situations.
    Senator Smith. Thank you. Been helpful.
    Senator Lautenberg. Thanks very much.
    Senator Pryor, welcome.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Let me ask, if I may, Administrator Hill, just a quick 
hypothetical so I make sure I understand the program we're 
talking about. Let's say you have a trucking company that has 
100 trucks, and one driver has an hours-of-service violation. 
Would this require all 100 to add this? Tell me how this is 
going to work.
    Mr. Hill. Senator Pryor, the current proposal is that when 
we go in to do compliance review, we do a sampling of the 
hours-of-service compliance, so we would take a percentage of 
the drivers, so, in your particular scenario, it would have to 
be a very small carrier for one driver to be affected. If you 
have 100 drivers----
    Senator Pryor. Do you know----
    Mr. Hill.--it would not affect the----
    Senator Pryor.--what you--what percentage----
    Mr. Hill.--entire carrier.
    Senator Pryor.--what percentage are you looking for?
    What's your threshold?
    Mr. Hill. Ten percent violation rate, sir.
    Senator Pryor. OK. Let me ask this. I know that there are 
companies that are using this. And you all talked about that 
just a minute ago. What's your sense of how many trucks, or 
what percentage of trucks, on the road in the U.S. are using 
this technology?
    Mr. Hill. We anticipated that question, sir, and we've been 
trying diligently to put our hands around it. There was a 
article in last year's Commercial Carrier Journal that 
suggested 100,000 vehicles had this kind of equipment. We have 
seen more recent data, from some of the trade publications, 
that indicates that there might be vehicles equipped with 
technology that is not presently measuring hours-of-service, 
but has the capability of doing so, on the order of 400,000-
450,000. So, there is a lot of--as the chairman just 
indicated--there's a lot of interest in this already with 
managing your operation, but not using it for the hours-of-
service rule.
    Senator Pryor. And so, whatever the number is--100,000, 
400,000--how many of these large trucks are out on the road?
    Mr. Hill. Well, we are aware of about 8 million being 
registered, so--now, that includes anything over 10,000 pounds. 
So, a lot of trucks, a lot of vehicles that would impacted.
    Senator Pryor. I'm sorry, I missed the first part of the 
hearing, you probably said this, how expensive is the base 
unit? I know, as you mentioned, some do a lot of other things, 
but how much is a base unit? What's the cost?
    Mr. Hill. You didn't miss it. We have, in the Notice Of 
Proposed Rulemaking, a range, anywhere from $100 up to $4,100. 
And the estimate that we use for this notice of proposed 
rulemaking was about $1,200.
    Senator Pryor. OK. You guys are working on this Mexican 
truck program that we've talked about before. The DOT, you 
know, is scheduled to allow Mexican trucks to operate beyond 
their current scope of authority and do international pickups 
and deliveries outside their current, ``commercial zone.'' What 
sort of technology will be required, or is at least being 
contemplated, for those trucks participating in the Mexican 
truck program? What type of technology are we talking about 
there?
    Mr. Hill. Well, I can say a couple of things. First of all, 
they are required to meet the same standards that U.S. trucks 
have.
    Senator Pryor. Right.
    Mr. Hill. So, the regulatory scheme, there would be nothing 
other than what we presently have for U.S. trucks. But we are 
looking and considering using some kind of tracking mechanism 
for Mexican trucks and U.S. trucks going into Mexico during the 
time of the demonstration project that would be similar to a 
global positioning system that would allow us to monitor some 
of these activities.
    Senator Pryor. Would that qualify as an EOBR, or would that 
just be more like a GPS? And I'm not sure I understand the 
difference, completely, but----
    Mr. Hill. It would have the capability of doing what an 
EOBR does. I haven't done a side-by-side comparison to say it 
meets every one of our performance standards, but it would 
allow us to monitor the movement of that vehicle. I wouldn't 
necessarily put a driver in the exact location every time in 
the same way that we want in this EOBR.
    Senator Pryor. And you might--underline the word ``might,'' 
because I think you haven't finalized what you're going to do 
yet--but you might put--require these as part of this pilot 
program in order--so you can accurately monitor the program and 
see how it's going, is that the purpose of doing it?
    Mr. Hill. Well, first of all, we are considering this, 
Senator. But the large issue here is cabotage movement. It'll 
allow us to watch for whether or not there is extensive 
movement beyond the point of delivery and the point of return. 
And so, in that sense, it'll allow us to know if the truck is 
operating within the United States contrary to the 
international point----
    Senator Pryor. Right.
    Mr. Hill.--of pickup and delivery. It's not really focused 
exclusively on hours-of-service, but it could have an 
application. And I'm not prepared to talk a further about it, 
because I have not been fully briefed on that. I'd be glad to 
get back with you on it, though.
    Senator Pryor. That'd be great. If you would----
    Mr. Hill. OK
    Senator Pryor.--that would be great.
    Captain Harrison, let me ask you, from a law enforcement 
perspective, does having EOBR--a new EOBR regulation, does that 
present any challenge to local law enforcement, in terms of 
training and equipment, et cetera?
    Mr. Harrison. I don't think it would have a significant 
impact, provided we have a standard. The problem right now with 
the EOBRs that are in use is, there's not a standardized format 
from company to company or manufacturer to manufacturer. So, 
when we're trying to examine these devices now at roadside, it 
presents a significant problem, because every one of them 
presents the data in a different way. And so, now--it's 
probably a bigger problem now than it would be in the future, 
if they're implemented, because now what do you train on? You 
have all these----
    Senator Pryor. Right.
    Mr. Harrison.--different formats?
    Senator Pryor. Right.
    Mr. Harrison. In the future, if you have a standardized 
display of the information and how it's retrieved and so forth, 
we can train on that, and we can implement it.
    Senator Pryor. OK. Is, your concern is that there may not 
be any standard?
    Mr. Harrison. Well, our concern is that when and if it's 
implemented, number one, it should be systemwide. We advocate 
that it be on all vehicles--all commercial vehicles for an 
unspecified period of time, and that there be standards in 
place over and above what's there now to make sure that, number 
one, the data is displayed in a standardized format from 
manufacturer to manufacturer, that we have positive driver 
identification, because that is a significant problem. You 
could falsify the data in one of these devices by using a ghost 
driver. You punch in a different driver code, and, you know, 
the officer at the roadside, unless he has the name on the 
data, he doesn't know who that data belongs to, it's just some 
driver number. And also, that it's tamperproof. Those are our 
major concerns.
    Senator Pryor. OK.
    Mr. Chairman, if I may, just one more question for the 
NTSB.
    Mr. Rosenker, today we're talking about trucking. What 
other transportation industries regulated by DOT are currently 
required to use EOBR for hours-of-service compliance?
    Mr. Rosenker. As far as hours-of-service compliance, the 
primary use for the kinds of recorders that we use in aircraft, 
are flight data recorders for performance of the aircraft.
    Senator Pryor. Right.
    Mr. Rosenker. The hours-of-service is governed by other 
methods. We have data recorders for cabs in locomotives. Once 
again, they are dealing in performance. And then, of course, 
the same type of recording device for ships called voyage data 
recorders. These are devices which record performance data of 
the vessels but not necessarily hours-of-service of the 
operators.
    Senator Pryor. OK. That's fair enough.
    Thank you.
    Senator Lautenberg. Thanks very much.
    I would ask that you respond to any questions in writing 
that may come. And I thank you all for your testimony. And 
we'll excuse you now from the witness desk and ask for the next 
panel to come up. That would include Mr. Gabbard, Dr. McCartt, 
Mr. Reiser, and Mr. Olson, please.
    [Pause.]
    Senator Lautenberg. Welcome, to our second panel. Mr. 
Gabbard--or is it Gabbard?
    Mr. Gabbard. Gabbard is correct, sir.
    Senator Lautenberg. OK, you're Vice President of Siemens, 
VDO Automotive; Dr. Anne McCartt, Senior Vice President, 
Research, for Insurance Institute for Highway Safety; Mr. 
Reiser, Executive Vice President and General Counsel for Werner 
Enterprises, Incorporated--Mr. Reiser, you're going to be 
representing the American Trucking Association; and Mr. Olson, 
we know that you're Chief Executive Officer of FIL-MOR Express, 
Incorporated--as a small-size trucking company, you'll be able 
to tell us what size is small in the trucking industry. Thank 
you.
    Let's start with Mr. Gabbard, please. Try to stay to a 5-
minute limit, if you would.

   STATEMENT OF JERRY G. GABBARD, VICE PRESIDENT AND GENERAL 
              MANAGER, COMMERCIAL VEHICLES, NAFTA 
           REGION, SIEMENS VDO AUTOMOTIVE CORPORATION

    Mr. Gabbard. Thank you very much, Mr. Chairman and your 
Ranking Member.
    My name is Jerry Gabbard. I am the Vice President of the 
Commercial Vehicle Group of Siemen's VDO. On behalf of Siemens 
VDO Automotive Corporation, I appreciate the opportunity to 
present our views on the use of electronic on-board recording 
devices.
    As you stated earlier, I will say I find it astounding that 
the United States is one of the few areas of a modern 
industrialized society on this globe that does not have an 
electronic hours-of-service recording device requirement for 
heavy-duty truck drivers.
    Globally, Siemens VDO, as indicated somewhat earlier in 
some testimony, is involved in the manufacturing of this type 
of device, and we have over 6 million of these devices deployed 
throughout the world.
    What's wrong with today's notice of proposed rulemaking? I 
would suggest that the regulatory impact analysis that's been 
referenced in the earlier testimony has used data that is 
flawed, and has led people to draw erroneous conclusions.
    The rule does not mandate the universal installation of 
EOBRs, and experience has found without the universal mandate 
of the EOBR, it will have minimal effect on road safety.
    The rule does not require a tamperproof system, which is 
absolutely mandatory for law enforcement and to enforce the 
rules of the road.
    The rule lacks standardization for driver identification, 
as mentioned earlier, on falsification of records and ghost 
trips.
    And there also is no provision for moving data from one 
truck to the next. When a driver would happen to move from one 
vehicle to another, his hours-of-service data needs to move 
with him.
    The data privacy concern is not adequately addressed.
    Actually, what has happened is that the FMCSA has been led 
to ignore some of the evidence that was presented, and has been 
swayed somewhat by a regulatory impact analysis that is not as 
accurate as it should be.
    If you look at the regulatory impact analysis specifically, 
the full cost of a fleet management system was being used, as 
was indicated in earlier testimony, that full cost was in the 
range of $1,200, when, reality, a minimally compliant device 
could be in the area of $300 to $450, which would dramatically 
impact and change the outlook of the regulatory impact 
analysis.
    Also included in the RIA are costs for wireless data 
transmission of data back to a base or a home office, when, in 
reality today, sir, a lot of the truckers that are operating in 
the United States do not have a back office; in fact, it might 
be--the back of the cab that they're riding in might be their 
office; and, therefore, the wireless data transmission is not 
really needed for a minimally compliant device.
    Cost savings from economies of scale, if you make a market 
attractive for manufacturers such as ourselves, it will drive 
down the cost of the device; therefore, the cost savings from 
economies of scale was not considered.
    The useful life of the device, or the life expectancy of 
the device in the RIA was stated to be 3 to 5 years, when, in 
reality, the true market indication is, the life of the device 
should be in the neighborhood of 10 years.
    A universal mandate will also further reduce costs of the 
device itself, as I mentioned, by economies of scale and by 
reducing installation costs; and, furthermore, with a 
standardized device, as indicated in earlier testimony, it will 
significantly reduce training costs for drivers, dispatchers, 
and law enforcement.
    Therefore, I would re-emphasize that the--I believe that 
the FMCSA was led, to false conclusions by using flawed RIA 
data in their analysis.
    What can an EOBR do for society and for the American roads? 
It can increase road safety. It can reduce the paper mill of 
supporting documents. It can improve driver compliance. It can 
provide tamperproof data. It can provide and reduce roadside 
time for roadside safety inspections. It can reduce accidents 
that translate into the reduced loss of life and property. It 
can provide a level playing field. And it can provide and 
create a market for a low-cost device. And, reemphasizing 
again, a low-cost device should be in the hundreds, not in the 
thousands.
    In summary, Mr. Chairman, the full potential of a 
standardized device of an EOBR can lead to increased road 
safety. We can create an attractive market for manufacturing 
the device and the supporting materials that will come along 
with it.
    The paper record of driver activity needs to be replaced, 
and I believe that in the efforts that have taken place over 
the last 3 years, that we've lost the focus of trying to come 
up with a system that would provide trustworthy, reliable data 
in order to enforce hours-of-service rules on our American 
highways. And this rule, to this point, has failed to address 
this issue.
    This concludes my discussion, Mr. Chairman, and I look 
forward to questions later on.
    [The prepared statement of Mr. Gabbard follows:]

  Prepared Statement of Jerry G. Gabbard, Vice President and General 
  Manager, Commercial Vehicles, NAFTA Region, Siemens VDO Automotive 
                              Corporation
    Mr. Chairman and members of the Subcommittee, my name is Jerry 
Gabbard, and I am Vice President for Commercial Vehicles in the NAFTA 
region of Siemens VDO Automotive. On behalf of the Siemens VDO 
Automotive Corporation, I appreciate the opportunity to present our 
views on the use of electronic on-board recording devices.
Background of Siemens with Vehicle Safety Technologies
    Siemens VDO is a leading international supplier of automotive 
electronics and mechatronics. Through the use of our products, such as 
airbags, ABS, or access control systems, both chassis and car-body 
safety is increased. As a development partner within the automobile 
industry, we manufacture a comprehensive spectrum of products relating 
to the drive-train, engine management electronics and fuel injection 
that simultaneously improve engine performance and reduce emissions. 
Driver comfort is enhanced and driving is made easier with information 
and car communication systems that include instrumentation, audio and 
navigation equipment, telematics, and multimedia applications, up to 
entire cockpit designs.
    Globally, Siemens VDO supplies virtually all manufacturers of 
commercial vehicles with electronic on-board recorders and offers a 
variety of aftermarket solutions tailored to unique regional and 
national needs. There are more than 6 million of our on-board recorders 
installed in commercial vehicles throughout the world.
    Our company is committed to support Federal Motor Carrier Safety 
Administration's (FMCSA's) goal to improve commercial vehicle motor 
safety and the intention to introduce a practical rule on Electronic 
On-Board Recorders (EOBRs) for Hours-of-Service (HOS) compliance. Over 
the past 35 years Siemens has learned from other world regions that 
EOBRs, universally used in all heavy commercial vehicles, have 
significant potential to contribute to improved compliance with HOS 
regulation, and therefore, reduce crashes related to driver fatigue.
Major Concerns With the Proposed FMCSA Rule on EOBRs

  <bullet> Siemens VDO believes that the Notice of Proposed Rule Making 
        (NPRM) on EOBR in its current form will not lead to increased 
        installation and proper utilization of EOBR. We therefore 
        predict no measurable impact on improved road safety and no 
        contribution toward treating all carriers and drivers equitably 
        and less driver exploitation.

  <bullet> The Regulatory Impact Analyses (RIA) has used excessive EOBR 
        cost estimates leading to inappropriate analyses.

  <bullet> The rule does not mandate the universal installation of 
        EOBRs, and the proposed incentives will not encourage carriers 
        to install EOBR in significant quantities.

  <bullet> The rule uses an inappropriate definition of ``problem 
        drivers'' in regard to the reality of HOS compliance. Thus, the 
        chances of detecting non-compliance given today's minimal 
        number of roadside checks makes meaningful road safety 
        improvements highly unlikely.

  <bullet> The rule does not require a tamperproof system design.

  <bullet> The rule lacks standard specifications for driver 
        identification and how drivers can move their HOS data from one 
        vehicle to another.

  <bullet> Data privacy concerns are not adequately considered.

  <bullet> FMCSA has tried to balance different arguments in the 
        Advanced Notice of Proposed Rule Making (ANPRM) but has failed 
        to put safety first. The rule therefore fails to meet the 
        minimum standards established by the Motor Carrier Safety 
        Improvement Act of 1999 or the D.C. Court of Appeals dictate in 
        the Public Citizen decision.

    FMCSA has based its decision not to propose a universal mandate for 
an EOBR and to promote mobile devices mainly on the cost/benefit 
analyses of the Regulatory Impact Analyses of Electronic On-Board 
Recorders. Unfortunately, the Regulatory Impact Analysis (RIA), and 
therefore FMCSA, ignored submitted evidence about EOBR products now on 
the market that are inexpensive, tamper-resistant and standardized. 
There is a significant difference between the cost estimation for EOBR 
as stated in the RIA and the cost estimation of Siemens VDO and other 
potential vendors.\1\
---------------------------------------------------------------------------
    \1\ I.e., Report On Board.
---------------------------------------------------------------------------
Detailed Criticism of the Underlying Regulatory Impact Analysis

  <bullet> The full cost for today's fleet management systems has been 
        used by FMCSA for the RIA, ignoring the fact that HOS function 
        is only an add on component to the system. The primarily reason 
        to use the fleet management system (and therefore its main cost 
        driver) is to enforce other company policies such as to monitor 
        drivers' behavior, vehicle movement, and freight. The proposed 
        performance specification for EOBR HOS recording adds only 
        minimal costs to standard fleet management solutions (FMS). 
        Those transport companies that buy and use FMS mainly for 
        operational reasons, are likely to benefit from limited 
        additional cost for electronic HOS recording and would recoup 
        their investment costs in a very short period. However, this 
        would place smaller fleets and owner-operators at a competitive 
        disadvantage.

  <bullet> Costs for wireless data extraction are included in the 
        annual operating cost. This is necessary for mobile phone 
        solutions and is also normally part of fleet management 
        concepts designed for big fleets in long haul operations. But 
        this is not implicitly required for minimally compliant, 
        tethered EOBR solutions, as they may use other means to 
        transfer data to a secondary data back up system. In 
        particular, owner-operators, small carriers, and those 
        operating short range distributions do not benefit from 
        wireless data extraction of HOS data. As only a limited number 
        of power units do not return to the transport companies home 
        location within the required time for downloading of HOS data 
        to a secondary back up system, the EOBR rule must allow for 
        data downloading without General Packet Radio Service (GPRS) or 
        satellite communication.

  <bullet> FMCSA is focusing on technical solutions available off-the-
        shelf today, but does not consider the technological 
        possibilities for a minimally compliant and standardized EOBRs 
        at current low cost.

  <bullet> Cost savings from economies of scale (when universally 
        mandating EOBR) and increased competition have not been 
        considered by FMCSA.

  <bullet> FMCSA assumes a useful lifetime of the EOBR of 3-5 years 
        which might be correct when using mobile phones or fleet 
        management systems but will certainly not be the case with 
        minimally compliant and standardized EOBR. The Siemens 
        solution, for example, has a market life of 10 years.

  <bullet> With a universal mandate of EOBR, vehicle manufacturers are 
        likely to offer the HOS functionality as an integral part of 
        their vehicles. This will further reduce the cost for the 
        device itself and its installation cost.

  <bullet> Standardization will significantly reduce training cost for 
        drivers, dispatchers and enforcers.
The Need to Introduce a Practical EOBR Rule
    Thousands of people are killed every year on our roads in accidents 
in which trucks are involved. In addition, tens of thousands are 
severely injured. Anyone who has witnessed a large truck accident 
understands the extreme damage to life and property that can result.
    Road traffic is increasing worldwide. The fact that safety on the 
roads has increased in most of the world's highly developed countries 
despite increasing traffic density is due to a wide range of measures 
ranging from improved infrastructure to safer vehicles and better 
training. Measures which encourage people to comply with speed and 
hours-of-service regulations are a key part of many of these regulatory 
systems.
Truck Crash Studies
    Various truck crash studies have reached varying conclusions on the 
role of the driver but all conclude that driver fatigue is a 
significant factor.
    We understand that some truck crash studies have assigned only 13 
percent of the accidents to the fatigue of drivers (Large Truck Crash 
Causation Study) while others conclude that fatigue was the probable or 
primary cause of more than 40 percent of the crashes.\2\ Other studies 
show significantly increased crash risk among drivers who have driven a 
long time rising by 50 percent after 4 hours driving and increasing by 
even 130 percent after more than 8 hours of driving time.\3\
---------------------------------------------------------------------------
    \2\ Transportation Research and Marketing--A Report on the 
Determination and Evaluation of Fatigue in Heavy Truck Accidents, 1985.
    \3\ tzuoo-Ding Lin, Paul P. Jovanis, and Chun-Zin Yang, Time of Day 
Models of Motor Carrier Accident Risk.
---------------------------------------------------------------------------
    To determine if drivers are violating the HOS rules, various 
studies have been conducted. Observations of long distance trucking 
indicate that 30 percent to 50 percent are in violation of the HOS 
regulations \4\ whereas interviews of drivers indicate that more the 75 
percent are at least partly violating the HOS rules.
---------------------------------------------------------------------------
    \4\ Beilock, R. and Capelle, R.B. ``Economic Pressure, Long 
Distance Trucking and Safety'', Journal of the Transportation Research 
Forum 28 (1987) 177-85. Hertz, R.P. ``HOS Violations Among Tractor-
Trailer Drivers'' Accident Analyses and Prevention 23 (1991). Elisa R. 
Braver et al., ``Long Hours and Fatigue: A Survey of Tractor-Trailer 
Drivers'' Journal of Public Health Policy 353 (1992).
---------------------------------------------------------------------------
    It should also be noted that two-thirds of interviewed drivers 
stated that they had driven more miles than was recorded in their 
logbook during the past year.\5\ In other words, Records of Duty Status 
(RODS) or electronic data records often do not reflect the reality 
about driving time. It is not only the paper log books which are easily 
tampered with but is also the case with many of the recording devices 
currently available in the U.S.
---------------------------------------------------------------------------
    \5\ Id. Elisa R. Braver et al.,  at 4.
---------------------------------------------------------------------------
Data Security, Data Privacy and Standardization Requirements
    A key purpose of EORB is to achieve less tampering of HOS records 
than is presently the case and to allow for better enforcement. 
Ultimately, the HOS data recorded in the EOBR must be reliable enough 
that they could be accepted in court, if required.
    This requires:

        1. A technical and organizational concept which ensures that 
        HOS data input reflects drivers' consecutive activities 
        properly;

        2. A technical solution which records, stores, and transmits 
        data in a tamperproof way;

        3. A means to allow enforcers to detect any manipulation 
        attempt;

        4. Standardized data access/download interfaces for enforcers 
        and carriers; and

        5. Data access routines ensuring that only HOS relevant data 
        could be accessed by law enforcers.

    The NPRM fails to address these requirements in the following ways:

  <bullet> Although the NPRM makes some suggestions for common 
        protocols and file formats, EOBR systems from different vendors 
        are unlikely to be interoperable with each other.

  <bullet> The driver identification system and drivers' data transfer 
        from one vehicle to another have not been specified and 
        restricted to one technical solution. A consecutive HOS record 
        for drivers using different vehicles is therefore highly 
        unlikely.

  <bullet> The proposed possibility to use mobile EOBR solutions not 
        tethered to the vehicle leaves the door wide open for 
        falsification.\6\
---------------------------------------------------------------------------
    \6\ Mobile EOBR can record proper HOS data, but only if the driver 
wants data to be recorded properly.

  <bullet> The EOBR security level has not been defined. Test and 
        certification against common IT standards by independent 
---------------------------------------------------------------------------
        laboratories are not required as they should be.

    Unfortunately, devices currently available in the U.S. are not able 
to provide meaningful compliance, because those who want to cheat can 
easily do it using these devices. The proposed FMCSA EOBR rule is 
unlikely to change this. It can be expected that law enforcement will 
return to requiring supporting documents, as the proposed EOBR rule 
does not provide the confidence that the HOS data is accurate and 
dependable.
    Thus, we believe the proposed EOBR FMCSA rule will make little or 
no difference in improving the road safety and driving habits of 
drivers who frequently violate the HOS regulation.
Findings and Conclusions
    There is a widespread agreement that driver fatigue is a 
significant contributor to accidents and excessive driving times are a 
major contributor to driver fatigue. Professional drivers are likely to 
drive routinely for many hours and this behavior is often due to self-
imposed economic pressure or other competitive pressures. These and 
other factors often encourage drivers to ignore HOS requirements.
    Responsible managers of transport companies are aware and well 
informed about the link between driving time and accident risk. Several 
leading transport companies have given a favorable opinion on a 
mandated EOBR system, because they understand that both they and 
society benefit from EOBR deployment.
    Based on our 35 years of experience around the world with legally 
required systems for recording of drivers' hours-of-service, we are 
fully convinced that these systems do have the strong potential to 
significantly reduce accidents that would otherwise be caused by 
fatigued drivers violating the rules and will contribute to harmonized 
competitive conditions and perhaps foster an environment that minimizes 
driver exploitation.
    However, we have also learned that EOBR systems only achieve their 
full potential for improved road safety at a low cost if the technical 
concept of the EOBR system, its infrastructure and enforcement, are 
tailored for the specific needs and goals of the region in which they 
are being considered.
    We believe that the proposed FMCSA rulemaking on EOBR for HOS 
compliance in its current form fails to meet these requirements and 
does not serve the public interest to reduce accidents caused by 
fatigued drivers, nor will it significantly contribute to any 
significant cost savings to the trucking industry.
    The Regulatory Impact Analysis of Electronic On-Board Recorders \7\ 
has failed to adequately collect and analyze information about cost 
reduction potential for EOBR systems for HOS recording in a universally 
mandated market and ignored submitted evidence about the existence of 
inexpensive tamperproof electronic on-board recorders. The conclusions 
of FMCSA in the NPRM regarding the cost/benefit analysis are therefore 
fundamentally flawed.
---------------------------------------------------------------------------
    \7\ RIA prepared by ICF Consulting, Inc. for the FMCSA Analyses 
Division, November 2006.
---------------------------------------------------------------------------
    Low cost EOBRs are possible, especially for owner-operators or 
other companies that do not need the sophisticated functionality of 
fleet management systems. Dedicated EOBR for HOS recording could be 
available at low annual total cost if EOBRs are universally mandated by 
FMCSA.
    Due to the lack of a universal mandate, existing and potential new 
vendors of EOBR systems can not expect any reasonable market for a low 
cost EOBR. Therefore, costs for an EOBR unit including ongoing 
operating cost will remain high.
    Carriers are not homogenous and have different needs. Whereas some 
fleets benefit from using sophisticated fleet management systems others 
do not. It is likely that the majority of carriers will accept EOBRs, 
but only if their concerns about cost, data privacy, and competitive 
disadvantages are considered in the manner in which is mandated.
    Under the proposed rule, the U.S. is unlikely to see significant 
numbers of EOBR systems installed and properly used by those drivers 
referred to as heavy violators, as they are simply not going to be 
apprehended by law enforcement.
    Public safety will not be enhanced without a universal EOBR 
mandate.
    The use of mobile solutions, not permanently installed in the 
vehicle, allows for ease of use but also allows easy manipulation of 
driving status. Those systems are perfect for drivers who will comply 
and demonstrate HOS compliance, but useless for enforcement if used by 
drivers willing to cheat.
    The proposed EOBR performance standard proposed in the rule with 
its inherent possibility to falsify EOBR data records at all levels, 
will not improve the integrity of the recorded data over manual RODS. 
Additionally, law enforcement will not have an enhanced tool to detect 
falsifications.
    It is highly likely under the proposed rule that any EOBR data will 
largely be ignored by state and local law enforcement official, as they 
will soon discover the shortcomings. Therefore, it is also unlikely to 
result in any reduction in the need for supporting documents.
Summary of Siemens VDO Recommendations
  <bullet> The NPRM should be canceled and replaced by a new NPRM.

  <bullet> The RIA must be reworked in order to take into consideration 
        the existence of low cost EOBR devices.

  <bullet> The NPRM must standardize the level of measures to prevent 
        tampering with the overall system; it should standardize user 
        interfaces with respect to driver identification and how 
        drivers' data are transferred from one vehicle to another; and 
        it should define file formats and download protocols.

  <bullet> The final EOBR rule should require systems to be fixed to 
        the vehicle and not allow mobile solutions.

  <bullet> As surveys show clearly that HOS violations are much more 
        widespread than what FMCSA is assuming, a widespread mandate 
        should be proposed.

  <bullet> A phase-in scenario for tamperproof EOBR and phaseout for 
        old systems should be developed.

  <bullet> FMCSA should facilitate the introduction of EOBRs by sharing 
        the most current and correct information on them with carriers 
        and drivers.

  <bullet> The decision to universally mandate EOBRs should be made 
        with realistic figures and also in the light of the primary 
        goal which is to improve road safety.

    I appreciate this opportunity to offer these observations, 
experiences, and recommendations to improve highway safety in the 
United States.

    Senator Lautenberg. Thank you.
    Dr. McCartt?

STATEMENT OF ANNE T. McCARTT, SENIOR VICE PRESIDENT, RESEARCH, 
             INSURANCE INSTITUTE FOR HIGHWAY SAFETY

    Dr. McCartt. Thank you, Mr. Chairman.
    The Insurance Institute for Highway Safety is a nonprofit 
research and communications organization that identifies ways 
to reduce the deaths, injuries, and property damage on our 
Nation's highways. We're sponsored by U.S. auto insurers.
    Thank you for allowing me to testify on this critical 
safety issue.
    The Federal Motor Carrier Safety Administration and its 
predecessor agencies have refused to protect the American 
public by addressing, in a meaningful way, the serious problem 
of truck driver fatigue. The agency's decision to increase 
trucker's permissible daily and weekly driving hours, plus its 
failure to enforce the work rules, demonstrate indifference to 
public safety. Because it does not require recorders on all 
large trucks, and will affect only a tiny proportion of motor 
carriers, the proposed rule, if finalized, will be a travesty.
    Efforts to improve enforcement of truckers' work rules span 
more than three decades. In 1971, Federal legislation was 
introduced to require all commercial buses and trucks 
manufactured after January 1974 to be equipped with tachographs 
to record driving time. The legislation was not enacted, and 
the system for enforcement still is inadequate.
    In 1986, our Institute petitioned the Bureau of Motor 
Carrier Safety to require automatic on-board recording devices 
on all heavy trucks. The petition was denied, and, during the 
intervening 20 years, an estimated 16,030 people died in 
crashes involving fatigued truckers. This included 11,750 
passenger vehicle occupants, 2,257 occupants of large trucks, 
and 2,023 motorcyclists, bicyclists, pedestrians, and others. 
By failing to take meaningful, readily available steps to 
address trucker fatigue, FMCSA and its predecessor agencies 
share responsibility for these deaths.
    By all accounts, the system of manually recorded logbooks 
is a joke. In the electronic age, there's no excuse for 
refusing to require devices to enforce what are lax 
restrictions on truckers' driving times. It is doubtful that 
anyone can argue with a straight face that a tractor trailer 
driver spending 11 hours behind the wheel is good for safety.
    Since 1986, our Institute has submitted four additional 
petitions and 19 comments calling for an on-board recorder 
requirement for all large trucks. We've provided more than 200 
pages documenting the failed paper-based system of enforcement 
and the affordability of electronic on-board recorders. Instead 
of considering these and other objective research findings, 
FMCSA has given weight to evidence that's biased and lacking in 
scientific merit. For one brief period in 2000, FMCSA appeared 
to take its safety title seriously and proposed to require 
recorders in all large trucks. However, this requirement was 
removed from the final rule effective in January 2004. When it 
vacated the rule, the U.S. Court of Appeals for the District of 
Columbia questioned the rationality of the decision, chastising 
the agency for its, ``one-sided and passive,'' regulatory 
approach to the issue of recorders, and noting that the agency 
had not taken the ``seemingly obviously step of testing 
existing recorders on the road.''
    FMCSA still has not tested existing recorders, and, with 
little justification, has drafted a rule affecting only a tiny 
percentage of carriers. The proposal represents the most 
minimal action the agency could have taken in response to the 
court.
    In requiring recorders for a tiny proportion of carriers, 
the agency assumes there are only a few problem carriers and 
drivers. This is contradicted by our Institute's research 
indicating that 20 to 25 percent of long-distance truck drivers 
violate work rules. In 2005, one in five drivers reported 
falling asleep at the wheel during the previous month, an 
increase from 13 percent in 2003, before the work rule change. 
Unless recorders are required, compliance officers must rely on 
paper logbooks and related documentation that can be easily 
falsified. So, identifying even this tiny proportion of 
egregious violators is problematic.
    The proposal also fails to account for the large increase 
in trucks equipped with recorders. About 45 percent of truck 
drivers we interviewed in 2005 said their trucks had recorders, 
up from 18 percent in 2003; however, only 10 percent, or fewer, 
of truckers with recorders said they were using them in lieu of 
paper logbooks to show compliance with the rules. The excuse 
that technology is not there yet does not stand up to scrutiny. 
We can download 20,000 songs to our iPods. Worldwide, we sent 
161 billion gigabits of digital information last year. Our 
Government sends astronauts to space for months at a time. In-
vehicle technologies can parallel park without driver input. 
Many large truck rigs have expensive multifunction 
entertainment systems. Is it really possible that the 
Government cannot figure out how to get devices in trucks to 
record when they are being driven? It is past time for 
research, pilot studies, or government/industry cooperative 
ventures. It is time for action.
    In the meantime, fatigue-related deaths continue. In Lake 
Butler, Florida, on January 26, 2006, a trucker, who had been 
awake for 34 hours, except for a short nap, rammed his tractor 
trailer into the back of a van stopped behind a school bus. In 
the ensuing inferno, all seven children in the van, ages 20 
months to 15 years, were killed. Upon hearing of the tragedy, 
their grandfather suffered a fatal heart attack. The driver of 
the school bus and three children were seriously injured. 
Highway patrol officers said there was no evidence the trucker 
braked and no apparent reason why the driver could not have 
seen the van and bus stopping. Many such tragedies occur each 
year because truck drivers, like this one, violate the work 
rules.
    The proposed rule does nothing that will prevent future 
tragedies like this. FMCSA, with the word ``Safety'' in its 
name, must require electronic recorders in all trucks if it is 
to put real teeth in the hours-of-service rules and finally 
begin to curb the deadly problem of fatigued truck drivers.
    Thank you.
    [The prepared statement of Dr. McCartt follows:]

Prepared Statement of Anne T. McCartt, Senior Vice President, Research, 
                 Insurance Institute for Highway Safety
    The Insurance Institute for Highway Safety is a nonprofit research 
and communications organization that identifies ways to reduce the 
deaths, injuries, and property damage on our Nation's highways. We are 
sponsored by U.S. automobile insurers. Thank you for allowing me an 
opportunity to testify on this critical safety issue.
    The Federal Motor Carrier Safety Administration and its predecessor 
agencies have refused to protect the American public by addressing in a 
meaningful way the serious problem of truck driver fatigue. The 
agency's recent decision to increase truck drivers' permissible daily 
and weekly driving hours plus its failure to enforce work rules 
demonstrate indifference to public safety. Because it does not require 
electronic recorders in all large trucks and will affect only a tiny 
proportion of carriers, the proposed rule, if finalized, will be a 
travesty.
    Efforts to improve enforcement of hours-of-service rules for truck 
drivers span more than 3 decades. In 1971 Federal legislation was 
introduced to require all commercial trucks and buses manufactured 
after January 1974 to be equipped with tachographs to record driving 
time. The legislation was not enacted, and to this day the system for 
enforcing hours-of-service rules is inadequate. I refer the Committee 
to the detailed chronology on rulemaking that is attached to my 
testimony.
    On October 1, 1986, the Institute petitioned the Bureau of Motor 
Carrier Safety to require automatic on-board recording devices to be 
installed and used in all heavy trucks. This petition was denied, and 
during the intervening 20 years an estimated 16,030 people died in 
crashes involving fatigued truckers. This toll includes 11,750 
passenger vehicle occupants; 2,257 occupants of large trucks; and 2,023 
motorcyclists, bicyclists, pedestrians, and others on the road. By 
failing to take meaningful and readily available steps to address truck 
driver fatigue, the Federal Motor Carrier Safety Administration and its 
predecessor agencies share responsibility for these deaths.
    By all accounts the current system of manually recorded logbooks is 
a joke. In the electronic age there is no excuse for refusing to 
require devices in trucks to improve the enforcement of what are lax 
restrictions on the amount of time truck drivers can spend behind the 
wheel. It is doubtful that anyone can argue with a straight face that a 
tractor trailer driver spending 11 hours behind the wheel is good for 
safety.
    Since 1986 our Institute has submitted 4 additional petitions and 
19 comments calling for an on-board recorder requirement for all large 
trucks. We have provided more than 200 pages documenting the failed 
paper-based system of enforcement of the hours-of-service rules and the 
affordability of electronic on-board recorders. Instead of considering 
these and other objective research findings, the agency has given 
weight to evidence that is biased and lacking in scientific merit.
    For one brief period in 2000 the agency did appear to take its 
safety title seriously, proposing to require recorders in all large 
trucks. However, this requirement was removed from the final rule that 
was effective January 4, 2004. When it vacated the rule in July 2004, 
the U.S. Court of Appeals for the District of Columbia questioned the 
rationality of the decision, chastising the agency for its ``one-sided 
and passive'' regulatory approach to the issue of recorders and noting 
that the agency had not taken the ``seemingly obvious step of testing 
existing [recorders] on the road'' (Public Citizen v. FMCSA, 374 F.3d 
1209, 1222 (D.C. Cir. 2004)). The Federal Motor Carrier Safety 
Administration still has not tested existing on-board recorders and, 
with little justification, has drafted a rule that would affect only a 
tiny percentage of motor carriers. The proposal represents the most 
minimal action the agency could have taken in response to the court.
    In requiring on-board recorders for only a miniscule proportion of 
carriers, the agency assumes there are only a few problem carriers and 
drivers. This is contradicted by Institute research indicating that 20-
25 percent of long-distance truck drivers violate work rules. In 2005, 
1 in 5 drivers reported falling asleep at the wheel during the previous 
month, an increase from 13 percent in 2003 before the work rule change. 
The research further indicates an association between work rule 
violations and dozing at the wheel. Unless on-board recorders are 
required, compliance officers must rely on paper logbooks and related 
documentation that can be falsified easily. So identifying even this 
tiny proportion of egregious violators will be problematic.
    The proposed rule fails to account for the large increase in trucks 
equipped with recorders. About 45 percent of long-distance truck 
drivers said in 2005 that their trucks had recorders, up from about 18 
percent in 2003 and about 38 percent in 2004. However, only 10 percent 
or fewer of the truckers who reported having on-board recorders said 
they were using them in lieu of paper logbooks to show compliance with 
work rules. This indicates the need for on-board recorders to overcome 
noncompliance.
    The excuse that the technology is not there yet simply does not 
stand up to scrutiny. We can download 20,000 songs to our iPods. 
Worldwide we sent 161 billion gigabytes of digital information last 
year. Our government sends astronauts to space for months at a time. 
In-vehicle technologies can parallel park without driver input. Many 
large truck rigs have expensive, multifunction entertainment systems. 
Is it really possible that the government cannot figure out how to get 
devices in trucks to record when they are being driven? It is no longer 
credible to argue that the devices are too expensive or burdensome for 
widespread use. It is past time for research, pilot studies, or 
government/industry cooperative ventures. It is time for action.
    In the meantime, fatigue-related deaths continue. In Lake Butler, 
Florida, on January 26, 2006, a trucker who had been awake for 34 hours 
except for a short nap rammed his tractor trailer into the back of a 
van stopped behind a school bus. In the ensuing inferno all 7 children 
in the van, ages 20 months to 15 years, were killed. Upon hearing of 
the tragedy, their grandfather suffered a fatal heart attack. The 
driver of the school bus and 3 children were seriously injured. Highway 
Patrol officers said there was no evidence that the trucker braked, and 
there did not appear to be any reason why the truck driver could not 
have seen the van and bus stopping. Many such tragedies occur each year 
because truck drivers, like this one, exceed the hours-of-service 
regulations.
    The proposed rule does nothing that will prevent future tragedies 
like this. The Federal Motor Carrier Safety Administration, with the 
word ``safety'' in its name, must require electronic recorders in all 
trucks if it is to put real teeth in hours-of-service rules and finally 
begin to curb the deadly problem of fatigued truck drivers.
                                 ______
                                 

         Regulating Truck Driver Fatigue: A Chronology of Delay

    Hours-of-service and logbook regulations are inextricably related. 
The following chronology documents many initiatives that have been made 
over the past three decades to address the driver fatigue problem by 
improving the hours-of-service regulations and introducing on-board 
recorder technology that is objective and that does not rely on self 
reporting by the regulated industry.
    1971--To address the issue of truck speeds and fatigued truck 
drivers, the Bus and Truck Safety Act of 1971 (H.R. 10267) is 
introduced to require all commercial trucks and buses to be equipped 
with tachographs to record driving speed and miles traveled.
    1976--The Bureau of Motor Carrier Safety requests public comment on 
hours-of-service regulations to address the problem of fatigue-related 
crashes.
    1986--The Insurance Institute for Highway Safety petitions the 
Bureau of Motor Carrier Safety to require heavy-duty truckers to 
install and use automatic on-board devices to record driving times and 
speeds. This petition is denied.
    1987--After denying the 1986 petition to require on-board 
recorders, the Federal Highway Administration reverses its decision and 
publishes a notice seeking more information.
    1987--The Insurance Institute for Highway Safety research shows 
that driving more than 8 hours increases the risk of large truck 
crashes.
    1988--Citing the Insurance Institute for Highway Safety's petition 
for reconsideration on on-board recorders, the Federal Highway 
Administration proposes to allow on-board recorders in lieu of the 
handwritten log.
    1988--Congress passes the Truck and Bus Safety and Regulatory 
Reform Act requiring the Bureau of Motor Carrier Safety to begin 
rulemaking on improved compliance with hours-of-service regulations, 
including consideration of on-board recorders.
    1989--The Congressional Office of Technology Assessment issues a 
report citing a wide array of immediate and long-term governmental and 
industry actions that could reduce the truck crash problem. Requiring 
on-board recorders is among the recommendations.
    1989--The Insurance Institute for Highway Safety petitions the 
Federal Highway Administration to require on-board recorders in motor 
carriers transporting hazardous materials.
    1990--The National Transportation Safety Board recommends issuance 
of a Federal rule to require on-board recorders to monitor the hours-
of-service of truck drivers.
    1992--A survey by the Insurance Institute for Highway Safety 
indicates that the majority of long-distance truckers violate work-hour 
rules.
    1992--The Federal Highway Administration proposes to increase the 
hours commercial vehicle drivers are permitted to drive.
    1995--The Insurance Institute for Highway Safety and five other 
safety groups petition the Federal Highway Administration to require 
on-board recorders.
    1996--Directed by Congress in 1995 to reassess hours-of-service 
rules, the Federal Highway Administration again considers relaxing the 
rule, relying on a driver fatigue study by the agency and American 
Trucking Associations. Both the Insurance Institute for Highway Safety 
and a panel assembled by the agency identified numerous weaknesses in 
the study.
    2000--The newly created Federal Motor Carrier Safety Administration 
announces a proposal intended to reduce the problem of fatigue by 
requiring longer off-duty time for truckers and mandatory electronic 
recorders.
    2003--The Federal Motor Carrier Safety Administration announces a 
rule that increases the mandatory daily rest period by 2 hours, allows 
drivers to stay on the road for an extra hour, and introduces a restart 
provision to increase allowable driving hours within a 7- or 8-day 
period. The rule does not require on-board recorders, despite proposing 
to require them.
    2004--The U.S. Court of Appeals for the District of Columbia 
dismisses the Federal Motor Carrier Safety Administration's action as 
being ``arbitrary and capricious.'' The court specifically cited the 
agency's attempted justification for backing off from its proposal to 
require on-board recorders. The agency's attempt reflects 
``questionable rationality,'' the court said, adding that it ``cannot 
fathom . . . why the agency has not even taken the seemingly obvious 
step of testing existing [recorders] on the road'' to see if they 
should be required in all truck rigs. Public Citizen v. FMCSA, 374 F.3d 
1209 (D.C. Cir. 2004).
    2004--Although the Federal Motor Carrier Safety Administration has 
permitted some carriers to use recorders instead of paper logs since 
1985, the agency issues an advanced notice of proposed rulemaking 
seeking public comment on dozens of questions. This further delays 
mandating the use of recorders by all carriers.
    2005--The Insurance Institute for Highway Safety surveys find that 
the Federal rule addressing truck drivers' work hours is not stopping 
truckers from driving with too little rest. The American Trucking 
Associations announces its conditional support for on-board recorders.
    2005--The Federal Motor Carrier Safety Administration issues a 
revised hours-of-service rule very similar to the one the court 
rejected in 2004. Public Citizen and others immediately sue to overturn 
the rule.
    2007--The Federal Motor Carrier Safety Administration issues a 
proposed rule to require on-board recorders for a miniscule proportion 
of truckers.

    Senator Lautenberg. Thank you very much, Dr. McCartt.
    Mr. Reiser?

        STATEMENT OF RICHARD S. REISER, ON BEHALF OF THE

          AMERICAN TRUCKING ASSOCIATIONS, INC. (ATA);

         EXECUTIVE VICE PRESIDENT AND GENERAL COUNSEL,

  WERNER ENTERPRISES, INC.; CHAIRMAN, ATA'S HOURS-OF-SERVICE 
                           COMMITTEE

    Mr. Reiser. Good afternoon, Mr. Chairman and other members 
of the Subcommittee. Thank you for the opportunity to express 
the American Trucking Associations' views on these important 
issues.
    Senator Lautenberg. Bring the mike a little closer to you, 
please.
    Mr. Reiser. I have to turn it on, too. I'm sorry.
    Senator Lautenberg. All right. Start anew.
    Mr. Reiser. My name is Richard Reiser. I'm the Executive 
Vice President and General Counsel of Werner Enterprises, from 
Omaha, Nebraska.
    Werner Enterprises is a truckload motor carrier with a host 
of trucking- and transportation-related services. We have a 
fleet of more than 8,800 tractors, over 25,000 trailers, and 
have more than 14,000 employees and independent contractors. 
Our mission is to provide premier transportation and logistics 
services while maintaining a high standard of safety, 
profitability, and integrity.
    Werner has operated a paperless electronic logging system 
since 1998 under a unique program and an exemption granted by 
the Federal Motor Carrier Safety Administration. For years now, 
we have had the functional equivalent of an EOBR in every one 
of our 8,000-plus trucks. As a result, we have a significant 
amount of experience in designing, installing, maintaining, and 
managing an EOBR system, as well as designing and implementing 
a training program for drivers.
    The costs, complexities, and outcomes associated with using 
an EOBR system are well known to us. Although it is 
disappointing to say, we have not been able to quantify an 
improved safety outcome from using EOBRs and achieving a higher 
degree of hours-of-service compliance. Werner's experience with 
EOBRs, along with other members of ATA, is what drives ATA's 
position and recommendations on this issue.
    ATA has tried hard to avoid the rhetoric surrounding this 
issue, and has tried to be dispassionate and productive in its 
policy recommendations. ATA can see a future state where 
certain trucking operations are mandated to use EOBRs for 
hours-of-service recordkeeping.
    In our written testimony, we have included our full set of 
policy recommendations aimed toward moving the regulators and 
the industry there. I will highlight three of those:
    First, there should be sound evidence that EOBR use leads 
to enhanced safety performance by means such as an accident-
rate reduction or other safety performance measures in addition 
to improved compliance. This data will increase the credibility 
of EOBR systems as a cost-effective technology for motor 
carriers. A presumption has been made that EOBR use leads to 
better safety performance by carriers and drivers; however, 
there is little, if any, empirical evidence to support that 
position. Werner's 9-year experience with EOBRs bears that out. 
To try to get beyond this presumption, the regulators should 
partner with trucking to conduct a pilot program of sufficient 
duration with adequate controls in place to determine whether 
driver fatigue is reduced and if there are real safety benefits 
to EOBR use.
    I note that CVSA has also recommended to the FMCSA that it 
conduct field operational tests to more fully evaluate the 
safety benefits of EOBR use. Whether we call it a pilot program 
or an operational test, it should be done, and it should 
involve the regulators, the industry, and the enforcement 
community. And it should involve EOBRs which FMCSA certifies as 
meeting its requirements.
    This leads me to our second recommendation. FMCSA should 
complete and issue updated and improved performance 
specifications for EOBRs, guidelines for how the technology 
works, what it should record, how often it records the data, et 
cetera. Having final, or draft final, technology specifications 
for the device will facilitate the short-term pilot program I 
mentioned. It will also facilitate voluntary adoption of this 
technology by those carriers choosing to move from paperwork to 
electronic logging.
    Our first two recommendations are made to the regulatory 
agency, but our third is legislative in nature. We believe that 
statutory language defining motor carriers as the owners and 
primary controllers of the EOBR-generated data, along with 
language protecting the privacy rights of drivers, should be in 
place. Those granted access to this data should make up a 
limited list, and the access should be for hours-of-service 
compliance verification and enforcement, if necessary. Federal 
policy should be clear on this issue.
    ATA can clearly see the future where certain trucking 
companies are mandated by regulation to use EOBRs for 
documenting hours-of-service compliance. Given the current lack 
of empirical evidence showing a safety benefit EOBR use, ATA 
understands FMCSA's proposed regulatory approach, and generally 
supports it. More meaningful regulatory incentives will help 
that approach.
    In order to get to the desired future state, though, ATA 
recommends a pilot program for a goal--with the goal of 
producing empirical evidence that EOBR use has safety benefits 
and is cost-effective; that the basic performance 
specifications for EOBRs be clearly defined and finalized; and 
that Federal policy captured in statute clearly define data-
ownership control and access limits.
    In closing, a comment on hours-of-service limits. Most 
would agree that hours-of-service rules are a fairly 
rudimentary approach to addressing the complex issue of human 
alertness. The transportation industry and regulators need to 
move toward a comprehensive alertness and fatigue management 
program that better addresses this important issue.
    Thank you for the opportunity for ATA to offer its views 
and policies. We look forward to working with this 
Subcommittee, the Congress, FMCSA, and other reasoned 
stakeholders to improve the safety and productivity of our 
Nation's highway transportation system.
    [The prepared statement of Mr. Reiser follows:]

  Prepared Statement of Richard S. Reiser, on Behalf of the American 
Trucking Associations, Inc. (ATA); Executive Vice President and General 
  Counsel, Werner Enterprises, Inc.; Chairman, ATA's Hours-of-Service 
                               Committee
Introduction
    Mr. Chairman, Mr. Vice Chairman and other Members of the 
Subcommittee, thank you for the opportunity to express the American 
Trucking Associations' views on the issues of electronic on-board 
recorders (EOBRs) and truck driver fatigue. I am Richard S. Reiser, 
Executive Vice President & General Counsel of Werner Enterprises, Inc. 
in Omaha, Nebraska. Werner Enterprises is among the five largest 
truckload motor carriers in the U.S. with a portfolio of transportation 
services that includes: medium to long haul, regional and local van 
capacity, temperature-controlled, flatbed, dedicated and expedited 
service. Werner is in its 51st year of business and has a fleet of more 
than 8,800 tractors, over 25,000 trailers and has more than 14,000 
employees and independent contractors. The principal types of freight 
transported by Werner include retail store merchandise, consumer 
products, manufactured products and grocery items. Werner's mission is 
to provide premium transportation service while maintaining a high 
standard of safety, profitability and integrity.
    Werner has operated a paperless electronic logging system since 
1998 under a pilot program and exemption granted by the Federal Motor 
Carrier Safety Administration (FMCSA). As a result, Werner has a 
significant amount of experience in designing, installing, maintaining 
and managing an electronic on-board recorder (EOBR) system, as well as 
designing and implementing a training program for drivers. The costs, 
complexities and outcomes associated with using an EOBR system are well 
known to us.
    It is my pleasure to appear before the Subcommittee today on behalf 
of the American Trucking Associations, Inc. (ATA). Werner is a 
longstanding and active member of ATA and I am currently the Chairman 
of ATA's Hours-of-Service Committee.
    ATA is a united federation of motor carriers, state trucking 
associations, and national trucking conferences created to promote and 
protect the interests of the trucking industry. Its membership includes 
more than 2,000 trucking companies and industry suppliers of equipment 
and services. Directly and indirectly through its affiliated 
organizations, ATA encompasses over 35,000 companies and every type and 
class of motor carrier operation.
    ATA is encouraged that FMCSA has initiated the process to update 
regulations involving EOBRs used to record a drivers' hours-of-service. 
ATA is also aware that the agency is contemplating the promotion of 
several new ``safety technologies'' to be potentially used in the 
future. As such, the agency and industry have undertaken studies to 
determine what is needed to motivate the industry to adopt and deploy 
on-board safety devices and technologies. The shared objective is to 
reduce truck-involved crashes by deploying proven, effective equipment 
that has the best return-on-investment (ROI). Integration of these 
concepts in the development of an EOBR rule would help to produce a 
useful regulation and provide incentives for implementation. (See 
Attachment A for recent research findings).
    In our testimony today, we will:

  <bullet> Explain our policies and views on FMCSA's proposed rule on 
        EOBRs.

  <bullet> Offer ATA's recommendations to make use of EOBRs more viable 
        and effective.

  <bullet> Offer an insight into the size of the truck driver fatigue 
        issue and public policy development associated with it.

ATA's Policy Conditionally Supports a Mandate
    ATA foresees a future state where certain trucking operations are 
required to use EOBRs for hours-of-service recordkeeping. ATA's 
membership established in October 2005 a nine-point policy regarding 
EOBRs aimed at achieving prudent utilization of this technology. We 
have attached this policy for the Subcommittee's review. (See 
Attachment B).
    A primary point within our policy concerns the safety benefits of 
EOBR usage. This is stated as:

        ``There should be sound, consensus-based evidence that EOBR use 
        leads to enhanced fleet safety performance by such means as 
        accident rate reduction and improved compliance, therefore, 
        increasing the credibility of EOBR systems as a cost-effective 
        technology for motor carriers.''

    There is little, if any, empirical evidence showing that EOBR use 
reduces driver fatigue, prevents accidents, improves safety and lowers 
costs.\1\ This empirical evidence is necessary not only to support a 
regulation and its associated benefits, but also to provide motor 
carriers meaningful information in deciding whether to deploy such 
systems in their fleets.
---------------------------------------------------------------------------
    \1\ ``Electronic On-Board Recorder Adoption In the Trucking 
Industry: Issues and Opportunities,'' September 2006, The American 
Transportation Research Institute.
---------------------------------------------------------------------------
    While the safety benefits are the primary issue, as they should be, 
investment and ongoing costs are also a concern to ATA's members. When 
assessing the economic impact on a motor carrier of any future proposed 
requirement for EOBRs, it is necessary not only to consider the cost of 
purchasing and installing the system in each truck to record a driver's 
hours-of-service, but also other associated and potentially significant 
ongoing costs (See Attachment C). On this point, it is unfortunate that 
FMCSA's Regulatory Impact Analysis (RIA) did little to help clarify the 
costs and benefits of the proposed rule, other than finding that costs 
of EOBRs almost always outweigh the benefits. The RIA makes it clear 
that there is a dearth of research identifying safety benefits of EOBR 
use, while the costs of the EOBR systems used in the RIA indicate that 
the technology remains a significant investment for motor carriers.
    Given that FMCSA does not have safety benefit data sufficient to 
support an overall mandate, ATA generally supports the agency's policy 
approach to provide incentives to drive voluntary industry adoption of 
EOBRs, with mandates limited to targeted enforcement against carriers 
and drivers shown to be historically non-compliant with hours-of-
service rules.
    However, ATA believes the agency must make important changes to the 
proposed rule to make it effective in practice and to better promote 
the voluntary use of EOBRs.
    This brings us to our next point within ATA's policy. That is:

        ``EOBR systems should be based on the minimal, functional and 
        performance specifications necessary to accurately record and 
        report hours-of-service compliance and assure reliability and 
        utility of operation.''

    The industry has asked for uniform, minimum performance criteria 
for EOBR devices and systems, which provides for flexibility in the 
design and delivery to the market. There needs to be design and 
operational requirements that will dependably, reliably and 
comprehensively replace manual logbooks. Without consistent and 
recognizable specifications for EOBR devices and systems, there will 
continue to be questions related to utility, reliability, tamper-
resistance, accuracy, durability and effectiveness.
    ATA members have expressed that they are much less likely to invest 
in EOBRs for hours-of-service compliance until there are accepted, 
feasible and finalized performance specifications. These performance 
specifications are needed to firmly establish uniform and reliable EOBR 
systems that will accurately record and report drivers' hours-of-
service.
    Motor carriers must make decisions in the course of product 
selection and need assurance that:

  <bullet> The EOBR design requirements are fully and adequately 
        determined.

  <bullet> Performance specifications are recognized as the standard to 
        be met by EOBR equipment and service providers.

  <bullet> The EOBR system will function as expected in a secure 
        environment.

    ATA recognizes that recent court challenges to the existing hours-
of-service rules have also hindered progress in defining specific 
information and parameters that would be entered into EOBRs. The hours-
of-service rules need to be stable and firmly in place so that this 
integral information can be included in the software of deployable 
(``ready-to-use'') EOBR systems, and thus eliminate the need for 
redeployment of operational systems in the future.
    Even more immediately significant is that without final, definitive 
and acceptable performance specifications for EOBRs:

        1. It is highly unlikely that motor carriers will invest in 
        such systems (preferring to wait and buy the compliant 
        version).

        2. The EOBR vendor community will likely promote current 
        designs and systems rather than make technological improvements 
        (preferring to wait and produce a compliant version).

        3. Research that could illustrate the benefits and costs of 
        EOBRs will be placed on hold (preferring to model methodology 
        with the new compliant version).

    While we addressed two of our nine policy points above, we 
encourage a review of the additional points in the attached ATA policy. 
(See Attachment B).
ATA's Recommendations
Complete the Performance Specifications for EOBRs
    The importance of satisfactorily completing and issuing final 
performance specifications should not be underestimated. This is 
essential to deployment of EOBRs and ATA recommends that FMCSA issue in 
the very near future a supplemental rulemaking notice with better and 
more technically sound performance specifications for EOBRs. ATA's 
comprehensive written comments to FMCSA included a number of specific 
recommendations in this area.
Conduct a Pilot Program
    FMCSA should conduct a pilot program of sufficient duration with 
adequate controls in place to determine whether or not driver fatigue 
is reduced and there are real safety benefits to EOBR use. 
Congressional oversight Committees should support this type of pilot 
program. A presumption has been made that there are safety benefits; 
however, there is little, if any, empirical evidence to support that 
position. The pilot program should use a form of EOBRs which FMCSA 
certifies as meeting its requirements. This is critical since driver 
acceptance of the technology and the ability of drivers to understand 
and use it will be critical to the ultimate success of any such device. 
Additionally, it should ensure that a complying device is available at 
a cost which will obtain voluntary participation by carriers and which 
can be used for a benefit-cost analysis.
    Given the size of the trucking industry, and the scope and 
complexity of this issue, mandating EOBRs without adequate testing 
through a pilot program may impose a huge financial and operational 
burden upon the trucking industry, for which no real benefit is derived 
by either the public or the industry.
    ATA and several of its members are very much interested in 
participating with FMCSA in conduct of a pilot program and plans to 
submit a petition for such a program.
Provide Meaningful Incentives
    If FMCSA moves forward with its current regulatory approach, it 
should offer motor carriers more substantial incentives to promote 
voluntary adoption of EOBRs. It can directly encourage motor carrier 
adoption of EOBRs by providing reasonable and defensible flexibility in 
certain areas of the hours-of-service requirements, and offering 
administrative incentives. For example, allowing the 14 hour ``running 
clock'' on-duty limit to be stopped for up to 2 hours for rest and meal 
breaks, providing flexibility in how drivers may take their rest 
periods when using a sleeper berth, and providing positive credit or 
points for carriers in the criteria used to select carriers for audits.
    Congress can also assist in stimulating voluntary adoption of EOBRs 
for improved compliance. Two legislative approaches that might be 
considered are statutory data protections and tax incentives.
    Statutory protections should be afforded to motor carriers 
pertaining to the control, ownership and admissibility/discoverability 
of data generated and derived from EOBRs, and to assure the privacy 
rights of drivers. The enactment of statutory protections for data 
beyond that currently required under 49 CFR Part 395 could alleviate a 
major impediment to industry acceptance of EOBRs. Government policy 
also needs to support data privacy. Without certain protections 
afforded to motor carriers and drivers, the shadow of external access 
to EOBR collected data that is outside the scope of the hours-of-
service rules could serve as a disincentive to motor carrier 
investment.
    Congress should also consider tax incentives (e.g., credits) to 
encourage motor carrier investment in EOBRs and to offset the cost of 
purchasing EOBR devices and associated support systems. As noted in 
Attachment A, tax incentives for expense of equipment are prime ``non-
safety'' motivators for investment.
Truck Driver Fatigue and Related Issues
    It is important for policymakers to understand the size of the 
driver fatigue issue in relationship to truck-involved crashes. The 
most recent and, by far, most comprehensive truck crash causation study 
was completed last year, and a report was issued to Congress in March 
2006.\2\ That study found that fatigue was 11th on the list of the 
``Top 20'' associated factors list. This report did not list fatigue as 
a ``critical reason'' or causation factor for the crashes investigated, 
rather it listed it along with other issues as an ``associated 
factor.'' Associated factors in the study were defined as conditions or 
circumstances present at the time of the crash, and no judgment was 
made as to whether it was related to the crash--just that it was 
present. This study also found that the majority of truck crashes are 
multi-vehicles crashes involving at least one truck and one passenger 
vehicle, and that fatigue was coded as an associated factor twice as 
often for passenger vehicle driver and speeding more often for truck 
drivers.\3\ We have included two tables from this report showing 
fatigue listed as an associated factor. (See Attachment D). This study 
was authorized and funded by the Congress, performed by the U.S. 
Department of Transportation, and is widely recognized as the most 
comprehensive study of truck-involved crashes ever performed.
---------------------------------------------------------------------------
    \2\ Report to Congress on the Large Truck Crash Causation Study, 
MC-R/RRA, March 2006, U.S. Department of Transportation, Federal Motor 
Carrier Safety Administration.
    \3\ Ibid, p. 3.
---------------------------------------------------------------------------
    Of course, EOBRs are intended to assist companies and drivers 
record on-duty shifts and off-duty rest periods consistent with the 
applicable hours-of-service rules in order to minimize the risk of 
operating while fatigued. These rules have changed twice over the last 
4 years, after remaining constant for more than 6 decades. 
Unfortunately, the current rules are unsettled again because they are 
the subject of ongoing litigation in the U.S. Court of Appeals for the 
D.C. Circuit by advocacy groups and organizations representing 
different parts of the industry. Depending upon the outcome, the rules 
could change yet again. FMCSA's EOBR rulemaking process could well be 
impacted by the Court's decision.
    In addition, as a result of the rapid change in the hours-of-
service rules in the last 4 years, the jury is still out on whether the 
revised rules are achieving their intended safety benefit. But the 
majority of stakeholders in this debate would likely agree that 
effective hours-of-service rules are only part of a solution aimed at 
keeping commercial operators alert and safe when working and driving. 
Managing operator alertness and fatigue in a trucking setting is a 
complex issue that calls for a more comprehensive approach. ATA is 
hopeful that the national dialogue on this issue moves beyond simple 
on-duty and driving limits toward a more comprehensive programmatic 
approach to managing alertness. This will take years, but movement 
toward this goal needs to begin.
Summary and Conclusion
    ATA foresees and supports a future state where certain trucking 
companies are required to use EOBRs for documenting hours-of-service 
compliance. But given the lack of empirical evidence showing a safety 
benefit of EOBR use, ATA understands and generally supports FMCSA's 
proposed regulatory approach. In order to get to the desired future 
state, ATA recommends:

  <bullet> A pilot program aimed at producing empirical evidence that 
        EOBR use has safety benefits and is cost effective,

  <bullet> That the basic performance specifications for EOBRs be 
        clearly defined and finalized.

    If FMCSA moves forward with its current regulatory approach, it 
should provide meaningful incentives for motor carriers to voluntarily 
adopt EOBRs for compliance purposes.
    In addition, both government and industry need to recognize that 
hours-of-service rules are a fairly rudimentary approach to addressing 
the complex issue of human fatigue and alertness. The transportation 
industry and regulators need to move toward alertness and fatigue 
management programs that more comprehensively address this important 
issue.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity for ATA to offer its views and policies on EOBRs and driver 
fatigue. We look forward to working with this Subcommittee, the 
Congress, FMCSA, and other reasoned stakeholders to improve the safety 
and productivity of our Nation's highway transportation system.
                              Attachment A
    The Federal Motor Carrier Safety Administration (FMCSA) in its 2005 
report ``Factors in Decisions to Make, Purchase, and Use On-board 
Safety Technologies'' identified several recommendations and 
conclusions in regards to advancing adoption of safety technologies for 
commercial motor vehicles.\1\ This guidance was offered by motor 
carriers, original equipment manufacturers (OEMs), product vendors, 
drivers, and insurance companies. Some of the key decision points for 
promoting the use of such equipment were determined to be:
---------------------------------------------------------------------------
    \1\ ``Factors in Decisions to Make, Purchase, and Use On-board 
Safety Technologies'', Federal Motor Carrier Safety Administration, 
December 2005. webpage at: http://www.fmcsa.dot.gov
/facts-research/research-technology/report/factors-in-decisions.htm.

  <bullet> ``Return on Investment (ROI) for Purchaser (the carrier) is 
        considered an important factor for sustained commercial success 
        for on-board safety technologies. A positive ROI is a 
        significant factor when carriers decide to purchase on-board 
        safety technologies according to most of the carriers 
---------------------------------------------------------------------------
        interviewed.''

  <bullet> ``Demonstrated Effectiveness to Improve Safety through the 
        use of on-board safety systems essentially represents the 
        benefits that offset the purchase and other costs to yield a 
        positive ROI. This factor is important to all stakeholders 
        surveyed.''

  <bullet> ``Reliability and Maintainability is also a significant 
        factor (mentioned in a number of interviews) and is considered 
        important to buyers (carriers) and manufacturers (OEMs and 
        vendors). On-board safety technologies must be easy to use, 
        provide accurate results, be consistently reliable, and be easy 
        to maintain. Any inconsistencies or high maintenance 
        requirements will discourage purchase by carriers.''

  <bullet> ``Liability is a potential concern to a number of 
        stakeholders interviewed, especially when combined with the 
        discoverable nature of the data stored by some on-board safety 
        technologies. While the absence of liability concerns is not 
        sufficient to drive deployment, the presence of other concerns 
        in this area could impede deployment, therefore making it a 
        significant factor as well. Liability concerns are an important 
        factor to carriers, drivers, and manufacturers interviewed.''

  <bullet> ``Initial Cost is an important adjunct to ROI. Too high a 
        purchase cost not only makes it difficult for the purchaser to 
        believe there is a positive ROI but also may strain the ability 
        of the purchaser to raise the needed capital for the purchase. 
        The carriers interviewed indicated that affordability and 
        payback influence the decision to purchase the new 
        technology.''

  <bullet> ``Investment Required for Research and Development of New 
        Technology, such as on-board safety technologies for OEMs and 
        vendors, is fundamental to their business plan. The combination 
        of investment needed, expected sales volume, purchase cost, and 
        cost of production make up the potential profitability for the 
        vendor.''

  <bullet> ``Market Image is a factor, at least in initial deployment 
        of on-board safety technologies. As the market matures, 
        leveling the competitive playing field, this may become less 
        significant as a decision factor. Carriers compete for 
        customers. Their image or reputation in the business is 
        important to them. Running a state-of-the-art fleet that 
        operates safely and efficiently is important to carriers' 
        marketing programs. Crashes cause delays, additional costs, and 
        damaged cargos.''

  <bullet> ``Driver Acceptance is considered important by a number of 
        carriers. Drivers were receptive to on-board safety 
        technologies, as long as the devices are proven effective in 
        improving safety, are user friendly, and that the recorded data 
        will not be used to violate their privacy.''

  <bullet> ``In-Cab Technology Interface Integration is an important 
        factor to a number of the stakeholders interviewed. This factor 
        plays a key role in enabling the various stakeholders to 
        realize the value of on-board safety technologies with minimum 
        cost, distraction, and potential for errors.''

    The 2006 release ``Synthesis of Commercial Motor Vehicle Technology 
Surveys: What Has Been Learned,'' \2\ reported that:

    \2\ Virginia Dick, Daniel Murray and Amy Houser, ``Synthesis of 
Commercial Motor Vehicle Safety Technology Surveys'', Transportation 
Research Record: Journal of the Transportation Research Board No. 1969, 
Transportation Research Board of the National Academies, Washington, DC 
2006, pp 107-144.
---------------------------------------------------------------------------
        ``Safety technology systems such as lane departure warning, 
        forward radar, collision warning, adaptive cruise control, 
        rollover and stability control, and many others are being 
        investigated and promoted by FMCSA. In an effort to address 
        three primary crash types (rear-end collisions, road 
        departures, and lane change and merge collisions), FMCSA and 
        other agencies within the U.S. Department of Transportation are 
        working toward integration of collision avoidance systems for 
        large trucks.''

    This study documented and synthesized the major qualitative survey 
efforts within the U.S. relating to stakeholder design, use and 
perspectives of on-board safety technologies. An underlying finding of 
this study was:

        ``Determination of ROI and a need for increased safety were the 
        two biggest factors associated with decisions to purchase 
        safety technologies according to two protocols. When assessing 
        the technology to determine its value and effectiveness once 
        installed, tangible safety benefits and ROI were again the two 
        most cited factors.''

    This report further found that the prime motivations for 
installations of safety technology among the motor carriers were--
reduce accidents (68 percent), lower insurance rates (52 percent), 
assist drivers (40 percent), and lower maintenance costs (40 percent).
    When motor carriers were asked ``what FMCSA could do to encourage 
the development and deployment of these technologies,'' participants 
responded:

  <bullet> ``Offer tax incentives for the expense of the equipment.''

  <bullet> ``Make technology more affordable.''

  <bullet> ``Avoid mandates.''

  <bullet> ``Encourage public-private partnerships.''

    A 2006 study by the American Transportation Research Institute 
(ATRI) entitled ``Electronic On-Board Recorder Adoption in the Trucking 
Industry: Issues and Opportunities'' \3\ found crucial indicators about 
EOBR deployment including:
---------------------------------------------------------------------------
    \3\ ``Electronic On-Board Recorder Adoption in the Trucking 
Industry: Issues and Opportunities'', American Transportation Research 
Institute, September 2006.

  <bullet> ``. . . there is still a considerable dearth of research and 
        data scientifically linking the various components of the EOBR-
        to-safety continuum. Ultimately, these research gaps form the 
---------------------------------------------------------------------------
        underlying basis for most industry concerns.''

  <bullet> ``. . . numerous participants and respondents cited the need 
        for further documentation and justification of the relationship 
        between EOBRs and safety. As such, there is a significant need 
        for, and interest in, research that scientifically documents 
        the linear relationship between EOBRs, compliance, fatigue, and 
        safety.''

  <bullet> ``The study authors determined that EOBR benefits were 
        equally difficult to assess . . .'' This is likely due to the 
        lack of empirical data correlating the use of EOBRs with 
        reduced driver fatigue, which is a primary basis for IIHS and 
        other advocacy groups to advocate for the technology mandate. 
        (Editor's Note: IIHS is the Insurance Institute for Highway 
        Safety)

  <bullet> ``EOBR usage is typically rationalized as a compliance tool 
        by both users and nonusers, rather than a safety management 
        system.''

  <bullet> ``Ultimately, what is needed is a large-scale study that 
        causally (correlationally at minimum) links the relationship of 
        fatigue to safety, and the successful management thereof by HOS 
        regulations.''

  <bullet> ``Cost, privacy, and the lack of safety nexus are the 
        primary barriers to industry support of EOBR usage and 
        mandates.''
                              Attachment B
ATA Policy on Electronic on Board Recorders (EOBRS) Adopted October 
        2005
    1. There should be sound, consensus-based evidence that EOBR use 
leads to enhanced fleet safety performance by such means as accident 
rate reduction and improved compliance, therefore, increasing the 
credibility of EOBR systems as a cost-effective technology for motor 
carriers.
    Explanation: An EOBR mandate should be based on widely accepted 
substantiation that the devices and their support systems result in 
safety, cost and management advantages for carrier rather than be a 
consequence of political decisionmaking.
    FMCSA should produce persuasive evidence that EOBR use will reduce 
fatigue-related accidents and thereby improve truck safety. It should 
not be presumed that there is a correlation between electronic 
recording and accident reduction. It must be documented. A belief that 
use of these recorders will improve compliance does not substantiate a 
conclusion of accident mitigation. The agency will need to provide 
research and data that shows that improved driver compliance, leads to 
safer performance and a decrease in accident occurrence.
    2. EOBR systems should be based on the minimal, functional and 
performance specifications necessary to accurately record and report 
HOS compliance and assure reliability and utility of operation.
    Explanation: Design and operational requirements and their 
recording, reporting and communication systems should be the basic 
elements that are needed to dependably replace manual logbooks.
    What the industry needs are uniform, minimum performance criteria 
for EOBR devices and systems, which provides for flexibility in the 
design and delivery to the market. If EOBRs are to be further utilized, 
the emphasis should be on performance criteria rather than design 
specifications. Additionally, there needs to be specific criteria for 
what data should be collected and stored in an EOBR. It would be in the 
best interest of motor carriers, FMCSA, and enforcement personnel to 
define the minimum records of duty status (RODS) format and support 
system. This would help to remove all ambiguity between the different 
manufacturers and service providers, increase the basic utility of 
EOBRs for trucking companies, and improve the efficiency of the 
auditing process. Without consistent and recognizable guidelines for 
EOBR devices and systems, questions related to utility, reliability, 
tamper-resistance, accuracy, durability, and effectiveness will be 
raised.
    3. Statutory protections should be afforded to motor carriers 
pertaining to the control and ownership of generated data and to assure 
the privacy rights of drivers.
    Explanation: Federal policy should support and clarify that motor 
carriers are the owners of, and have exclusive control over the data.
    Government policy needs to support data privacy. Without certain 
protections afforded to motor carriers, the shadow of external access 
could serve as a disincentive to motor carrier investment. In the case 
of EOBRs, there needs to be statutory protections for the control, 
ownership, admissibility, and discovery of generated data. To help 
minimize concerns and central to greater acceptance, the motor carrier 
must be recognized as the entity that has sole ownership of the EOBR 
data. To comply with and enforce the HOS rules, those granted access to 
this data should be a very limited list composed only of the motor 
carrier and the agents it designates, FMCSA officials, authorized state 
enforcement personnel, and, possibly, representatives of the National 
Transportation Safety Board for the purposes of post-incident 
investigations.
    4. Drivers shall be responsible for operating the EOBR in full 
compliance with all applicable regulations.
    Explanation: Recordings are for verification of drivers' HOS 
compliance. Drivers make these entries and should, therefore, be held 
responsible for the accuracy of the entries they make. Drivers are in 
the driver seat and must comply with the HOS requirements.
    Drivers currently complete the manual record of duty status or logs 
for HOS compliance. Therefore, drivers must therefore be held 
responsible for correctly making entries into electronic on-board 
logging systems.
    5. Any EOBR regulation must address the operational diversity of 
the trucking industry, continue existing exceptions to the record of 
duty status, and consider additional exemptions that balance compliance 
and the evolving industry diversity.
    Explanation: If there is sufficient justification to exempt 
operational portions of the industry and HOS compliance can be pre-
determined (e.g., Less-than-Truckload (LTL), terminal to terminal 
routes), such operations should not be mandated to use EOBRs. Other 
exceptions currently granted by FMCSA from logbooks should be 
continued.
    There are industry segments and types of operations that have 
expressed more concern than others regarding a potential, future 
requirement for EOBR use. Some ATA members that operate in the LTL 
segment fall into this category. LTL carriers typically operate with a 
hub and spoke system using pickup and delivery drivers in a local area 
(i.e., they are typically 100 air-mile radius drivers), and in line-
haul operations with drivers moving freight over a longer distance 
between company terminals. LTL line-haul drivers operate in a tightly 
controlled, closely supervised manner between terminals. In most cases 
the terminals of LTL carriers are strategically located to not only 
service customers, but to ensure that the regularly scheduled movements 
of freight are made in compliance with the HOS rules. Some of these LTL 
carriers see little or no compliance and safety performance benefit, of 
imposing a more complex HOS recording system. Also, it is believed that 
drivers and operations that are not currently subject to the logbook 
requirements should be treated similarly in regards to EOBR usage. 
These include 100 air-mile radius drivers, drivers in the state of 
Hawaii, and certain drivers in agricultural operations.
    6. Motor carriers using compliant EOBRs should be relieved of the 
burden of retaining supporting documents for HOS compliance and 
enforcement purposes.
    Explanation: If a compliant EOBR system is used, HOS supporting 
documents should no longer be required. This should reduce compliance 
costs and serve as a strong incentive for carriers to adopt such 
systems.
    There has been a series of rulemaking by FMCSA on what records are 
needed to verify the recordings made by drivers on HOS logs. The most 
recent being a Supplemental Notice of Proposed Rulemaking in November 
3, 2004. There is significant driver and motor carrier commitment in 
keeping the verifications. ATA estimates that the total annual 
requirement for industry to implement the proposed November 2004 rule 
would be about 258 million driver and motor carrier paperwork manhours. 
The potential overall costs could be over $5 billion annually. If FMCSA 
provides allowances in the electronic generation and storage of data 
through the use of EOBRS, there could be substantial savings in 
operational time and expenses.
    7. Any EOBR mandate, if instituted, should be made simultaneously 
applicable to all vehicles of the affected population of motor 
carriers, it should avoid any implementation inequities identified, and 
take measures to eliminate them.
    Explanation: If EOBR adoption is required, it should be on all 
carriers large and small within the regulated industry segment at the 
same time. (The regulated segment may include exemptions for a part of 
the industry such as proposed in ATA provision #5.)
    Many ATA members have communicated that any proposed future EOBR 
requirement should not treat large and small motor carriers 
differently. To propose a requirement where only trucking companies of 
a certain size must implement EOBR systems will permit these exempted 
carriers to operate at an economic advantage and therefore permit them 
to provide service at a lower cost. The same is true if a future 
proposal suggests that large motor carriers would have to implement 
EOBRs on a more accelerated timeline than small motor carriers. Small 
and large motor carriers should receive the same consideration in any 
future rulemaking proposal.
    8. Any EOBR regulation that takes an incentive-based approach 
should allow for reasonable and defensible flexibility in the HOS rules 
for drivers and motor carriers.
    Explanation: A rule encouraging the use of EOBRs should be based on 
adaptable HOS regulations.
    An example of one aspect where of flexibility in the HOS rules 
could serve to be an incentive is in regards to the sleeper berth 
exemption. ATA members have stated difficulty in complying with the 
2005 changes in regards to this provision, particularly, associated 
with team drivers. ``Sleeper-berth'' flexibility, if EOBRs were used, 
could serve as an added incentive, particularly, for truckload 
carriers.
    9. Tax incentives should be pursued as a means to facilitate 
adoption of EOBR systems.
    Explanation: There should be tax incentives (e.g., credits) in 
Federal legislation to encourage carrier investment in EOBRs and to 
off-set the cost of purchasing EOBR devices and associated support 
systems.
    Tax credits would serve to encourage motor carriers to invest in 
EOBR systems.
                              Attachment C
Costs Associated with Implementation of EOBRs \4\
---------------------------------------------------------------------------
    \4\ Costs were identified by ATA's membership and included in 
written submissions to FMCSA in response to the Advanced Notice of 
Proposed Rulemaking on Electronic On-Board Recorders for Hours-of-
Service Compliance, Docket No. FMCSA-2004-18940, American Trucking 
Associations, Inc., November 30, 2004 and Notice of Proposed Rulemaking 
on Electronic On-Board Recorders for Hours-of-Service Compliance, 
Docket No. FMCSA2004-18940, American Trucking Associations, Inc., April 
18, 2007.

  <bullet> Airtime for transmission of data and retrieval of records 
---------------------------------------------------------------------------
        (or data cartridge extraction and transfer).

  <bullet> Technical demands that EOBR usage places on drivers.

  <bullet> Training program development.

  <bullet> Driver training in EOBR usage.

  <bullet> Training for manual HOS log entry in the event of EOBR 
        malfunction.

  <bullet> Back office manpower and training in EOBR system usage.

  <bullet> Training of field enforcement officers in relative aspects 
        of EOBR device(s) and system(s).

  <bullet> Computer capabilities and redundancy.

  <bullet> External report generation.

  <bullet> Inspection, maintenance and repairs and required 
        recordkeeping.

  <bullet> Calibration of devices.

  <bullet> Potential truck downtime.

  <bullet> Future hardware and software upgrades and future 
        replacements.

  <bullet> Costs for some fleets of moving from existing systems to new 
        systems meeting the requirement (i.e., stranded investments).

                              Attachment D
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Lautenberg. Thank you very much.
    Mr. Olson, we'd be pleased to hear from you.

              STATEMENT OF RICHARD G. OLSON, CEO, 
                     FIL-MOR EXPRESS, INC.

    Mr. Olson. Thank you. My name is Richard Olson. I own FIL-
MOR Express, in Cannon Falls, Minnesota.
    We've got--our good Senator from Minnesota here--we have 
174 tractors and 234 drivers. We voluntarily installed a 
logging system in our trucks. We studied the system, starting 
back in July of 2005. We bought--the first company that we 
investigated, we bought their system, and ran it for about 5 
months, and my colleague Michelle, who is very astute at the IT 
side of this business, researched all of the vendors that we 
could find, and we saw many of them going wanting.
    We discovered a small company in Salt Lake City. The name 
is DriverTech, which is not a household word for anybody in 
this room, I don't think. We'll show you some things that, I 
think, could halfway amaze you. We voluntarily put these in our 
trucks. We started them about a year and a half ago. We ran 
them with dual logs, with paper logs and with the device that 
we're currently operating. January 1 of this year, we went 
full-blown with all of our trucks, and we're 100 percent active 
with the--I call them paperless logs, electronic logs. And our 
results have been outstanding.
    And what we've seen, in all of the carriers that we've 
talked to, big and small, that calls her on a regular basis and 
say, ``How do you do that?'' And she tells them. Or they want 
to know how we can get the kind of success that we've had.
    In the last 2 weeks, we've had zero violations with all of 
our trucks. We've had 26 violations, total, since the first of 
the year; many of those, for a minute and 22 seconds, 4 
minutes, 2 minutes and 16 seconds. You can't draw a line on a 
paper log today to reflect that kind of a difference.
    Having said that, we'll show you how we do it.
    By the way, we have a electronic presentation that we've 
been doing with the state patrols around the country and with 
the local DOT representatives, and Michelle will do a second 
presentation with the Minnesota State Patrol on May 9th to do 
an in-service with all the State Troopers.
    They're enthused with what they see. They are impressed 
with the accuracy. And the accuracy is there, and it comes from 
what you see in front of you. We've got a computer--the same 
kind of a computer that you may have on your office desk today 
to start with, it's Windows XP, 400 gigabytes on the hard 
drive, 256 of RAM, 1 gigahertz processor, and there are 15 
ports. And we'll show you exactly what the device looks like.
    But in our presentation with the state patrols and the 
DOT--our regulators, that we're dealing with, when we show them 
what this will do, they see this kind of a device--the three 
ports that you see on that picture, run three cameras. And we 
do. We can shine a camera down the right side of the truck in 
the so-called blind spot that everybody deals with. I have a 
major beer customer that told us that we were having trouble 
with shifting loads, and we loaded our little camera in the 
front end, closed the doors. It was infrared technology. 
There's a little thing called a ``graph,'' that measured the 
shake of the trailer forward, back, up and down, and then we 
coordinated it with this, and pinged the truck every 3 minutes, 
so we knew exactly when that load shifted, or didn't. We knew 
the exact location. And this technology, as Dr. McCartt said 
earlier, this is a day in the United States that we've got this 
kind of technology, whether it's iPods or whatever, and we're 
carrying this around in our truck. I'll show you, in a few 
minutes, it's not expensive.
    Senator Lautenberg. How much?
    [Laughter.]
    Mr. Olson. I'll show you, in just a moment. I'm sorry, 
Senator. I've got a chart that shows how we arrive at that.
    In addition to the cameras, we can run ports that measure 
the pressure and temperature of the tires going down the road 
at each wheel position. This is better than iPods, by the way. 
The rubber that you see on the road, you have lower inflation 
in the tires, you have poorer fuel economy, you possibly can 
prevent an accident, you can clearly stop the tire from going 
flat on the road. That data, when it reads on the screen with 
the driver, gets transmitted into our dispatch office and to 
our shop, and technically we could see the truck pull into a 
filling station or a truckstop and we could see the inflation 
on that tire going up. This is what we can do today.
    Everybody knows what Wal-Mart is doing with devices that 
measure inventory, RFID. We've got this tag, that's now being 
installed--we've got 20 of them that are on the truck. We've 
done the programming, and we've got the antenna coming out of 
our box that you saw earlier. And this will have the trailer 
number loaded on this RFID in the front of the trailer It will 
download the data, the trailer number, to the driver's log, 
which is required; it'll download into dispatch and show which 
trailer the driver has. If he was told to pick up trailer 
number 4000, and he backs into trailer number 5000, it says, 
``You've got the wrong trailer.'' Now, I've told this story to 
many of our friends in the trucking industry that are trying to 
see how this thing works, and I say, ``There isn't anybody in 
the industry who hasn't shipped a trailer to New York when it's 
supposed to be in Los Angeles.'' And everybody laughs. And 
the--one large company said, ``Yes, and the one in New York is 
empty.'' I mean, the reason it's funny is, it happens. And here 
is the technology, right here, that can help prevent those kind 
of things.
    This--go ahead----
    Senator Lautenberg. Thank you. Can you wrap up with that 
next poster?
    Mr. Olson. Wow. Yes. We can also do seatbelt monitoring.
    Did I go over the 5 minutes already? I'm sorry, I wasn't--
--
    Senator Lautenberg. Well, time flies when you're having 
fun.
    Mr. Olson. Yes. Yes, it does.
    [Laughter.]
    Mr. Olson. We've got a potential of doing seatbelt 
monitoring. The Federal law says that a truck driver has to be 
wearing a seatbelt. The officers that we talk with on a regular 
basis say the seatbelt monitor--or the seatbelt use is a big 
factor in safety. If we can't convince the driver that he--
after he gets the sensor, we could put a camera on him. Now, we 
don't want to do that. But we've got the ability to do and see 
those kinds of things.
    First of all, we're very happy with what's going on with 
this. We think this is important, because we don't think 
anybody in this room has seen this kind of technology out 
there. We took the position, when we put this together with 
DriverTech--and I heard people talk about that, earlier, in 
this room today--that the issue was, how do you stop a 
violation from happening? And that's exactly what we built into 
our system. Everybody that came to us says, ``We'll give you a 
list of your violations the next day.'' I don't want a list of 
violations, I want the help built into this system that tells 
the driver that he's got to stop in an hour, he's got to stop 
in 30 minutes. If he logs in too early on his 10 hour rest, it 
tells him, ``Don't log in. Don't start the truck,'' et cetera, 
et cetera. So, we've started with that kind of a premise.
    [The prepared statement of Mr. Olson follows:]

   Prepared Statement of Richard G. Olson, CEO, FIL-MOR Express, Inc.
    This is FIL-MOR Express Inc.'s follow up statement from the May 1, 
2007 Hearing on Electronic On-Board Recorders and Truck Driver Fatigue. 
Because of the relatively short presentation, the Committee suggested I 
finish my testimony with written comments.
    FIL-MOR Express is a voluntary user of EOBR's for our entire fleet 
since January 2007. Our experience developing our current system since 
July 2005 has shown us that there is a great deal of misunderstanding 
by many parties including regulators, motor carriers both big and 
small, enforcement and perhaps legislators.
    Our experience developing our plan for the recorders has brought us 
in contact with the various groups listed above, and our testimony 
hopefully will shed some light on this very important safety subject.
    There are four general areas I will speak to:

        a. mandatory policy

        b. incentives

        c. substantial and reliable devices

        d. statutory protection of data

    The current proposal relies on a voluntary implementation coupled 
with vigorous enforcement for a limited population with enforcement 
issues. This direction is penalty driven for a small group of carriers 
with no incentives for large scale participation. Presented as a 
mandate more electronic manufacturers would participate, leading to 
greater quality and technical equipment at a lower cost.
    Clearly one of the major misunderstandings by all is the cost or 
return of these devices for the carrier. Our experience has shown costs 
reductions in transmission costs alone of $11,000.00 per month. In 
addition we've eliminated one position for a total of $182,000 per year 
or an 18 month payback for those two cost areas. The precise data we 
now have has allowed us to reconfigure our routes and relay locations 
to more than pay for our recorders in the first year.
    With an incentive program for tax relief in the form of tax credits 
or accelerated depreciation coupled with true incentives such 
electronic matching of documents would help carriers bridge the 
original investment gap. We did this on our own voluntarily. It was one 
of the best decisions we've made! Clearly others would move more 
quickly if mandated and incentives drove the proposal.
    An additional misunderstanding and incentive is the accuracy and 
control of the EBOR--that's good news! However, any voluntary user is 
at a distinct disadvantage to the paper log user. The first 4\1/2\ 
months of 2007 FIL-MOR had 32 violations for all drivers. Sixty percent 
were under 5 minutes. None of these violations would have shown up with 
a paper log.
    Interruptions during the 10 hour reset to move a trailer at a 
customer, truckstop, or rest area is recorded electronically, but not 
on paper. Fuel stops with paper are averaged at 15 minutes. Spotting a 
trailer at a customer, or multiple deliveries in one city get logged 
differently today. Carriers need a variance of some type to provide for 
these experiences. We end up majoring in minors and lose site of the 
overall benefits of the EOBR.
    Further discussion and comments between carriers and regulators 
need development as we learn from the accuracy of these devices as 
compared to paper logs.
    Another major misunderstanding is the adequacy of existing 
technology. We researched the available equipment in the market and 
found the specifications of 395.16 could not be met. However, through 
our due diligence we found DriverTech in Salt Lake City with the basic 
technology and skills to program 395.15 and 395.16. This equipment is 
substantial and I'm confident it will meet the requirements of the 
current proposal. On the other hand there are a number of devices on 
the market that do not perform in an adequate way.
    The final rules must spell out specific performance specifications 
for the EOBR.
    Finally a mandated proposal must provide statutory protection of 
the data. A mandated proposal coupled with incentives and data 
protection will alleviate the majority of carrier concerns and take 
advantage of this huge safety opportunity!
    FIL-MOR Express has been working with a small coalition of carriers 
that share our views on highway safety. In each instance these carriers 
are far more advanced than our company on this subject. They have 
agreed to share their views with you through this statement. This small 
group represents a substantial number of tractors and drivers, and 
shows the deep interest shared by motor carrier fleets for the broad 
support of the EOBR.
                              Attachment A
                                      FIL-MOR Express, Inc.
                                                  Cannon Falls, MN.
Hon. John Hill,
Administrator,
Federal Motor Carrier Safety Administration,
Washington, DC.

    Docket No. FMCSA-2004-18940; Electronic On-Board Recorders for 
          Hours-of-Service Compliance; Proposed Rule--RIN-2126-AA89

Dear Mr. Hill:

    My name is Richard Olson, I am CEO of Fil-Mor Express, Cannon 
Falls, Minnesota. We operate 174 tractors, 550 trailers, with 234 
drivers. We've been in business about 25 years. July 2005, we 
researched the market and looked at the major players offering EOBRs 
and did not find anyone immediately that met Federal requirements.
    In January 2006, we learned of a company that was in the 
development stage with adequate controls and the precision to meet our 
requirements. We learned we had to work closely with them since they 
were an electronic company and did not understand fully all of the 
hours-of-service requirements. We purchased their system in April of 
2006 and worked closely with their programming and mechanical people 
through October of 2006 when we installed 174 units in all of our 
trucks. A substantial portion of the programming was completed. In 
January 2007, after running a dual operation of paper logs and 
electronic logs, we went ``paperless'' with the system on January 1, 
2007. This was one of the best decisions our company has made.
    The cost to own and operate this EOBR is outstanding with a payback 
of about 12 months as currently configured. Added operational and 
monitoring systems such as tire pressure and temperature monitoring by 
each wheel position is now in test. The cost of safety benefits has not 
yet been determined but we're expecting fuel and tire cost improvements 
as well as safety improvements. The technology to monitor seat belt 
compliance is a sensor and program away. One person buckled in and 
saved is worth it, just ask any law enforcement officer.
    Here are our comments regarding the NPRM Mandatory Compliance:

    1. All EOBRs should be mandatory for all carriers regardless of 
size. The present positioning of the rule targets a limited number of 
vehicles which will have a minimum impact on safety and no real 
incentives for voluntary participation. We voluntary participated with 
no second thoughts. Positioned properly, this is a very large idea to 
bring together a safety coalition of motor carrier industry 
participants and Washington safety proponents. This would be a strong 
and unusual coalition with congressional backing.

    2. Equipment Specifications--FMCSA approved EOBRs should be 
substantial with total accuracy, tamper proof, and tethered. 
Specifications should also be mandated by FMCSA.

    3. Mileage Exemptions--Docket No. FMCSA-2003-15818 provides an 
exemption renewal for a 2 mile exemption. ``The FMCSA believes that 
with the terms and conditions in place, ____ will maintain a level of 
safety that is equivalent to or greater than, the level of safety that 
would be obtained by complying with the requirements for written 
RODS''.

    4. We concur with the mileage exemption! Our operating experience 
with the EOBR has given us insight into the total accuracy of a solidly 
designed and built recorder. Here's what we've experienced:

        A. The miles are recorded from the ABS system which flows 
        through the engine ECM. When the wheels turn, driving is 
        recorded. It's tamper proof with no way for a driver to change 
        it. It works!

        B. A fuel stop moves to On Duty, Not Driving and actual fuel 
        time is recorded--not the 15 minutes paper log entries show. It 
        may be 6 minutes, 8 minutes, or 12 minutes.

        C. If a driver is parked at a shipper or receiver on a 10 hour 
        break, and the customer asks the driver at anytime to back the 
        vehicle into the dock, the movement is detected, miles are 
        recorded, and the driver with an accurate EOBR is in violation 
        while a driver with a paper log at the next dock door backs in 
        and logs nothing. This is a competitive disadvantage for a 
        voluntary EOBR user. It happens!

        D. The same situation develops at truck stops or rest areas if 
        the driver is asked or told to move. Is our driver less safe?

        E. When a driver enters a receiver's yard and must move 3 or 4 
        limited times to position a trailer in a lot or at a door, the 
        grid becomes a 1/8" thick line on the recorder and the miles 
        are recorded on the EOBR. Who knows what the paper logs show?

    0The point is the EOBR is so accurate as compared to the paper log 
that the EOBR user is at a competitive disadvantage to a paper log 
where in fact an exemption should be provided so as an incentive for 
voluntary use. We feel strongly that a 1 percent total driving mileage 
exemption should apply. As an example, a 550 mile driving day with the 
exemption would be 5.5 miles which would equalize paper log 
differentials and serve as an incentive.
    Other incentives should include accelerated deprecation or tax 
credits for further encouragement of use. I recognize the IRS would 
have to be involved with those types of incentives but the dialogue 
should begin.
    I read over 500 comments to the NPRM and the various studies in 
your preamble. After operating our outstanding EOBR with the results 
I've seen, I'm convinced there is a lack of factual understanding of 
cost, opportunities, and accuracy of a well developed EOBR. It's the 
best decision we've made and I encourage you to move this enormous 
opportunity ahead for better safety.
            Sincerely,

                                          Richard G. Olson,
                                                               CEO.

    Senator Lautenberg. Well, your testimony is compelling, and 
I wish we had more time. Unfortunately, it would be unfair to 
the others and to my colleague Senator Klobuchar, who we're 
very proud of. She's a new member of the U.S. Senate. Also, 
like you, Mr. Olson, she has lifted the spirits of the 
environment that she's in, and we're pleased to see her here, 
and would turn the program over to you.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman 
and all of you. Welcome to the Committee.
    I'm going to preside over the Senate, which is always an 
honor, and so, I'm not going to be able to ask questions here. 
But I just wanted to thank all of you for coming.
    And I wanted to thank you, Mr. Olson. You would be glad to 
know that another Minnesotan, Garrison Keillor, was here today, 
and, as you talked, I thought of his words, ``Minnesota, where 
the women are strong, the men are good looking, and all the 
children are above average.'' You are clearly above average, 
Mr. Olson, and I want to thank you for the good work that 
you're doing.
    Sadly, I was reading about the case, this morning, on the 
computer, out in Minnesota, where the truck driver's truck had 
overturned and hit a bus containing members of the Chippewa 
band in Wisconsin, five of them were killed. The case went to 
trial. He was acquitted. I don't know the details of the case 
or what was right or wrong, but I know one of the allegations 
was that he may have been tired. And I wanted to thank you for 
being so proactive. And certainly, there must be a way to take 
the work that you've done here and to look at how we can bring 
these kind of safety measures throughout the industry.
    And I will tell you, also, there have been some small-
business truckers that have called our office, concerned. And I 
guess my opening question I'd ask of the panel before I have to 
leave here is how you think that we could fashion this in a way 
that would take account for the concerns of some of the small 
business truckers. Any thoughts on that?
    Mr. Gabbard. I would suggest that a minimally compliant 
device that's been suggested in our notice of proposed 
rulemaking comments and--is a way to address this. For a 
trucker, a dollar spent has to be a dollar of income in the 
truck, so they're very cost-conscious about investing in their 
livelihood. And if you could put a cost-effective, minimally 
compliant hours-of-service recording device in their truck, it 
reduces the time that it takes to fill out the paper log 
document. His time can be better spent driving the vehicle 
rather than filling out a paper log. So, it's a cost-effective 
alternative.
    And if the rule is properly deployed, it also will 
potentially eliminate the supporting documents, which is a big 
cost of doing business for a trucker.
    Senator Klobuchar. And then, Mr. Olson, how much did you 
say this costs per truck?
    Mr. Olson. It was around a quarter of a million dollars, 
the original purchase. It's--we started it in the first of 
January of this year--it's completely paid for itself.
    Senator Klobuchar. And how has it paid for itself?
    Mr. Olson. Pardon me?
    Senator Klobuchar. How has it paid for itself?
    Mr. Olson. Yes.
    Senator Klobuchar. How has it paid----
    Mr. Olson. The--first of all, the transmission time in the 
system that we had before was a satellite transmission, and the 
DriverTech--my cost per month went from $14,500 a month to 
$3,500. Big amount of money. It saved one labor position, 
because somebody wasn't sorting through paper logs all day 
long. And the analysis that we can now do as to what our routes 
look like, I--it was a large amount of money, I'll put it that 
way. It was greater than we spent--and this just happened in 
the last 10 days.
    Senator Klobuchar. Thank you very much.
    Mr. Reiser. Senator, if I could address your first 
question, there, that you asked of the panel, just briefly, I 
think one thing that would help in getting the small truckers 
interested in the technology and using it is if they were--if 
they could see, and were convinced, that there is a true safety 
benefit, in terms of accident reduction from using the 
technology. I think there's a great deal of apprehension and 
skepticism that rigid adherence to the hours-of-service will 
result in reduced accidents on the highway. And I think if they 
were convinced of that, they would be much more willing to move 
towards that technology.
    Senator Klobuchar. Thank you very much.
    Senator Lautenberg. Thanks, Senator Klobuchar, for being 
with us. Mr. Olson, we appreciate your views considering you 
have a relatively small company but, in terms of equipment, et 
cetera, it's a pretty good-sized operation. And we admire the 
fact that you got into this thing with so much gusto, if I can 
call it that. And the results that you talk about are very 
comforting.
    Now, compared to Mr. Reiser's company experience, in which 
I'd say, Mr. Reiser, if I understood your testimony correctly, 
you were not very excited about the results obtained. Am I 
correct in that assessment?
    Mr. Reiser. No----
    Senator Lautenberg. Because I didn't hear you say--I 
thought you said very little by way of safety evidence, very 
little by--very little advantage here, there, and everywhere. 
And I wonder what the difference is.
    Mr. Reiser. Senator, that--actually, my comment was limited 
to seeing a direct result in accident reduction as a result of 
using the technology. We have achieved a--an excellent driver 
out-of-service number. Our number, on a percentage basis, runs 
about 1.5 percent. The national average is 6.8 percent. So, in 
terms of compliance, which is, you know, a significant factor 
to our business, we are very compliant with the hours-of-
service rule. So, that's certainly a benefit to us. If we get a 
compliance review, our drivers are doing a good job. It's also, 
I think, a benefit to us that we are controlling the hours-of-
service from the standpoint of accident litigation. That's a 
positive for us, that we don't have the situation where some 
companies find themselves with a driver who is seriously over 
on the hours-driving time, at the time of the accident, because 
we're doing a better job--we're able to control that on the 
front end. So, we do see some benefits.
    But my--the distinction I guess I'm trying to make is we 
have not been able to say, ``Because we put this in, we are 
seeing a better accident rate than we were before.''
    Senator Lautenberg. So, essentially, you're saying that 
fatigue, et cetera, hours-of-service, as far as you can see, it 
doesn't improve safety records. So, should we discard all this 
and say, ``Look, it doesn't matter''? I mean, if compliance is 
your mission, that's a different goal than I would have 
imagined, because obeying the rules is usually good for your 
health and well-being.
    Mr. Olson, we learned a very sad lesson in the State of New 
Jersey a couple of weeks ago, when my dear friend, and our 
Governor, was in a very serious accident, and he wasn't wearing 
his seatbelt and was seriously injured as a result. So, we put 
the two together, anyway and----
    So, Dr. McCartt, what do you think of the little dialogue 
that we just had here?
    Dr. McCartt. Well, I think one--first of all, I would say 
that----
    Senator Lautenberg. Push your button, please.
    Dr. McCartt. First of all, I would agree with comments 
several people have made. It's very difficult to determine 
whether or not a particular crash involved fatigue. And I think 
a problem with looking at on-board recorders and seeing a 
difference in crashes is that, as you've heard today, the 
carriers who are using these devices tend to have good safety 
records already. And so, you know, it's--if they're already 
obeying the rules, and already have low crash rates, then it 
may be the case that on-board recorders won't make a 
significant difference.
    But I guess the other thing I would say is that the purpose 
of on-board recorders is to have people follow the work rules. 
And it's the Institute's belief, and many others' belief that 
the work rules already allow very arduous schedules. And we can 
argue about the percentage of crashes due to fatigue, but I 
don't think there's any debate about the fact that fatigue in 
truck crashes is a significant factor. And so, we've developed 
these work rules to try to address fatigue. And the purpose of 
recorders, again, is to achieve compliance with that. So, I 
don't think the burden of proof really should be that the 
recorders reduce crashes, per se, because we know there's 
fatigue, we know that the work rules already, even if they're 
followed legally, are very arduous.
    Senator Lautenberg. Mr. Gabbard, what do you think?
    Mr. Gabbard. I would like to add a comment that the system 
that Mr. Olson is talking about--and, I believe, the systems 
that Mr. Reiser is running in his fleet--are a somewhat more 
complicated and much more extensive system than a minimally 
compliant EOBR device would be. An hours-of-service recording 
device is intended to record time and distance and location. 
It's not dealing with some of the other functions that could be 
put into a fleet management system, because there is still a 
lot of confusion about a fleet management system and a 
minimally compliant electronic hours-of-service recording 
device. They're two different beasts.
    A minimally compliant device has to be--in order to be 
effective, it has to be standardized. The systems that we're 
talking about--and you can just--and Mr. Olson's system, which 
is quite extravagant and extensive in its functionality--is 
beyond what a minimally compliant hours-of-service recording 
device is perceived to be. I'm not saying that those benefits 
are not good, because they're outstanding. He's making a 
significant contribution to road safety and driver safety. But 
he's somewhat unique in that characteristic.
    But I would say there is a minimally compliant, simple 
device to replace paper logbooks and to get a tamperproof 
system in place to eliminate the paper logbooks that are 
sometimes referred to in the industry as comic books.
    Senator Lautenberg. I think that the most important thing 
with compliance is to improve safety, it's not simply to 
regulate behavior. It's to regulate behavior--for what reason? 
And the reason is to make the roads safer. And so, whether it's 
as elaborate a system as you suggest--that Mr. Olson says, or 
the one that's simpler, plainer, that you have, the fact is 
that whatever brings about compliance can't help but bring 
around improved safety, reduce risks for those on the highway. 
We're stunned when we hear about rear-ending a car, as we had 
in New Jersey, a little SUV, a woman and two children, and a 
truck came down the hill, the driver not paying attention, for 
whatever reason, just killed the three of them. These are such 
painful things to observe. And when you take these behemoths, 
these big trucks, 10,000 pounds and over, coming down and not 
being sure that the driver of the vehicle is in good shape a la 
hours of work, not extended beyond one's ability to think 
clearly--look at what happens with pilots. I mean, they don't 
want pilots up there, because they know that there is a fatigue 
factor that enters in with too much time spent at the stick, 
I'll say.
    And, in terms of tamperproof, I was just in a visit out-of-
state, and I was introduced to an operation that had 400 
employees. Now, before I came to the Senate, I ran a company; I 
was co-founder of a company called ADP, pretty big-sized 
company today, and our specialty was payroll. And I know that 
the company now processes payroll for some 35 million people 
every pay period. The figure's enormous. And what I saw at this 
company that I visited, they had a handprint for timecards. 
Very simple. Put it down, and nobody else could use that 
timecard. And it's readily available. This is a nice-sized 
company, but these are not people who are billionaires or 
whatever. And so, they bought these machines to make sure that 
the recording was easier. And if that can be so easily--an 
identifier for people, that there are things that you can do 
that would make these things fairly tamperproof.
    Dr. McCartt, does the insurance industry offer lower 
insurance rates or any other benefits to trucking companies 
that use the EOBR systems?
    Dr. McCartt. I can't really address that. Our Institute--I 
can't answer that question. The Institute does research, and 
disseminates the research. We're funded by insurers, but we're 
not involved in the business--their business----
    Senator Lautenberg. Anybody else have any commentary about 
that? Insurance rates? No?
    Mr. Gabbard, you would----
    Mr. Gabbard. I'm aware of a fleet in the United States that 
has reduced their insurance rates by installing a European 
version of this device, which has been referred to in this 
testimony as a tachograph. They have chosen to go self-insured, 
because their results from running the system has proven to be 
extremely beneficial, except for major liability insurance. 
They dropped a lot of their actuarial carrier insurance, so 
that particular fleet claims to be saving quite a few dollars 
in insurance rates, because he feels he's modified the behavior 
of this drivers.
    Senator Lautenberg. Yes. I think you said, earlier, that if 
the systems were used more universally in the United States, 
that the prices would come down substantially. Is that correct?
    Mr. Gabbard. Yes, our assumption is, if you create a broad 
market you can attract enough competitive electronic 
manufacturers, such as ourselves, to the marketplace, that the 
law of supply and demand will weigh in, and, therefore, the 
price of the device will go down with time. As long as the 
people are meeting the minimal design requirements and meeting 
the specifications of the regulation.
    Senator Lautenberg. What does the recorder that your 
company makes cost?
    Mr. Gabbard. Today, because the market does not exist in 
the United States, we are not producing a device nor selling a 
device, because the market, in theory, for a minimally 
compliant device really does not exist. There is a market for 
fleet management systems, and there are a lot of very competent 
suppliers that are supplying those to the industry.
    We would project, based upon some limited--based upon the 
understanding of what the rule is requiring today, which 
requires GPS for location, and requires wireless messaging 
capability. That we would be able to sell the device in the 
marketplace for $450.
    Senator Lautenberg. And the----
    Mr. Gabbard. That's what we would project----
    Senator Lautenberg. And the cost for wireless operational--
like that of a telephone or anything else is----
    Mr. Gabbard. Yes, that adds costs to the system. As we know 
with our telephone, the cost of buying the hardware is the 
beginning of your cost----
    Senator Lautenberg. Sure.
    Mr. Gabbard.--with any wireless tool, because you're going 
to pay your monthly fees----
    Senator Lautenberg. Yes.
    Mr. Gabbard.--to maintain that system on the airways.
    Senator Lautenberg. Yes. Well, once you buy the fishing 
pole, then the cost starts going up. If you----
    Mr. Gabbard. Unfortunately, that's true.
    Senator Lautenberg. The--Mr. Gabbard, many have said that 
that FMCA's analysis of costs and benefits of using electronic 
on-board recordings is flawed. Do you believe that their cost-
benefit analysis for these devices under this rule is accurate?
    Mr. Gabbard. I believe the--what they've chosen to use as 
their foundation is accurate data, but I do not feel that they 
have followed enough of the marketplace and really paid 
attention to the ATRI study, which was done about 2 years ago. 
This study did a good cross-section study of data, of potential 
devices that were available, and, therefore, they chose to use 
a higher price point for the function. That price point does 
exist in the marketplace for a fleet management system, but the 
price point that's used in that analysis is not a minimally 
compliant hours-of-service recording device. We are confusing 
two basic tools, a fleet management system and an hours-of-
service recording device, or, as this industry is referring to 
it, as an EOBR.
    Senator Lautenberg. I thank all of you for your testimony. 
You've been very helpful, to me anyway, and, I think, to the 
Subcommittee and to the Committee, in terms of focusing in on 
this problem, because the problem certainly exists, whether the 
system to put a check on it, to reduce these horrible accidents 
that do occur, when there are 5,000 of them in a year, that's 
far, far too many than what we should have to deal with. So, we 
thank you all.
    And, with that, this Subcommittee hearing is concluded.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Joe Rajkovacz, Member, Board of Directors, 
             Owner-Operator Independent Drivers Association
                           Executive Summary
EOBRs Are No Better Than Paper Logs for Ensuring Hours-of-Service (HOS) 
        Compliance
    The hours-of-service rules require a record to be kept of both 
driving time and all non-driving work activity (waiting to load and 
unload, inspecting/repairing the truck, performing the loading and 
unloading, looking for the next load, receiving a dispatch, doing 
paperwork, performing compensated work at another job, etc.) Even 
though an EOBR can record how long someone has operated a truck, if the 
driver does not manually enter his non-driving work time into the EOBR, 
the EOBR will show the driver as available to drive when he is not 
under the HOS rules! In fact, EOBRs will still permit someone 
performing compensated work for a person other than the motor carrier 
to drive, without showing a violation.
EOBRs Do Not Address the Cause of Driver Fatigue: Economic Pressure
    Drivers do not always know in advance how much uncompensated time a 
shipper or receiver will demand of them. Nor do drivers always know 
whether they will be expected to do the physical work of loading or 
unloading their truck or whether there will be proper equipment to do 
the job. Many drivers are forced to spend between 18 and 44 hours per 
week at the loading docks. How can drivers facing such wild cards be 
expected to plan their work/rest schedule and manage their fatigue?
    The majority of drivers are paid either a flat amount per load-
hauled, a percentage of freight charges or per mile-driven. Working 
under such an unpredictable schedule, some drivers must minimize the 
recording of their non-driving work in order to drive enough to make a 
basic living. EOBRs will do nothing to address these problems. And as 
described above, they will permit drivers to manage this problem as 
they always have--not logging all of their on-duty, not-driving time. 
If, on the other hand, driver compensation were correlated to both the 
amount of driving and the amount of non-driving work performed, not 
only would the incentive to maximize driving time be eliminated, but 
drivers would have a powerful incentive to log every hour of non-
driving work required of him or her.
EOBRs Can Be Used To Exacerbate Driver Fatigue
    As FMCSA touted in its proposed rule, EOBRs will permit motor 
carriers to monitor, in real-time, the location and duty-status of 
their drivers. Carriers will be able to notice whenever a driver has 
stopped the truck during their on-duty time. Perhaps the driver has 
decided to take a break and get rest. Such breaks do not suspend the 
running of the 14 hour work-day under the HOS rules. The carrier will 
be able to instantly instruct the driver to return to the road and 
maximize his or her driving time. Carriers will also be able to 
instruct drivers, whenever they want, to log their on-duty, not-driving 
work as off-duty, thereby preserving their on-duty driving time. Both 
practices remove what little discretion drivers have today to resist 
the economic pressure discussed above.
Mandating EOBRs Would Be an Unconstitutional Invasion of Privacy
    Truck drivers are widely offended by the invasion of privacy 
presented by 24 hour a day electronic monitoring by EOBRs of, for many, 
their home away from home. The use of EOBRs would be a warrantless 
search prohibited by the U.S. Constitution. An EOBR mandate for HOS 
enforcement would not pass the Supreme Court's standards for a search 
of a pervasively regulated business or a search under the special needs 
exception in Fourth Amendment jurisprudence. Truck drivers feel as 
though EOBRs represent the government's categorical ``sentencing'' of 
thousands of persons to the ``wearing'' of electronic ankle bracelets 
without suspicion, probable cause, due process or any finding of 
wrongdoing.
    OOIDA encourages lawmakers to seek solutions to motor carrier 
safety issues that are much less intrusive and much more effective: 
mandating comprehensive driver training, resolving problems at the 
loading docks, revising methods of driver compensation, creating more 
flexible hours-of-service rules, and providing adequate truck parking 
in those areas around the country where drivers who wish to rest cannot 
find such parking today.
    (See ``Rigs Keep On Trucking, Searching for Parking'' the The Wall 
Street Journal, page B1, May 1, 2007)
                       Testimony of Joe Rajkovacz
    I was an Owner-Operator for over two decades. I owned both my truck 
and trailer and lease them along with my driving services to a motor 
carrier. I was also a representative of a group of owner-operators who 
collectively haul a majority of America's fresh foods. Meat, dairy 
products, and produce are primary examples of what I would haul. I love 
what I did. However, I also hated what I did. Unfortunately, this 
testimony outlines what it is I hated in the industry. It is abuse of 
truckers at loading docks around this country and by implication, why 
many truckers do not account for time spent unloading or loading in the 
log books.
    I appreciate the Committee reviewing my testimony and look forward 
to any opportunity to interact with Committee Members and staff on 
these critically important trucking issues. I believe it would have 
been prudent for the Committee to first explore the substantial and 
overwhelming problems facing truck drivers in complying with the hours-
of-service rules, which I have detailed in the below testimony. 
Hopefully my testimony will shed some light on these critical issues, 
in light of the fact that it appears the Committee may have jumped to 
the conclusion that Electronic On-Board Recording Devices (EOBRs) are 
the solution to the problems truckers face. I trust that future 
hearings will involve the voice of the professional truckers.
    Although my testimony may be anecdotal in nature, what happens to 
truckers has a profound effect on highway safety, driver health, and 
our country's economy. Loading and unloading abuse begins at the point 
of dispatch for a driver. Often, the schedules given to me were not 
achievable within the Federal hours-of-service regulations. Most 
shippers and receivers require appointments for loading and unloading. 
They tell truckers when to arrive and are not concerned whether a 
driver can do it legally. They utilize a form of hidden coercion.
    For example, I may have been required to make an appointment no 
earlier than 8 AM on a given Monday. But, they wanted me there at 2 
a.m. If I said that won't work, they'd respond that the next available 
date for delivery is Wednesday--an extra 2 days for which their load 
will sit on my truck, but I receive no extra compensation. Thus, I am 
compelled to accept a time I knowingly cannot make legally. Remember, 
most truckers are paid by the mile or by a percentage of whatever a 
load pays, not by the hour.
    Earlier last year, I was given a delivery schedule spanning 22.5 
hours to drop part of my freight at six different locations. After 22.5 
hours, I was scheduled to drive 800 miles to the next morning's 
appointment. Federal regulation only allows me to be on duty for 
fourteen consecutive hours at which time I must take a 10 hour break. I 
objected to the scheduling and was told the usual, ``do the best you 
can.'' I was not told, ``sorry Joe, do it legally.'' Upon leaving my 
terminal, my mood was flustered and my anxiety level was high, because 
I knew I was ``screwed'' with an impossible schedule.
    The majority of truckers are very conscientious about appointments. 
They know to miss an appointment can yield a fine by the shipper or 
receiver and being rescheduled to another day. An increasing number of 
receivers are imposing ``late fees'' for missed appointment times. The 
charge is usually $150. To wait for another day would mean more 
uncompensated time away from the family. That is a great motivator to 
be on-time regardless of the regulations. Everyone in this room has 
been late for work at one time or another for reasons beyond your 
control. Traffic accidents, bad weather and vehicle break-downs are 
primary examples. Your employer may take action against you if a 
pattern develops. However, none of you risk losing a day's pay because 
you got caught behind an accident. Truckers do. The stress to make 
schedules is immense on drivers. Fines and rescheduled appointments for 
days late are an unconscionable burden imposed by shippers and 
receivers. It is ironic that when I showed up on-time to deliver, for 
example, three pallets of freight, and 5 hours later I finally left the 
dock, the same receiver threatened me with ``late fees'' and refused to 
pay me for my wasted time. Neither the FMCSA nor Congress has studied 
this issue or searched for solutions in over twenty-five years.
    Delays in unloading cause a cascade effect where other appointments 
are missed. The primary cause of unloading delays is that time spent at 
a dock does not represent a cost to the receiver. They have no economic 
incentive to use drivers' time productively. Their trucks become 
rolling and sitting warehouses with the driver spending as much time 
babysitting the freight as moving it from point to point. It is a huge 
inefficiency in our economy, favoring shippers and receivers.
    At the beginning of last year, I made two deliveries to a 
distribution center in Anniston, Alabama. The first time I was to 
deliver two pallets of cottage cheese and the second time I had only 
one pallet, of all of the pallets on my truck. I was on-time for both 
appointments. I spent 6.5 hours and 4.75 hours respectively to deliver 
that freight. That is 11.25 hours for three pallets of freight. I was 
not paid for that excessive time and caused me to miss other 
appointments. How is this productive for me or our economy?
    An absolute maxim of economic theory is, ``if something is free, it 
will be used to excess, regardless of the hidden costs.'' There are 
hidden costs. Drivers do not account for those hours as I described 
because they are not paid for them. Because EOBRs require manual input 
from a driver to account for such time, drivers will still be able to 
continue to not log this time, mostly as a result of subtle coercive 
pressure from motor carriers, shippers, and receivers. Drivers 
sacrifice their health putting in 20 hour days because of an 
inequitable system that quietly coerces them to do so. EOBRs will not 
affect this coercion.
    Most receivers I frequented required me to enter their property 
through a security gate. They scheduled the appointments and grouped 
more trucks together than they could unload during a given time. Trucks 
are usually not allowed on the property until 1 hour prior to an 
appointment. This creates bottle-necks of trucks in line at the same 
time. I have spent hours, just creeping forward to the gate, waiting 
for my turn at the guard shack, only to get there and be told I am 
late. This time is never logged. The receiver has no incentive to use 
my time productively, because my time is free.
    When I finally arrived at the receiving office all of those trucks 
ahead of me at the gate were now in line ahead of me at the single 
receiving window to check in. A particular receiver in Puyallup, 
Washington, requires all drivers to check in at 2 a.m. I have spent 
hours standing in line, outside in a cold drizzle, snaking my way in 
line to the one receiving window. No drivers report this waste of time, 
because they are not paid for it. Hopefully, once I checked in with the 
receiver I'd be given a dock assignment. Unfortunately, because of 
over-booking and unproductive use of truckers ahead of me, I'd have to 
wait for a dock to become available for 1, 2, 3, and 8 or more hours. 
I've experienced it all. I'm on-time, yet I sit. No driver accounts for 
these delays in their log books, and they won't be accounted for on 
EOBRs.
    Finally, I'd back in, ready to unload my freight. However, the 
receiver would not use their powered equipment to remove my pallets 
unless I paid their employees to unload their own freight. In the 
grocery distribution business, drivers are an easy target and a profit 
center for the receiver. Nearly every grocery chain in America plays 
this game. Grocery distribution centers contract with unloading 
services drivers call ``lumpers.'' Lumping services never have one 
person for each dock maybe one for every five docks.
    To keep from totally running afoul of the law, the receiver may 
make a manual hand-jack available for a driver to pull pallets off the 
trailer onto their dock. However, they may have only one jack for 
twenty doors, or worse, the jack is so decrepit that its unusable. 
Drivers are given a choice without a distinction and coerced into 
paying for unloading.
    An average pallet of freight often exceeds 2,000 pounds. This 
represents a physical impracticality for most drivers to manually 
remove. If a driver is lucky enough to have a load called a ``straight 
pull' (the palletized freight simply needs to be pulled from the 
trailer and placed on the dock and counted) unloading by manual pallet 
jack can takes hours.
    The situation is worse if a load needs to be ``broken-down''. 
Break-downs represent the majority of freight I hauled. I performed 
this task myself or hired the lumpers to do it. An example of a break-
down is palletized butter that I haul. The shipper stacked it four 
boxes high on the pallet, but the receiver wanted one or two boxes 
taken off and placed on a separate pallet. If I could not do the break 
down, I had to pay a lumper a minimum of $45 for one pallet. This would 
often lead to a cost of hundreds of dollars for an entire trailer load. 
That is a steep enough price to make me labor for endless hours on a 
dock to avoid paying for unloading. Drivers spend many hours engaged in 
physical labor on docks and do not record any of that time against 
hours-of-service. It is because drivers are not paid.
    It is the classic catch 22 situation. Comply with Federal 
regulations, burning hours for no compensation. A driver can hide that 
time wasted at docks so that a he has hours left for driving, where the 
money is made.
    Some in Washington believe that mandating electronic on-board 
recorders (EOBRs) will stop this coerced driver behavior. Supporters 
include those without experience driving a truck, motor carriers who 
seek to use EOBRs to maximize the efficiency of their fleet, and of 
course, EOBR equipment manufacturers. None are truck drivers.
    An EOBR is dependent on a driver's input. If he is not paid for all 
the above mentioned wasted time he will not start the EOBR until 
loading or unloading is completed, thus saving hours for driving. All 
of this has obvious repercussions on highway safety, driver health and 
our economy. Another economic axiom is, ``there are no free lunches.'' 
Truckers pay a huge hidden price with their health for this abuse at 
docks. Now they are being asked to bear the additional burden of EOBRs, 
an unconstitutional invasion of their privacy. This would be nothing 
more than the government's categorical ``sentencing'' of thousands of 
persons to the ``wearing'' of electronic ankle bracelets without 
suspicion, probable cause, due process or any finding of wrongdoing. 
I've read where electronic monitoring adds precipitously to worker 
stress levels.
    For many, the sleeper berth in the truck is home away from home. If 
EOBRs record everywhere drivers go and when they go there, such data 
would reveal their routes, the houses of friends and relatives, and 
other places they may visit while in their truck: book stores, 
restaurants, motels, libraries, casinos, truck stops, lawyers' offices, 
doctors' offices, health clinics, therapist offices, places of worship, 
customers, and possible future employers. None of this information is 
necessary to enforce any motor carrier safety rule and none of it is 
anybody else's business.
    EOBRs are not the panacea to compel better adherence to HOS 
regulations. If the objective is more effective recording of drivers 
hours and improving safety, how, without addressing loading and 
unloading abuse is this to be accomplished? America's hard working 
truck drivers deserve better from their government. If this were 
addressed properly, benefits to safety and improvements in warehousing 
and trucking efficiency would logically follow.
    You may ask yourself, if the trucking business is so bad, why did I 
continue trucking for so many years? For as much as I hated the 
treatment that I've described, I knew that eventually I'd be rolling 
down the highway, across the mountains, seeing what others only see in 
dreams. Truckers personify that undefeatable American spirit of freedom 
and independence. They have an optimism that all things pass and 
tomorrow can be better. I urge you to put the proposal of EOBRs aside, 
and give drivers the hope that Congress will pursue real solutions that 
address the actual causes of drivers' problems in the workplace. Thank 
you for your attention to my comments.
    Joe Rajkovacz has been a truck driver for 29 years and a member of 
the Owner-Operator Independent Drivers Association Board of Directors 
for 7 years. OOIDA has submitted extensive comments to the FMCSA's 
Advanced Notice of Proposed Rulemaking detailing its Constitutional 
arguments against EOBRs: http://dmses.dot.gov/docimages/pdf90/
306665_web.pdf and presenting drivers' critical review of Werner 
Enterprises' experience with such devices. See: http://dmses.dot.gov/
docimages/pdf90/306665_web.pdf and to FMCSA's Notice of Proposed 
Rulemaking detailing several legal deficiencies in the agency's 
proposed EOBR rule, See: http://dmses.dot.gov/docimages/pdf101/
466044_web.pdf.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Hon. John H. Hill
    Question 1. Why doesn't your proposed rule make use of the results 
of the 3 million roadside inspections performed every year to identify 
the motor carriers that are violating hours-of-service?
    Answer. Under FMCSA's electronic on-board recorders (EOBRs) 
proposal, motor carriers that have demonstrated a history of serious 
noncompliance with the hours-of-service (HOS) rules would be subject to 
mandatory installation of EOBRs meeting the new performance standards. 
If FMCSA determined, based on HOS records reviewed during each of two 
compliance reviews (CRs) conducted within a 2 year period, that a motor 
carrier had a 10 percent or greater violation rate (``pattern 
violation'') for certain HOS-related regulations, FMCSA would issue the 
carrier an EOBR remedial directive.
    Such carriers would have already demonstrated repeated 
noncompliance with the HOS regulations after being afforded an 
opportunity to improve. The Agency's existing compliance oversight 
processes would already have singled out these carriers for FMCSA's 
attention because safety violations found during roadside inspections, 
crash involvement, or both, placed them statistically well outside the 
norm at the time of the second CR. The Agency would also have provided 
recommendations to these carriers following the first CR to guide them 
toward improving their safety performance and regulatory compliance.
    FMCSA considered, but rejected, approaches for a remedial 
directives trigger based on roadside inspections or other non-CR 
procedures. Far more roadside inspections than CRs are performed, and 
these inspections generate a significant volume of HOS compliance data. 
However, certain of the Agency's algorithms using these data, such as 
the Driver Safety Evaluation Area (SEA) component of SafeStat scores, 
incorporate both HOS and some non-HOS violations, such as commercial 
driver's license violations. In addition, roadside inspections are 
designed to determine the safety status of a driver or vehicle at a 
given point in time, not to provide, on the basis of a single 
examination, a broad assessment of a motor carrier's general operations 
and safety management controls.
    CRs, by contrast, are intended to provide a broad assessment of a 
motor carrier's overall operations and safety management controls. They 
are ordinarily conducted at a motor carrier's place of business, 
involve larger samples of records, examine multiple vehicles and 
drivers' RODS, and typically produce a series of violation findings. 
Motor carrier safety ratings are based largely on CR data. Given the 
potential for an EOBR remedial directive to place a serious financial 
burden on a motor carrier, we believe such a directive should be issued 
only on the basis of a broad scope of operational examination and 
extensive record review inherent to the CR process. Although the Agency 
will continue to compile and use non-CR data as in the past and may 
consider cumulative roadside data in the future, FMCSA is proposing to 
use only CR-based violations as direct grounds for issuance of EOBR 
remedial directives. The Agency would continue to capture and make use 
of this valuable roadside input by using SafeStat results as a basis 
for selecting carriers for CRs.
    The FMCSA believes the proposal to use CR results was appropriate, 
based on the information available at the time the proposed rule was 
published. The FMCSA is reviewing the public comments to its EOBR 
Notice of Proposed Rulemaking and will consider whether different 
criteria should be used for triggering the mandatory use of EOBRs.

    Question 2. Hasn't your Compliance Review (CR) system been severely 
and repeatedly criticized for poor data and mistaken identification of 
the more dangerous motor carriers? If you propose using the data from 
CRs, how are you going to quickly correct these defects?
    Answer. As part of FMCSA's recent Notice of Proposed Rulemaking, 
motor carriers that have demonstrated a history of serious 
noncompliance with the hours-of-service rules would be subject to 
mandatory installation of EOBRs. Serious noncompliance would be 
determined based on hours-of-service records reviewed during compliance 
reviews conducted onsite at the motor carrier's place of business.
    The underlying violation data resulting from compliance reviews has 
not been routinely criticized. To the contrary, a recent draft 
Government Accountability Office (GAO) report found that FMCSA's 
management of our compliance review program met their standards for 
internal controls, thereby promoting thoroughness and consistency.
    The FMCSA's Safety Status Measurement System (SafeStat) used to 
identify which carriers should be subjected to an onsite compliance 
review has, however, been the subject of recent reviews that have 
identified problems primarily associated with the completeness of 
state-reported crash data. In response, FMCSA has implemented a number 
of data quality initiatives that have resulted in improvements.
    While FMCSA works continually to improve SafeStat's effectiveness, 
the system is still an efficient, effective, and useful tool for 
identifying high-risk motor carriers. The 2004 Office of Inspector 
General (OIG) report noted that compliance review results support the 
ability of SafeStat to identify high-risk carriers. In addition, a 2007 
GAO report indicated that SafeStat works twice as well as selecting 
carriers randomly and, therefore, has value for improving safety.
    The crash data quality issues identified in recent GAO and OIG 
reports have the potential to allow some high-risk carriers to escape 
scrutiny. They do not, however, mean that the carriers FMCSA has 
identified are not high-risk.
    With respect to the EOBR proposed rule, an important point is that 
any motor carrier that would be subject to mandatory installation would 
have had their hours-of-service problems documented through more than 
one on-site compliance review and would have been afforded full due 
process before being required to install EOBRs.

    Question 3. If you are concerned about U.S. motor carriers and 
drivers violating hours-of-service and falsifying logbooks, why aren't 
you requiring electronic on-board recorders for all Mexico-domiciled 
motor carriers?
    Answer. The FMCSA's proposal to require the mandatory use of EOBRs 
by certain motor carriers is intended to serve as a corrective measure 
for motor carriers that have demonstration a history of serious 
noncompliance with the hours-of-service rules. The FMCSA is not aware 
of any information that would suggest that Mexico-domiciled motor 
carriers, as a group, have a demonstrated history of serious 
noncompliance with the hours-of-service regulations.
    The FMCSA requires that all motor carriers operating commercial 
motor vehicles within the United States comply with the applicable HOS 
requirements. The Agency recognizes that there are differences between 
the HOS requirements of the United States and Mexico. However, the fact 
that Mexico-domiciled carriers operating in Mexico are not subject to 
FMCSA's requirements while they operate within Mexico does not mean 
these carriers have a history of serious noncompliance with FMCSA's 
hours-of-service rules.

    Question 4. Is there data that shows that truck drivers working 
nearly 100 hour weeks are just as safe and healthy as workers who work 
more conventional jobs requiring 40-hour work weeks?
    Answer. On August 25, 2005, FMCSA published a final rule revising 
its hours-of-service regulations or drivers of property-carrying 
commercial motor vehicles. The 2005 HOS rule provides increased 
opportunities for drivers to obtain necessary rest and restorative 
sleep, while also recognizing the need to provide motor carriers with 
flexibility to move products and while ensuring safe operations. The 
FMCSA's revised HOS rule balanced considerations of driver and public 
safety, driver health, and costs and benefits to the public and the 
motor carrier industry--all factors the Agency is statutorily required 
to consider under 49 U.S.C. 31136.
    On July 24, 2007, the United States Court of Appeals for the D.C. 
Circuit vacated those portions of the 2005 final rule that increase the 
daily driving limit from 10 to 11 hours, and that permit an off-duty 
period of 34 hours to restart the weekly on-duty limits. Therefore, 
motor carriers employing drivers of property-carrying vehicles no 
longer have the opportunity to use the restart provision. Other 
portions of the rule that remain in effect include: a more stringent 
sleeper berth provision that bars drivers from splitting their off-duty 
sleep period by requiring one 8-hour rest period; the 10 hour off-duty 
requirement to enable 8 hours of continuous rest; and a more 
restrictive 14 hour non-extendable duty tour ``driving window.'' The 
FMCSA is analyzing the court's opinion regarding driving time in light 
of its mandate to protect the health and safety of drivers.

    Question 5. FMCSA stated in the proposed rule that falsifying 
logbooks is a pervasive and chronic problem. These rules exist to 
prevent accident and injury. Why isn't the FMCSA using every 
technology, including requiring on-board recorders in all large 
commercial motor vehicles to stop these violations? If FMCSA can't 
justify enforcing the rules, can the rules themselves be justified?
    Answer. The FMCSA recognizes the views of many in the highway 
safety community and the general public about mandating EOBRs for the 
entire motor carrier industry. However, there are several million 
trucks and buses on America's roads today. The FMCSA's estimated safety 
benefits of mandating EOBRs on each of these vehicles was far less than 
the estimated costs of doing so, at the time the Agency published the 
NPRM. Therefore, the Agency focused on finding other ways to get more 
of these units on commercial motor vehicles, while targeting those with 
the greatest safety risk, without creating an unreasonable burden. This 
is why the proposed rule would encourage industry-wide use of EOBRs by 
providing incentives for voluntary use, rather than mandating the 
devices for the entire industry.

    Question 6. How are you going to stop hours-of-service violations 
and logbook falsification by only requiring about one one-hundredth of 
1 percent of motor carriers each year to have to install and use 
electronic on-board recorders?
    Answer. The Agency is aware of comments suggesting the final rule 
should cover more motor carriers, and is considering how to address 
such comments.
    The FMCSA focuses on those companies that are most likely to be a 
safety hazard on the road in its enforcement activities. Under this 
proposed rule, only those truck and bus companies with a history of 
serious hours-of-service violations would be required to install 
electronic on-board recorders in all of their commercial vehicles. 
Within the first 2 years that the rule would be enforced, we estimate 
that about 930 carriers with 17,500 drivers would fall under this 
requirement.
    The FMCSA, based on its safety research, believes that motor 
carriers whose drivers routinely exceed HOS limits have an increased 
probability of involvement in fatigue-related crashes and therefore 
present a disproportionately high-risk to highway safety. Based on the 
agency's analysis of its Motor Carrier Management Information System 
(MCMIS) data from CRs conducted since 1995 on motor carriers operating 
in interstate commerce, carriers to which a remedial directive would 
apply under this proposal have crash rates that are 87 percent higher 
than average. The crash rate for these carriers is an indication that 
they should be a top priority for the Agency.
    The FMCSA recognizes the views of many in the highway safety 
community and the general public about mandating EOBRs. However, there 
are several million trucks and buses on America's roads today. The 
FMCSA's estimated safety benefits of mandating EOBRs on each of these 
vehicles was far less than the estimated costs of doing so, at the time 
the Agency published the NPRM. Therefore, the Agency focused on finding 
other ways to get more of these units on commercial motor vehicles, 
without creating an unreasonable burden with a government mandate. This 
is why the proposed rule would encourage industry-wide use of EOBRs by 
providing incentives for voluntary use, rather than mandating the 
devices for the entire industry.

    Question 7. Why aren't you preventing fraud, misuse, and tampering 
by setting enforceable requirements in your EOBR proposed rule?
    Answer. The FMCSA believes the proposed performance standards for 
EOBRs are enforceable. However, while the Agency has authority to 
regulate motor carriers and drivers, it does not have direct regulatory 
authority over EOBR manufacturers. In developing the proposed 
requirements for EOBRs, FMCSA focused its attention on seven research 
factors listed in the ANPRM: (1) Ability to identify the individual 
driver; (2) Tamper resistance; (3) Ability to produce records for 
audit; (4) Ability of roadside enforcement personnel to access the HOS 
information quickly and easily; (5) Level of protection afforded other 
personal, operational, or proprietary information; (6) Cost; and (7) 
Driver acceptability.
    The FMCSA proposed that the EOBR record basic information needed to 
track duty status, including the identity of the driver, duty status, 
date and time, location of the CMV, distance traveled, and other items 
that the driver would enter (such as truck numbers and shipping 
document numbers). The EOBR would be required to identify the driver, 
although FMCSA does not propose mandating a specific identification 
method. This approach would allow carriers to use existing 
identification systems or implement newer technologies as they become 
feasible.
    While many of the proposed requirements, such as that for tamper 
resistance, parallel the requirements for AOBRDs, others would extend 
the AOBRD requirements based on our expectation that the EOBR will have 
a high degree of reliability. For example, FMCSA proposed that the EOBR 
would not need to be integrally synchronized to the engine or other 
vehicle equipment. An EOBR must, however, have GPS or other location 
tracking systems that record location of the CMV at least once a 
minute. EOBRs could still use sources internal to the vehicle to record 
distance traveled and time. EOBRs must perform a power-on self-test on 
demand and must also warn the driver if the device ceased to function. 
Maintenance, recalibration, and self-certification requirements would 
be similar to those for AOBRDs.

    Question 8. How are you going to prevent fraud and misuse by 
allowing portable cell phones to be used for showing hours-of-service 
compliance and without linking an EOBR with engines and electronic 
control modules?
    Answer. The purpose of an AOBRD or EOBR is to accurately record a 
driver's sequence of duty statuses, the time the driver is engaged in a 
given duty status category, and the sequence of dates, times, and 
locations that make up a trip. Historically, the only information 
available from a source not directly controlled by the driver was the 
driving time and distance, both of which were obtained from a source on 
the vehicle. Change-of-duty status locations had to be entered 
manually. In the 20 years since AOBRDs were first used, communications 
and logistics management technologies have evolved to enable a more 
fundamental item of information vehicle location to be tracked and 
recorded. The precision and accuracy of this recording has come to 
rival or surpass that of distance-and-time records from the CMV.
    FMCSA believes it is appropriate to offer an alternative, 
performance-oriented approach that allows motor carriers and EOBR 
developers to take advantage of emerging technologies. Specifically, 
FMCSA now believes that an EOBR does not necessarily have to be 
``integrally synchronized'' with the CMV to provide an accurate record 
of driving time, equivalent to that of an electronic odometer or the 
time function contained in an ECM. The Agency is proposing to allow two 
ways to record distance traveled and time: (1) via sources internal to 
the vehicle (i.e., the ECM with an internal clock/calendar) to derive 
distance traveled, or (2) via sources external to the vehicle (i.e., 
location-reference systems--GPS, terrestrial, or a combination of both) 
recording location of the CMV once per minute and using a synchronized 
clock/calendar to derive distance traveled (``electronic 
breadcrumbs''). This approach has the potential advantages of removing 
a restrictive design requirement, providing an opportunity for 
innovation, and allowing use of less expensive hardware (e.g., GPS-
enabled cell phones), without making existing synchronized devices 
obsolete.
    Regardless of the communications modes (wireless or terrestrial) 
and the method used to synchronize the time and CMV-operation 
information into an electronic RODS, FMCSA would require the records 
from EOBRs to record duty status information accurately. The difference 
proposed between actual distance traveled and distance computed via 
location-tracking methods over a 24-hour period would be <plus-minus> 1 
percent. EOBR developers would need to test their devices thoroughly to 
ensure they meet or exceed these tolerances.

    Question 9. How are you going to guarantee that the driver of a rig 
with an EOBR is actually the authorized or bona fide driver?
    Answer. The FMCSA's proposal would correct an apparent gap in the 
existing automatic on-board recorder (AOBRD) regulation. The current 
rule includes no explicit requirement for driver identification beyond 
requiring the driver's signature on hard copies of the record of duty 
status. The proposed rule would require driver identification, without 
prescribing a specific method.
    The FMCSA recognizes the diversity of motor carrier operations and 
acknowledges that numerous commenters' to the Agency's 2004 advance 
notice of proposed rulemaking (ANPRM) expressed concerns about the 
potential costs of advanced driver identification methods such as 
biometric identifiers and smart cards. Various approaches to 
identification currently exist, while others are being developed, and 
carriers may have different needs and standards regarding an acceptable 
level of risk.
    Rather than limiting carriers' ability to adopt technically 
advanced systems or imposing duplicative requirements on carriers 
desiring more secure systems, FMCSA proposed adopting a general 
requirement that driver identification be part of the EOBR record, 
without prescribing a specific approach. An EOBR would require the 
driver to enter self-identifying information (e.g., user ID and 
password, PIN numbers) or to provide other identifying information 
(e.g., smart card, biometrics) when he or she logs on to the EOBR 
system.
    In developing its proposed rule, FMCSA also considered ANPRM 
comments suggesting that the Agency require use of the Department of 
Homeland Security's proposed Transportation Working Identification Card 
(TWIC) to identify the CMV driver and possibly serve as a portable data 
record, FMCSA does not presently anticipate using TWIC for EOBR HOS 
data storage. There are several reasons for this. While the amount of 
memory required has yet to be specified, it is expected to be less than 
what would be needed for an EOBR application. Furthermore, FMCSA 
acknowledges concerns about driver and motor carrier privacy; some 
information contained on the TWIC would not be relevant to an HOS 
record.

    Question 10. Do you agree that waiting, loading and unloading 
activities for truck drivers can contribute to fatigue? Will the FMCSA 
consider requiring that carriers who use EOBRs ensure that on-duty, not 
driving time is also entered into the EOBR system to keep track of 
these waiting, loading and unloading activities?
    Answer. Yes. All motor carriers that are required to maintain a 
record of duty status, whether handwritten or electronic, must continue 
to ensure that the record accurately documents all driving time, and 
other duty time, such as waiting, loading and unloading.
    In developing the proposed requirements for EOBRs, FMCSA focused 
its attention on seven research factors listed in the ANPRM: (1) 
Ability to identify the individual driver; (2) Tamper resistance; (3) 
Ability to produce records for audit; (4) Ability of roadside 
enforcement personnel to access the HOS information quickly and easily; 
(5) Level of protection afforded other personal, operational, or 
proprietary information; (6) Cost; and (7) Driver acceptability. The 
FMCSA proposed that the EOBR record basic information needed to track 
duty status, including the identity of the driver, duty status, date 
and time, location of the CMV, distance traveled, and other items that 
the driver would enter (such as truck numbers and shipping document 
numbers). The EOBR would also be required to identify the driver, 
although FMCSA does not propose mandating a specific identification 
method. This approach would allow carriers to use existing 
identification systems or implement newer technologies as they become 
feasible.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Captain John E. Harrison
    Question 1. Do you believe that EOBR's will permit enforcement 
officials to more efficiently and accurately determine hours-of-service 
violations?
    Answer. Yes, if there are uniform standards regarding their design 
and implementation (i.e. standard interface for enforcement). As 
important, if not more so, is how to ``enforce'' these standards. There 
should be a 3rd party independent certification (initial and ongoing) 
program and a list of ``approved'' EOBRs. This will help to give 
comfort to those buying EOBRs and enforcement officers using them that 
they are certified to a certain standard.

    Question 2. Currently, how long does it take, on average, for 
enforcement officials to review and verify a driver's paper logbook? 
How do enforcement officials verify the information in the paper 
logbook and corroborate evidence to support driver's notations?
    Answer. It depends on the complexity of the trip and the nature of 
the interview. Generally speaking, the hours-of-service portion of the 
inspection takes approximately 10-15 minutes. Law enforcement uses the 
driver interview, supporting documents such as bills of lading, toll 
receipts, fuel receipts, gate receipts and other trip-related 
documentation to review hours-of-service compliance.

    Question 3. From your organization's perspective, how large is the 
problem of drivers falsifying logbooks and exceeding their hours-of-
service limits?
    Answer. We believe it is larger than what the data show.

    Question 4. Do you believe there is a corollary between drivers who 
violate the hours-of-service rules and safety?
    Answer. Yes we do. The attached research report corroborates this.
                                 ______
                                 

  Predicting Truck Crash Involvement: Developing a Commercial Driver 
         Behavior-Based Model and Recommended Countermeasures,

     A Report by American Transportation Research Institute (ATRI)

The Problem
    Efforts by government and industry over the years to reduce large 
truck crashes have led to a number of significant positive trends. The 
U.S. Department of Transportation (USDOT) recently reported a decrease 
in the fatal crash rate for large trucks from 2.2 fatalities per 100M 
vehicle miles traveled (VMT) in 2000 to 1.9 fatal crashes per 100M VMT 
in 2003.\1\ In spite of increasing VMT and increased congestion over 
the years, the trucking industry has seen a general downward trend in 
fatal, injury and property damage crash rates over the last 20 years.
---------------------------------------------------------------------------
    \1\ Large Truck Crash Facts 2003, Analysis Division, Federal Motor 
Carrier Safety Administration, FMCSA-RI-04-033, February 2005.
---------------------------------------------------------------------------
    However, both industry and government recognize that more must be 
done to reduce the overall number of large truck crashes. Prior 
research studies, including the Federal Motor Carrier Safety 
Administration (FMCSA) Large Truck Crash Causation Study, point to 
driver-related factors as a critical reason for the majority of crashes 
involving large trucks. Therefore, focusing on driver behaviors will 
have the most profound impact on crash reduction.
Research Goal
    The objective of this research was to design and test an analytical 
model for predicting future crash involvement based on prior driver 
history information. A second objective of the research, conducted in 
conjunction with the Commercial Vehicle Safety Alliance (CVSA), was to 
identify effective enforcement actions to counteract the driving 
behaviors and events that are predictive of future crash involvement.
Methodology
    This research is one of the first studies of its kind to analyze 
several available subsets of driver-specific data and statistically 
relate the data to future crashes. Data sources included the Motor 
Carrier Management Information System (MCMIS) and the Commercial 
Drivers License Information System (CDLIS).
    The main dependent variable is crash involvement. For purposes of 
this research, crash involvement is the objective measure of driver 
``safety.'' The independent variables are driver-specific performance 
indicators mined from the data including: specific violations; driver 
traffic conviction information; as well as past accident involvement 
information.
    Driver data was gathered across a 3-year timeframe, and was 
analyzed to determine future crash predictability. For each of the 
drivers in the selected samples, driver history regarding past 
inspections and crashes were derived from MCMIS, and past conviction 
data was derived from CDLIS. Descriptive statistics were run on this 
entire dataset to develop the targeted samples.
    Appropriate statistical tests, including chi-square analyses, were 
used to identify statistically significant predictions for future crash 
involvement based on past inspection, conviction, and/or crash 
information.
    In order to associate the negative behaviors and events with 
enforcement strategies on a state-by-state basis, an objective measure 
was created that developed a statistical relationship between CMV 
traffic enforcement and a weighted crash metric. All 51 enforcement 
jurisdictions were surveyed to identify current enforcement activities 
addressing CMV driver behavior. Additional research was conducted on 
those states identified as ``top tier'' to identify targeted 
enforcement strategies and best practices.
Findings
    The predictive model included data on 540,750 drivers. The analysis 
shows reckless driving and improper turn violations as the two 
violations associated with the highest increase in likelihood of a 
future crash. The four convictions with the highest likelihood of a 
future crash are: improper or erratic lane change; failure to yield 
right of way; improper turn; and failure to maintain proper lane. When 
a driver receives a conviction for one of these behaviors, the 
likelihood of a future crash increases between 91 and 100 percent. 
Table 1 ranks the top 10 driver events by the percentage increase in 
the likelihood of a future crash.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The targeted surveys and interviews indicated that successful 
enforcement programs and strategies for addressing problem driver 
behaviors are those that exhibit one or more of the following 
components:

  <bullet> Center on aggressive driving apprehension programs/
        initiatives;

  <bullet> Target both commercial motor vehicle (CMV) and non-CMV 
        behavior patterns;

  <bullet> Utilize both highly visible and covert enforcement 
        activities; and

  <bullet> Incorporate an internal performance-based system for 
        managing enforcement by specific crash types, driver behaviors, 
        and locations.

    The research also surveyed carriers to identify those hiring, 
training, and remediation practices most likely to mitigate the impacts 
of the problem behaviors identified.
    A complete listing of findings and recommendations can be found in 
the full report, Predicting Truck Crash Involvement: Developing a 
Commercial Driver Behavior-Based Model and Recommended 
Countermeasures.*
---------------------------------------------------------------------------
    * This report is maintained in Committee files.
---------------------------------------------------------------------------
    To receive a copy of this report and other ATRI studies, please 
visit: www.atri-online.org.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Richard S. Reiser
    Question. Do you have an explanation of why your drivers regularly 
falsified their Qualcomm logs a few years ago when you started the 
FMCSA's pilot program to test Qualcomm's GPS system for monitoring 
truck driver hours-of-service compliance?
    Answer. We are uncertain of the context in which it is alleged that 
our drivers ``regularly falsified their Qualcomm logs a few years 
ago''. We have sought clarification of that through the American 
Trucking Associations; however, as of this time we have not received a 
clarification of the question. In view of the impending deadline, we 
will attempt to answer the question as we understand it.
    The concept and design of the Werner Paperless Log System was to 
create an automated logging system for our drivers. The purpose was not 
to create simply an electronic means of recording logbook information, 
but to create a system which would do so automatically with minimal 
driver input. Stated differently, we were not attempting to simply 
replace a hand written document with a type written document. We should 
also explain that both the idea and motivation for the Paperless Log 
System originated from Werner with the dual goals of improving the 
accuracy of driver records of duty status and the safety of its fleet.
    In order to accomplish an automated logging system it was necessary 
that certain assumptions be made. Those assumptions were made on the 
basis of what the most frequent, or most common response would be to a 
particular situation, and the driver given the means of overriding that 
assumed response as necessary. Drivers were instructed to do so. One of 
the assumptions made in the first stages of the pilot program, which 
was based on years of experience with records of duty status in our 
fleet, was that if a truck stopped moving for a certain period of time 
(15 minutes), it was assumed that the driver had gone off-duty. A log 
entry would be entered accordingly. That was the most common situation 
when a driver ceased moving for a period in excess of 15 minutes. 
Obviously, however, there were times when a driver ceased moving and 
then went on-duty not driving. In those situations, the driver was 
instructed to override the assumption and show that he was in fact on-
duty.
    During the course of the pilot program and the frequent auditing of 
the pilot program by FMCSA, FMCSA became concerned that some drivers 
were simply accepting the assumption that they had gone off-duty and 
were failing to override that assumption to show that they were in fact 
on-duty not driving. Doing so would create the effect of a false log. 
Although there was no indication that this was a widespread problem, 
FMCSA required that assumption be changed, so that when a truck ceased 
moving for a period of time, the driver would be placed ``on-duty not 
driving'', and would therefore be less likely to accept that assumption 
if he was ``off-duty''.
    The changes which were made in the program to change the automatic 
assumption, have been reviewed by FMCSA and found acceptable prior to 
the time an exemption was granted. If you have any additional questions 
concerning this, or if this is not the issue to which your question was 
directed, please feel free to contact me.

                                  <all>

</pre></body></html>
